<html>
<title> - SOLVING THE CLIMATE CRISIS: NATURAL SOLUTIONS TO CUTTING POLLUTION AND BUILDING RESILIENCE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                      SOLVING THE CLIMATE CRISIS:
                  NATURAL SOLUTIONS TO CUTTING POLLUTION 
                        AND BUILDING RESILIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                        SELECT COMMITTEE ON THE
                        
                             CLIMATE CRISIS
                             
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                              HEARING HELD
                               
                            OCTOBER 22, 2019
                               __________

                           Serial No. 116-12
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                            www.govinfo.gov
   Printed for the use of the Select Committee on the Climate Crisis
   
   
                             ______                          

              U.S. GOVERNMENT PUBLISHING OFFICE 
 39-375                WASHINGTON : 2020   
 
 
 
 
   
   
   
                 SELECT COMMITTEE ON THE CLIMATE CRISIS
                     One Hundred Sixteenth Congress

                      KATHY CASTOR, Florida, Chair
BEN RAY LUJAN, New Mexico            GARRET GRAVES, Louisiana,
SUZANNE BONAMICI, Oregon               Ranking Member
JULIA BROWNLEY, California           MORGAN GRIFFITH, Virginia
JARED HUFFMAN, California            GARY PALMER, Alabama
A. DONALD McEACHIN, Virginia         BUDDY CARTER, Georgia
MIKE LEVIN, California               CAROL MILLER, West Virginia
SEAN CASTEN, Illinois                KELLY ARMSTRONG, North Dakota
JOE NEGUSE, Colorado


                Ana Unruh Cohen, Majority Staff Director
                  Marty Hall, Minority Staff Director
                        climatecrisis.house.gov
                        
                        
                            C O N T E N T S

                              ----------                              

                   STATEMENTS OF MEMBERS OF CONGRESS

                                                                   Page
Hon. Kathy Castor, a Representative in Congress from the State of 
  Florida, and Chair, Select Committee on the Climate Crisis:
    Opening Statement............................................     1
     Prepared Statement..........................................     3
Hon. Garrett Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Select Committee on the 
  Climate Crisis:
    Opening Statement............................................     3

                               WITNESSES

Joseph Fargione, Science Director, North America Region, The 
  Nature Conservancy
    Oral Statement...............................................     5
    Prepared Statement...........................................     7
Frankie Myers, Vice Chairman, Yurok Tribe
    Oral Statement...............................................    18
    Prepared Statement...........................................    20
Jennifer Howard, Director, Oceans and Climate, Conservation 
  International
    Oral Statement...............................................    28
    Prepared Statement...........................................    30
Andy Karsner, Executive Chairman, Elemental Labs
    Oral Statement...............................................    36
    Prepared Statement...........................................    38

                       SUBMISSIONS FOR THE RECORD

Report, The Ocean as a Solution for Climate Change: Five 
  Opportunities for Action, submitted for the record by Ms. 
  Castor.........................................................    61


SOLVING THE CLIMATE CRISIS: NATURAL SOLUTIONS TO CUTTING POLLUTION AND 
                          BUILDING RESILIENCE

                              ----------                              


                       TUESDAY, OCTOBER 22, 2019

                     U.S. House of Representatives,
                    Select Committee on the Climate Crisis,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:04 p.m., in Room 
1302, Longworth House Office Building, Hon. Kathy Castor 
[chairwoman of the committee] presiding.
    Present: Representatives Castor, Bonamici, Brownley, 
Huffman, Casten, Neguse, Graves, Palmer, Carter, and Miller.
    Ms. Castor. The committee will come to order.
    Without objection, the chair is authorized to declare a 
recess of the committee at any time.
    Welcome, everyone. Natural climate solutions are ways of 
storing carbon and avoiding greenhouse gas emissions through 
conservation, restoration, and improved management of 
landscapes and wetlands. And today we will examine the 
potential of natural climate solutions to help meet emissions 
reduction targets by sequestering carbon in roots and soils and 
reducing emissions from the land sector by protecting natural 
resources and natural spaces.
    We will also discuss the co-benefits of nature-based 
climate strategies to create resilient ecosystems and 
communities from the increasingly severe impacts of climate 
change.
    And I would like to welcome everyone. We have all been 
quite interested in getting to this topic. So I will recognize 
myself for 5 minutes for an opening statement.
    The climate crisis is a complex problem, and there is no 
single, easy way to solve it. We have to explore every 
opportunity we have to keep carbon pollution out of the air and 
reduce climate risks and the rising cost to people and their 
communities. Over the past few months, this community has 
gathered information through hearings and site visits, so that 
we can build commonsense solutions to the climate crisis. We 
have examined the transportation sector, the electricity 
sector, the building sector, the industrial sector. We have 
discussed the importance of innovation. We have discussed 
investing in clean energy, rebuilding our infrastructure in a 
smart way, and creating good jobs in the process.
    Today we are switching gears to discuss a powerful solution 
that is all around us--nature. The world's ecosystems can help 
us solve the climate crisis. Protecting and restoring our lands 
and our waterways and our natural spaces can provide a 
tremendous opportunity to capture and store significant amounts 
of carbon.
    As you will hear from our terrific witnesses today, 
America's forests, grasslands, wetlands, and agricultural lands 
can store more carbon. Such carbon sequestration and sinks have 
the potential to store the equivalent of over one-fifth of the 
net emissions in the United States every year. And America's 
farmers are likely to develop solutions for the land that can 
be shared across the globe.
    Nature can help solve other climate change challenges as 
well. Take wetlands, for example. Whether it is mangroves in 
Florida or marshes in coastal Louisiana, wetlands are highly 
effective at storing carbon. They also make our coastal 
communities more resilient by buffering the impacts and 
reducing the costs of storm surge, of sea-level rise, and 
flooding.
    Trees are another key natural climate solution. In fact, 
recent studies show that forests have the greatest potential to 
mitigate climate change. Trees can also help in the fight for 
climate justice. It turns out that urban forestry can reduce 
the effects of urban heat islands, protecting low-income 
communities from extreme heat.
    And investing in better forest management practices to 
reduce carbon pollution can also help protect communities from 
destructive wildfires. Oceans, bays, and lakes are helping us 
store and absorb more carbon, but they are stressed by 
acidification and warming. We must be mindful not to overload 
them and trigger ecosystem collapses that would harm everything 
dependent on them, including us.
    Nature offers us plenty of incredible resources to mitigate 
climate change, but only if we work to protect it. Every 30 
seconds our country loses a natural area the size of a football 
field to human development. When ecosystems are degraded or 
used for development, the carbon that they store is released 
into the atmosphere, contributing to a warming climate that 
will transform the way we live.
    On the other hand, when natural spaces and ecosystems are 
protected and restored, they have the capacity to do incredible 
things, like filter our air and our water, reduce heat in our 
cities, and help protect our communities from extreme weather 
events.
    So the choice is clear, protecting nature provides 
immediate cost-effective opportunities to dramatically reduce 
emissions and create more resilient communities. Local 
communities are hungry for a deeper partnership and resources 
to adapt to the rising cost and impacts of the climate crisis.
    So I look forward to hearing from you on the best natural 
solutions to solve the climate crisis. Thank you all for being 
here today, and I yield 5 minutes to Mr. Graves, our ranking 
member.
    [The statement of Ms. Castor follows:]

                Opening Statement of Chair Kathy Castor

 Hearing on ``Solving the Climate Crisis: Natural Solutions to Cutting 
                  Pollution and Building Resilience''

                 Select Committee on the Climate Crisis

                            October 22, 2019

                        As prepared for delivery

    The climate crisis is a complex problem and there is no single, 
easy way to solve it. We have to explore every opportunity we have to 
keep carbon pollution out of the air and reduce climate risks and 
rising costs to people and their communities.
    Over the past few months, this committee has gathered information 
through hearings and site visits so that we can build common-sense 
solutions to the climate crisis. We've examined the transportation 
sector, the electricity sector, the industrial sector, and the 
buildings sector. We've discussed the importance of innovation, 
investing in clean energy, rebuilding our infrastructure in a smart 
way, and creating good jobs in the process.
    Today, we're switching gears to discuss a powerful solution that's 
all around us: nature.
    The world's ecosystems can help us solve the climate crisis. 
Protecting and restoring our lands and our waterways--and our natural 
spaces--can provide a tremendous opportunity to capture and store 
significant amounts of carbon.
    As you'll hear from our witnesses today, America's forests, 
grasslands, wetlands and agricultural lands can store more carbon. Such 
carbon sequestration or sinks have the potential to store the 
equivalent of over one-fifth of the net emissions in the United States 
every year. America's farmers likely will develop solutions for the 
land that can be shared across the globe.
    Nature also can help solve other climate change challenges. Take 
wetlands, for example. Whether it's mangroves in Florida, or marshes in 
coastal Louisiana, wetlands are highly effective at storing carbon. 
They also make our coastal communities more resilient by buffering the 
impacts and reducing the costs of storm surge, sea level rise, and 
flooding.
    Trees are another key natural climate solution. In fact, recent 
studies show that forests have the greatest potential to mitigate 
climate change. Trees can also help in the fight for climate justice. 
It turns out that urban forestry can reduce the effects of urban heat 
islands, protecting low-income communities from extreme heat. And 
investing in better forest management practices to reduce carbon 
pollution can also help protect communities from destructive wildfires.
    Oceans, bays and lakes are helping us store and absorb carbon, but 
they are stressed by acidification and warming. We must be mindful not 
to overload them and trigger ecosystem collapses that would harm 
everything dependent on them, including us.
    Nature offers us plenty of incredible resources to mitigate climate 
change, but only if we work to protect it. Every 30 seconds, our 
country loses a natural area the size of a football field to human 
development.
    When ecosystems are degraded or used for development, the carbon 
that they store is released into the atmosphere, contributing to a 
warming climate that will transform the way we live. On the other hand, 
when natural spaces and ecosystems are protected and restored, they 
have the capacity to do incredible things, like filter our air and 
water, reduce heat in our cities, and help protect our communities from 
extreme weather events.
    The choice is clear.
    Protecting nature provides immediate, cost-effective opportunities 
to dramatically reduce emissions and create more resilient communities.
    Local communities are hungry for a deeper partnership and resources 
to adapt to the rising costs and impacts of climate change.
    I look forward to hearing from you on the best natural solutions to 
solve the climate crisis. Thank you for being here today.

    Mr. Graves. Thank you, Madam Chair, and I want to thank you 
once again, 2 weeks in a row, for holding a really good, 
topical hearing. I think this is an issue where we have much 
opportunity to work together to make a lot of progress.
    Madam Chair, you noted that this hearing is all about 
natural systems, how do we take advantage of our biogenic 
environment and help to enhance its ability to uptake 
greenhouse gases.
    And I think that it is often an overlooked part of the 
overall solution, that we need to be maximizing. I think that 
when you look at the opportunities that we have in our natural 
systems, to be able to uptake greenhouse gases, it is an 
extraordinary tool in our tool chest and one that we probably 
ought to take a fresh look at 45Q and determine how to make 
tweaks or perhaps do a complementary component. It might be the 
one provision of the tax bill that my friend, Mr. Huffman, 
actually supported. But I think that it is an opportunity for 
us to once again work together.
    Madam Chair, as you know, a few lives back I worked on 
resilience and sustainability for south Louisiana, and back 
then, we developed one of the first clean development 
mechanisms in the world--we started before anyone else, and I 
think ours was really comprehensive--but the first clean 
development mechanism in the world that actually quantified the 
uptake of greenhouse gases resulting from our coastal wetlands 
restoration projects and from preventing the loss of coastal 
wetlands.
    And as we have talked about at previous hearings, by 
restoring our coastal wetlands and our coastal systems, you 
complement what also we have talked about here, which is 
adaptation strategies and using our natural systems to help 
improve the resilience of our communities. As I think I have 
said at every hearing we have had, we lost 2,000 square miles 
of our coast in Louisiana. That is like the State of Rhode 
Island disappearing. Which means when storms and hurricanes 
come, we no longer have that buffer. They don't evacuate 
Arkansas during hurricanes because Louisiana is the buffer. We 
have lost ours, which means we are more vulnerable to 
hurricanes. So you get a two-fer. You get the ability to uptake 
greenhouse gases and sequester those, and you also improve the 
resiliency of your communities. And I guess a third is the 
ecological productivity.
    So I do think that we have a big opportunity to work 
together on this topic, as well as a few others that we have 
discussed in the past.
    I am looking forward to hearing the testimony from the 
esteemed panel today. I had a chance to look over your 
submitted testimony. I certainly appreciate all of you being 
here and looking forward to hearing your oral presentation. 
With that, I yield back.
    Ms. Castor. Terrific. Without objection, members who wish 
to enter opening statements have 5 legislative days to do so.
    At this time, I want to welcome our terrific witnesses. We 
have an outstanding panel today. I will go down the line, each 
of you, and I know Mr. Huffman wants to make a special 
introduction as well.
    First, we have Dr. Joe Fargione--I think that is right, 
okay--is the lead scientist for The Nature Conservancy's North 
America region. He is an expert in land use, conservation, and 
nature's benefits to people, including climate change 
mitigation.
    Our next witness is from Yurok, the Yurok Tribe, whose 
reservation is located in Mr. Huffman's district, and I will 
turn it over to you, Mr. Huffman, to introduce him.
    Mr. Huffman. Well, thank you very much, Madam Chair. I am 
really proud to introduce the vice chairman of the Yurok Tribe, 
Frankie Myers. The Yurok is the largest tribe in California, 
and it is also a tribe that is deeply and authentically 
connected to the beautiful lands of the Klamath River Basin 
that are its ancestral territory.
    Their stewardship of these lands, and especially the 
forests and the fisheries, has been noted and appreciated by 
folks all over California, for sure, but their leadership has 
also been recognized by the United Nations Development Program 
which gave the Yurok Tribe the Equator Prize, honoring 
innovative nature-based solutions for tackling climate change, 
environment, and policy challenges.
    I am sure that we have a lot to learn from hearing from 
hearing from Vice Chairman Myers, and we welcome you to the 
committee, sir.
    Ms. Castor. Welcome. Thank you, Mr. Huffman.
    Next is Dr. Jennifer Howard. She is the executive 
chairman--or excuse me--she is the marine climate change 
director at Conservation International. Her work focuses on 
protecting coastal and marine ecosystems to mitigate climate 
change and create resilient coasts and communities.
    Next, Mr. Alex Karsner is the executive chairman of 
Elemental Labs. He is a visiting fellow at the Hoover Institute 
at Stanford University and a member of the Hoover Institution's 
energy policy task force. He previously served as DOE's 
Assistant Secretary for Energy Efficiency and Renewable Energy 
under President George W. Bush.
    Without objection, the witnesses' written statements will 
be made part of the record.
    With that, Dr. Fargione, you are now recognized to give a 
5-minute presentation of your testimony.
    Thank you.

STATEMENTS OF DR. JOE FARGIONE, LEAD SCIENTIST, NORTH AMERICA, 
   THE NATURE CONSERVANCY; VICE CHAIRMAN FRANKIE MYERS, VICE 
 CHAIRMAN, YUROK TRIBAL COUNCIL, THE YUROK TRIBE; DR. JENNIFER 
     HOWARD, MARINE CLIMATE CHANGE DIRECTOR, CONSERVATION 
 INTERNATIONAL; AND THE HON. ANDY KARSNER, EXECUTIVE CHAIRMAN, 
                         ELEMENTAL LABS

                 STATEMENT OF DR. JOE FARGIONE

    Dr. Fargione. Chair Castor, Ranking Member Graves, and 
members of the committee, thank you for inviting me to speak 
today.
    Climate change is no longer a distant threat. We are 
currently living with its impacts, and our actions now will 
determine if we can create a world where both people and nature 
thrive.
    The Nature Conservancy is committed to doing our part to 
tackle climate change by mobilizing action for a clean energy 
future, accelerating the deployment of natural solutions, and 
building resilience through natural defenses.
    Today I would like to talk to you about the critical role 
that nature can play in fighting climate change, what I refer 
to as natural climate solutions. If you remember one thing from 
my testimony, please remember that we can help fight climate 
change by planting trees, promoting soil health, and protecting 
our wetlands and coastal ecosystems.
    These natural climate solutions are affordable, they 
provide many cobenefits, and they are available now. You may 
wonder, what does nature have to do with fighting climate 
change? As you may recall from biology class or at least from 
watching ``Star Trek,'' life on earth is carbon-based. Plants, 
for example, are about half carbon. This means that we can help 
fight climate change by storing more carbon on the landscape in 
our trees and soils, and by reducing the emissions of carbon 
dioxide and other greenhouse gases from our natural and working 
lands.
    Last year I led a study with 37 other experts from 22 
institutions that assessed the potential for natural climate 
solutions to reduce emissions in the United States. Our study 
shows that natural climate solutions can play a significant 
role in fighting climate change, with a maximum potential 
benefit equivalent to one-fifth of our Nation's current net 
emissions. That is the same as if every car and light duty 
truck in the country stopped emitting carbon. The largest 
opportunities have to do with planting trees, improved forest 
management, the avoided conversion of forest and grasslands, 
and building soil health in our agricultural lands.
    Significantly increasing our investments in natural climate 
solutions, in addition to a rapid transition to more zero 
carbon energy and energy efficiency, is our best hope for 
dealing with the climate crisis.
    Natural climate solutions not only fight climate change, 
they provide many other benefits. They clean the air we breathe 
and the water we drink. They protect our lives and our property 
from storms and floods. They build soil health, restore forests 
for recreation and wildlife, and increase the productivity and 
resilience of our working lands.
    For example, investments in cover crops and other 
conservation practices on farm fields help improve the soil 
health and water quality, in addition to storing more carbon in 
the soil.
    Improved nutrient management can reduce the cost of 
fertilizers and save farmers money in addition to reducing 
emissions of the greenhouse gas nitrous oxide.
    Urban reforestation increases people's quality of life and 
property values and reduces the cooling costs for their homes. 
And protecting and restoring coastal wetlands can help reduce 
storm surges and reduce flooding.
    Another promising finding of our study is just how 
affordable many natural climate solutions are. Specifically, 
there are hundreds of millions of tons of carbon dioxide per 
year that can be kept out of the atmosphere at just $10 per ton 
of carbon dioxide or less, well under the price of other 
technologies that can remove carbon dioxide from the 
atmosphere. And that is the price just for carbon. All of the 
other benefits of clean air and water, flood protection, and 
wildlife are thrown in for free. In short, they are a very good 
deal.
    And while we talk about this as a cost to reduce carbon, 
for the land owners and producers, this would be revenue. They 
would be getting paid for reducing pollution and helping 
provide a stable climate that benefits everyone.
    There are many ways to pay for natural climate solutions. 
Money could come from voluntary payments by companies that want 
to meet their emissions goals, by providing Federal support 
directly to land owners and producers such as through existing 
Farm Bill programs, or from new policies like a price on 
carbon.
    Natural climate solutions are gaining traction, because 
there are so many good reasons to invest in nature. From 
reducing costs for farmers and creating jobs for foresters, to 
improving air quality and protecting coastal communities from 
flooding, the benefits are numerous.
    For all these reasons, the time is right for us to make a 
significant investment in natural climate solutions. Thank you.
    [The statement of Dr. Fargione follows:]

                    Testimony of Dr. Joseph Fargione

     Science Director, North America Region, The Nature Conservancy

   Before the U.S. House of Representatives Select Committee on the 
                             Climate Crisis

 ``Solving the Climate Crisis: Natural Solutions to Cutting Pollution 
                   and Building Climate Resilience''

                            October 22, 2019

    Chair Castor, Ranking Member Graves, and members of the Committee, 
thank you for inviting me to testify on natural solutions to cutting 
pollution and building resilience. I am Joseph Fargione, Science 
Director for the North America Region of The Nature Conservancy (TNC). 
Founded in 1951, TNC is a global environmental nonprofit working to 
create a world where people and nature can thrive. Thanks to more than 
a million members and the dedicated efforts of our diverse staff and 
more than 400 scientists, we work in all 50 U.S. states and impact 
conservation in 72 countries across six continents.
    Climate change is no longer a distant threat. We are currently 
living with its impacts, as Americans are seeing chronic drought, 
rising seas, record high temperatures, more frequent extreme storms and 
fires, and significant economic losses (USGCRP 2017). The climate 
crisis is endangering people, livelihoods, and decades of work on the 
conservation of America's wildlife and environment.
    Addressing climate change is necessary to create a world where both 
people and nature thrive, where we provide food and goods for our 
growing population, design healthy and livable cities, and conserve and 
protect lands, freshwaters, and oceans. To create this world, American 
innovation and leadership is both capable and necessary.
    The Nature Conservancy is committed to tackling climate change and 
to helping vulnerable people and places deal with the impacts of a 
changing climate, including increasingly extreme weather conditions. We 
are doing this by mobilizing action for a clean energy future, 
accelerating the deployment of natural solutions, and building 
resilience through natural defenses.
    Today, I'd like to talk to you about the critical role nature can 
play in fighting climate change, what I refer to as Natural Climate 
Solutions. If you remember one thing from my testimony, remember that 
we can help fight climate change by planting trees, promoting soil 
health, and protecting our wetlands and coastal ecosystems. Landowners 
and producers can be incentivized and rewarded for voluntarily engaging 
in practices that remove carbon while helping to provide clean water, 
clean air, and wildlife habitat. If fully realized, Natural Climate 
Solutions could have a climate benefit up to one fifth of our current 
net emissions.
    You may wonder `what does nature have to do with fighting climate 
change?' As you may recall from your biology class, or from watching 
Star Trek, life on Earth is carbon-based. Plants, for example, are 
about 50% carbon. The plants on Earth contain almost as much carbon as 
the atmosphere. And the soil contains nearly 4 times as much carbon as 
the atmosphere. This means that we can help fight climate change by 
storing more carbon on the landscape in our trees and soils and by 
reducing the emission of carbon dioxide and other greenhouse gases from 
our natural and working lands.
    Last year, I led a study, with 37 other experts from 22 
institutions that assessed the potential for Natural Climate Solutions 
to reduce emissions in the United States (Fargione et al. 2018). Our 
study shows that Natural Climate Solutions can play a significant role 
in fighting climate change, with the potential benefit equivalent to 
one fifth of our nation's current net emissions--that's the same as 
eliminating emissions from all cars and light duty trucks in America. 
In other words, nature provides much greater potential than most people 
realize. Significantly increasing our investments in Natural Climate 
Solutions, in addition to increased energy efficiency and a rapid 
transition to zero-carbon energy sources, is our best hope for dealing 
with the climate crisis.
    Natural Climate Solutions are not a silver bullet--it may be better 
to think of them as a collection of silver BBs. The largest 
opportunities include planting trees, improving forest management, 
avoiding conversion of forests and grasslands, and building soil health 
in our agricultural lands. Collectively, these efforts can be deployed 
across hundreds of millions of acres, in every state in our nation. All 
regions of the country have a role to play in implementing Natural 
Climate Solutions. Before I describe each Natural Climate Solution in 
detail, there are several important characteristics of Natural Climate 
Solutions worth pointing out.
                     ncs provide multiple benefits
    Natural Climate Solutions have strong co-benefits. They not only 
fight climate, they also help provide clean air and water, they improve 
quality of life, and they help store floodwaters and protect our coasts 
from storm surges. Further, they build soil health, increasing the 
productivity and resilience of our working lands. For example, 
investments in cover crops and other conservation practices on farm 
fields help improve soil health and water quality, in addition to 
storing more carbon in the soil. Improved nutrient management can 
reduce the cost of fertilizer and save farmers money. Urban 
reforestation increases quality of life and property values and reduces 
air pollution and mortality from heat waves. Restoring fire-prone 
forests will reduce the risk of catastrophic wildfires that threaten 
homes and air quality. And protecting and restoring coastal wetlands 
can help reduce storm surges, flooding and coastal erosion. Often, it 
is these other benefits that inspire people to invest in Natural 
Climate Solutions, and that is a big part of why I think this approach 
is so promising--because there are so many good reasons to invest.
                           ncs are affordable
    Natural Climate Solutions are also cost-effective. Specifically, 
there are hundreds of millions of tonnes of carbon dioxide per year 
that can be kept out the atmosphere for an investment of just $10 per 
tonne of carbon dioxide. And that is the price just for the carbon - 
all of the other benefits of clear air and water, flood protection, and 
wildlife are thrown in for free. For comparison, the cost of Natural 
Climate Solutions is well under the price of other technologies that 
can remove carbon dioxide from the atmosphere (e.g. Keith et al. 2018). 
While we support continued investments to help drive the commercial 
deployment of technologies to capture carbon, we know that Natural 
Climate Solutions are cost-effective today and can be implemented 
immediately. Therefore, they present an important near-term opportunity 
to reduce carbon emissions while efforts continue to bring new 
technologies online.
       ncs provide new revenue to farmers, ranchers and foresters
    While we talk about the `cost' of reducing carbon through Natural 
Climate Solutions, for landowners and producers this would be revenue--
they would be getting paid for reducing pollution and helping provide a 
stable climate that benefits everyone. There are many ways to pay for 
Natural Climate Solutions: funds could come from voluntary payments by 
companies that want to meet emissions goals; by providing federal 
support provided directly to landowners and producers, such as through 
existing Farm Bill programs; or from new policies, like a price on 
carbon, that create an incentive for payments.
                              ncs pathways
    Below I describe the specific opportunities that my colleagues and 
I have identified for the United States (see Figure 1 and Table 1).
    Figure 1: Climate mitigation potential of 21 Natural Climate 
Solutions in the United States. Black lines indicate the 95% confidence 
interval or reported range. Ecosystem service benefits linked with each 
Natural Climate Solution are indicated by colored bars for air 
(filtration), biodiversity (habitat protection or restoration), soil 
(enrichment), and water (filtration and flood control).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Table 1. Natural Climate Solutions available in the United States. 
CO<INF>2</INF>e refers to the carbon dioxide equivalent, because 
methane and nitrous oxide are converted to their CO<INF>2</INF> 
equivalent, in terms of their global warming potential.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                   specific natural climate solutions
    Reforestation--We identified 156 million acres in the United States 
that are potentially reforestable. If reforested, these lands would 
sequester, on average, nearly two tonnes of CO<INF>2</INF> per acre per 
year, or over 300 million tonnes of CO<INF>2</INF> per year. We first 
identified all the areas in the United States that used to be forest 
but have now been converted to some other land use (Hansen et al. 
2013). Next, we excluded areas with intensive human development, 
including all major roads (Open Street Map 2016), impervious surfaces 
(Xian et al. 2011), and urban areas (U.S. Census Bureau 2015). To 
eliminate double counting with the wetland restoration pathway, we 
removed Histosol soils (Soil Survey Staff 2017). To safeguard food 
production, we removed most cropland and pasture. To estimate the 
carbon sequestration rate, we used the US Forest Service's estimates 
for forest growth for each forest type in each region, averaging growth 
rates over the first twenty years of reforestation (Smith et al. 2006). 
We discounted the carbon sequestration mitigation benefit in conifer-
dominated forests to account for albedo effects. (Conifer-dominated 
forests are dark and absorb solar radiation, which offsets some of the 
cooling effect that they provide by sequestering carbon.) The Nature 
Conservancy and partners are currently analyzing reforestation 
potential to identify the most feasible opportunities for 
implementation, such as in floodplains, riparian buffers, burned areas, 
marginal agricultural lands, and critical wildlife migration corridors.
    Natural Forest Management--The maximum mitigation potential of 267 
million tonnes of CO<INF>2</INF> per year is based on a ``harvest-
hiatus'' scenario starting in 2025, in which natural forests are 
shifted to longer harvest rotations. This could be accomplished with 
less than a 10% reduction in average timber supply (i.e. within the 
range of historic variation in supply volume) with new timber supplied 
from thinning treatments for fuel risk reduction until new timber from 
reforestation is available in 2030. Alternatively, selective harvest 
practices that remove competing vegetation, reduce ``collateral 
damage'' from felling, and stimulate the growth of remaining trees can 
achieve approximately 60% of the maximum carbon benefits that we 
identified, with minimal reductions in short term harvest volume (Ellis 
et al. 2019). The Nature Conservancy and partners are currently 
piloting these practices in the Central Appalachian region through the 
Family Forest Carbon Program (https://www.forestfoundation.org/carbon).
    Avoided Forest Conversion--We estimate that almost one million 
acres--940,000 acres--are converted from forest to other land uses in 
the United States every year, based on the North America Forest 
Database (Goward et al. 2015). This emits at least 38 million tonnes of 
CO<INF>2</INF> per year, which could be avoided with better land use 
planning and incentives to maintain this valuable carbon storage and 
other ecosystem services that forests provide. Most forest clearing is 
followed by forest regeneration, rather than conversion to another land 
use. While remote sensing is good at detecting forest clearing, is not 
able to predict whether this clearing will be followed by conversion to 
a new land use or whether it will be allowed to regenerate to forest. 
To estimate the proportion of cleared that that returns to forest, we 
examined land cleared before 2000 and quantified the proportion that 
had returned to forest by 2010, in each forest type and region of the 
United States. We then used these proportions to discount observed 
rates of forest clearing between 2000 and 2010. We used estimates of 
avoided carbon emissions from above and below ground biomass that are 
specific to each region and forest type. We did not count forest loss 
due to fire to avoid double counting with wildfire risk reduction. We 
did not count forest loss due to pests because it is unclear whether 
this loss can be avoided. We reduced the benefit of avoided conversion 
in conifer-dominated forests to account for their albedo effects. Our 
results are conservative because they do not count the loss of ongoing 
sequestration that protected forests would continue to provide. 
Although rates of carbon sequestration slow over time, available 
evidence suggests that forests continue to sequester carbon for at 
least 200 years (Luyssaert et al. 2008).
    Urban Reforestation--We found that, across the 3,535 cities in the 
conterminous United States, roughly 8 million acres of trees could be 
added (Fargione et al. 2018, Kroeger et al. 2018). We considered the 
potential for additional street trees and, for those cities not in 
deserts, we also considered the potential for park and yard tree 
plantings. The potential percent increase in tree cover was estimated 
based on high-resolution analysis of 27 cities, which excluded sports 
fields, golf courses, and lawns (Kroeger et al. 2018). These trees 
would sequester carbon at a rate of roughly 2.8 tonnes per acre per 
year (Nowak et al. 2013), or around 23 million tonnes of CO<INF>2</INF> 
per year. This estimate is conservative in that it only considers the 
carbon stored in the tree and does not consider any additional benefits 
of trees. Trees in urban areas have additional co-benefits that are 
important to consider. For instance, urban trees in the United States 
already save around 1,200 lives a year during heat waves (McDonald et 
al. 2019), and many more lives could be saved with additional urban 
forest canopy. Additional forest canopy would also help clean the air 
by reducing particulate matter concentrations, reduce electricity 
consumption during the summer (Akbari et al. 2001, Akbari 2002), and 
help cities mitigate stormwater and floodwater.
    Wildfire Risk Reduction--Prescribed fire and fuel reduction 
treatments can reduce the risk of high-intensity wildfire, such that 
that the initial increase in emissions associated with treatment is 
more than made up for over time by the avoided impacts of wildfires. We 
considered the effect of prescribed fire treatments on 42 million acres 
of fire-prone forests in the western United States. Over 20 years, 
these treatments would avoid emissions of 240 million tonnes of 
CO<INF>2</INF>, an average of 12 million tonnes per year. These 
treatments also have substantial benefits to society, such as improving 
water quality and quantity, reducing loss of wildlife habitat, and 
protecting communities and forest dependent businesses like tourism, 
recreation and forest products. The impact of wildfires includes both 
direct emissions from combustion and the suppression of forest growth 
following wildfires (Collatz et al. 2014, Williams et al. 2016). 
Investing in targeted controlled burning and selective thinning can 
achieve long term carbon sequestration while helping to restore forest 
ecology and reducing the risk of severe wildfires.
    Improved Plantations--We quantified the benefits of extending 
rotation lengths in even-aged, intensively managed wood production 
forests. Specifically, rotation lengths were extended from current 
economically optimal rotation length to a biological optimal rotation 
length in which harvest occurs when stands reach their maximum annual 
growth. To understand the carbon benefits of extending rotations, 
imagine if all plantations are harvested when they are twenty years 
old--the average age of plantations would be ten years. If rotation 
lengths were extended to forty years, the average age would be twenty 
years, roughly doubling the amount of carbon on the landscape. These 
longer rotations grow just as fast and produce just as much, if not 
more, timber product. However, because the percent increase in capital 
value slows slightly in later years, there would be some economic cost 
to plantation owners, which could be compensated for via carbon 
payments.
    Avoided Conversion of Grassland--Conversion of grassland to 
cropland emits about 62 tonnes of CO<INF>2</INF> per acre. Most of this 
is from soil carbon, which we estimate is reduced by 28% down to 1 
meter after conversion to cropland (Sanderman et al. 2017). 
Additionally, there is a loss of root biomass when grasslands are 
converted to cropland: annual crops don't store carbon long-term in 
roots, whereas grasslands have about 4 times as much root biomass as 
they do aboveground biomass (Mokany et al. 2006). About 81% of 
emissions are from the soil, and 19% from root biomass. The conversion 
of grassland to cropland is an ongoing issue in the United States. 
While the total amount of cropland in the United States fluctuates 
slightly with commodity prices, it is not going up in the long term. 
However, loss of farmland to development and urban sprawl (Sorensen et 
al. 2018) spurs the expansion of cropland into areas that are more 
marginal for crop production such as native rangeland (World Wildlife 
Fund 2018). Between 2008 and 2012, about 1.7 million acres of grassland 
and shrubland were converted to cropland each year (Lark et al. 2015). 
With hundreds of ranchers on federal waiting lists to receive easements 
to protect their grasslands from conversion in the Prairie Pothole 
region alone (U.S. Fish & Wildlife Service 2012), additional 
investments in easements would protect these important carbon stores, 
in addition to the ecosystem services that they provide for water 
quality (Johnson et al. 2016), pollinator habitat (Hopwood 2008), and 
waterfowl nesting (Reynolds et al. 2006), among others.
    Cover Crops--Cover crops are grown in the fallow season between 
main crops; they can roughly double the number of days each year that a 
living cover is pulling carbon from the atmosphere and sequestering it 
in the landscape. Cover crops add about half a tonne of CO<INF>2</INF> 
per acre per year to the soils (Poeplau and Don 2015). We estimate that 
cover crops can be added to the 217 million acres of cropland used for 
the five primary crops (corn, soy, wheat, rice, and cotton) that are 
not already using cover crops (Conservation Technology Information 
Center et al. 2017). It is possible to use cover crops on cropland 
planted to crops other than these five primary crops, but agronomic 
research demonstrating the successful use of cover crops is limited 
outside of these primary crops, so we conservatively limited the 
maximum area of cover crop use to these five crops. The benefit that 
cover crops provide varies from place to place. The amount of 
sequestration depends on interactions between the climate, soils, the 
cropping rotation of cash crops, and which cover crops are used. 
However, on average, researchers consistently find soil carbon 
sequestration of 0.3-0.6 tonnes of CO<INF>2</INF> per acre under cover 
crops (Tellatin and Myers 2018).
    Biochar--Biochar is made by heating biomass while restricting the 
amount of available oxygen, which creates charcoal. This charcoal can 
be incorporated into agricultural soils, where it increases soil 
carbon, increases water holding capacity, and can boost crop yields 
(Aller et al. 2018). Unlike biomass that has not been turned into 
biochar, the majority of carbon in biochar does not decompose after 
being incorporated into the soil. We estimated the carbon sequestration 
benefit from turning 144 million tonnes of biomass into biochar, the 
amount of additional biomass from agricultural residue that could be 
sustainably harvested in 2025 (U.S. DOE 2016). We assumed that 79.6% of 
biochar carbon persists on a timescale of >100 years (Liang et al. 
2008, Dharmakeerthi et al. 2015) and that there are no effects of 
biochar on emissions of nitrous oxide or methane (Song et al. 2016, 
Wang et al. 2016). While biochar is not yet in widespread use, the 
science is clear that it could effectively store carbon. Improved cost-
effective biochar production equipment and techniques and additional 
in-field agronomic research quantifying the benefits of biochar 
application are needed in order to provide both the means and the 
motivation for farmers to start building soil carbon using biochar.
    Alley Cropping--Alley cropping is one way to incorporate more trees 
in agriculture. Alley cropping is planting widely spaced rows of trees 
with an annual crop grown in the alleyways between the rows. Trees 
considered for alley cropping include black walnut, hazelnut, chestnut, 
and pecan, which can provide timber and/or nuts, or pine trees that can 
provide pine straw for landscaping (Garrett et al. 1991, 2015, Revord 
et al. 2019). These added revenues mean that alley cropping offers 
increased profitability in many cases (Garrett et al. 2015, Wolz and 
DeLucia 2019). We estimated a maximum potential of alley cropping on 
10% of U.S. cropland, or 37 million acres (Udawatta, Ranjith P., Jose 
2011). Alley cropping sequesters about 2.2 tonnes of CO<INF>2</INF> per 
acre per year (Fargione et al. 2018).
    Cropland Nutrient Management--Nitrous oxide is a potent greenhouse 
gas that is about 300 times as powerful as CO<INF>2</INF>. Of the 
nitrogen fertilizer added to farm fields, about 2.5% ends up being 
emitted to the atmosphere as nitrous oxide, either directly from the 
farm field or indirectly after nitrogen leaks from farm fields to 
streams and wetlands (Davidson 2009). We estimated the benefit of the 
implementation of best practices that can maintain yields, increase 
profitability, and decrease nitrous oxide emissions. We considered four 
improved management practices: (1) reduced whole-field application 
rate, (2) switching from anhydrous ammonia to urea, (3) improved timing 
of fertilizer application, and (4) variable application rate within 
field. Because these practices improve efficiency, they decrease the 
total amount of fertilizer production that is necessary, reducing the 
fossil fuel emissions necessary for its manufacture, which we also 
account for (Snyder et al. 2014). Based on these four practices, we 
found a maximum potential of 22% reduction in nitrogen use, which leads 
to a 29% emission reduction, including emissions from fertilizer 
production.
    Improved Manure Management--Manure lagoons from dairy cows and hogs 
release methane, a potent greenhouse gas about 34 time more powerful 
than CO<INF>2</INF>. For large farms, it can be economical to capture 
this methane to use for on-farm heating or for electricity generation, 
although cost sharing for initial capital costs may be necessary 
(Klavon et al. 2013, Lauer et al. 2018). We estimated that there are 24 
million tonnes of CO<INF>2</INF> per year of potential for emissions 
reductions from improved manure management on dairy farms with over 300 
cows and hog farms with over 825 hogs. Our calculations are based on 
improved management practices described in Pape et al. (2016).
    Windbreaks--Windbreaks help reduce soil loss from wind erosion and 
can increase crop yields by sheltering crops from damaging winds and 
creating favorable microclimates that increase yields (Brandle et al. 
2004). We estimated that windbreaks could be planted on about 2 million 
acres, calculated assuming that 43 million acres of cropland that would 
benefit windbreaks and that windbreaks would be planted on 5% of that 
cropland (Pape et al. 2016). We estimated that windbreaks provide 5.28 
tonnes of CO<INF>2</INF> per acre per year of sequestration in tree 
biomass and soils (Kort and Turnock n.d., Sauer et al. 2007, 
Schoeneberger 2008, Wang et al. 2013, Chendev et al. 2014).
    Grazing Optimization--Well-managed grazing lands store more carbon 
in their soils than grasslands that are either over-grazed or not 
grazed at all (McSherry and Ritchie 2013, Hewins et al. 2018). In 
general, more productive systems store more carbon, suggesting that 
practices that avoid degradation and promote plant growth will maximize 
grassland productivity, rancher profit, and carbon storage. A global 
study (Henderson et al. 2015) estimated that ``grazing optimization'' 
could be applied to 131 million acres in the United States with a 
modest soil carbon sequestration benefit of 1/14th of a tonne of 
CO<INF>2</INF> per year. Grazing optimization prescribes a decrease in 
stocking rates in areas that are over-grazed and an increase in 
stocking rates in areas that are under-grazed, but with the net result 
of increased forage offtake and livestock production. While there is 
increasing interest and enthusiasm around various rotational grazing 
practices that may achieve more significant soil carbon storage per 
acre in some instances (Teague et al. 2015), additional research is 
needed to be able to predict which practices will have a strong carbon 
storage benefit in particular climates and soil types (Briske et al. 
2008, 2011, Hawkins 2017).
    Grassland Restoration--Since 2007, over 13 million acres have been 
lost from the federal government's Conservation Reserve Program. Much 
of this former conservation set-aside land has been put back into row 
crops (Morefield et al. 2016). Restoring marginal cropland to 
grassland, e.g. through increasing the acres enrolled in the 
Conservation Reserve Program, sequesters about 1.8 tonnes of 
CO<INF>2</INF> per acre per year in soils and root biomass. Grassland 
restoration also helps support conservation goals for water quality 
(Johnson et al. 2016), pollinator habitat (Hopwood 2008), waterfowl 
nesting (Reynolds et al. 2006), and wildlife habitat.
    Legumes in Pastures--Legumes help increase soil fertility by 
converting nitrogen in the atmosphere into a form that is available to 
plants; this increased availability of nitrogen helps both fertilize 
the soil and further store soil carbon. Seeding legumes in pastures 
increases both the amount and quality of forage, increasing 
productivity for beef and dairy cattle. A global study (Henderson et 
al. 2015) estimated that legume planting could be applied to 14 million 
acres of pastures in the United States with a soil carbon sequestration 
benefit equivalent to half a tonne of CO<INF>2</INF> per year (after 
accounting for the potential for legumes to increase nitrous oxide 
emissions). We do not recommend seeding legumes into native prairie 
rangeland, as this could negatively impact the diversity of native 
prairie plants. Rather, this practice should be implemented in planted 
pastures, which are already comprised primarily of introduced species.
    Improved Rice Management--Flooded rice paddies emit methane, a 
potent greenhouse gas that is about 34 times more powerful than 
CO<INF>2</INF>. There are roughly 3 million acres of rice in the United 
States. Practices including mid-season drainage, alternate wetting and 
drying, and residue removal can reduce these emissions by roughly 40%, 
with an average avoided emissions benefit equivalent to 1.4 tonnes of 
CO<INF>2</INF> per acre per year (Yan et al. 2009, Pittelkow et al. 
2014, Sander et al. 2015, Peyron et al. 2016). We used an EPA analysis 
that projects the potential for improvement across U.S. rice fields, in 
comparison with current agricultural practices (US EPA et al. 2013).
    Tidal Wetland Restoration--In the U.S., 27%, or roughly one million 
acres, of tidal wetlands (salt marshes) have limited tidal connection 
with the sea, causing their salinity to decline to the point where 
methane emissions increase (Kroeger et al. 2017). We estimated the 
potential for reconnecting these tidal wetlands to the ocean to 
increase salinity and reduce methane emissions. This opportunity avoids 
emissions of the equivalent of almost ten tonnes of CO<INF>2</INF> per 
acre per year. Reconnecting these wetlands can be accomplished by 
widening culverts or installing tide gates (http://www.edc.uri.edu/
restoration/html/tech_sci/restsalt.htm). Restored salt marshes act as 
fish nurseries, provide bird habitat (Barbier et al. 2011, Correll et 
al. 2017) and reduce flood risk and shoreline erosion. We note that our 
estimate omits drained tidal marshes due to lack of information about 
the extent to which they could be restored. Many drained tidal marshes 
are developed and thus are unlikely to be restored. However, drained 
tidal marshes that were cropped have the potential to recover large 
amounts of soil carbon (Anderson et al. 2016, Holmquist et al. 2018). 
Inclusion of these additional restoration opportunities would reveal 
even greater potential for tidal marsh restoration than quantified 
here.
    Wetland Restoration--Wetlands store large amounts of carbon, 
because wet soils inhibit decomposition. When wetlands are drained, 
these large stores of carbon begin to decompose. Protecting existing 
wetlands and restoring drained wetlands helps store carbon and protects 
what carbon remains in these systems. Wetlands also emit methane, a 
potent greenhouse. After accounting for these methane emissions, there 
is still a net greenhouse gas benefit to wetland restoration, which we 
estimate at the equivalent of roughly 1.2 tonnes of CO<INF>2</INF> per 
acre per year. Our estimate of mitigation potential accounted for 
changes in soil carbon, biomass, and methane emissions, considering 
regional differences, the type of land use of the converted wetland, 
and whether or not the wetland was originally forested. We estimated 
that there are about 7 million acres of restorable wetlands, based on 
the difference between historic wetland extent [as determined by the 
extent of Histosols in soil maps (Soil Survey Staff 2016)] and current 
wetland extent.
    Avoided Seagrass Loss--Seagrass traps and stores sediment in 
shallow ocean waters. Seagrass stores, on average, 211 tonnes of 
CO<INF>2</INF> per acre, and of this, an estimated 132 tonnes of 
CO<INF>2</INF> per acre are released to the atmosphere when seagrasses 
are lost (Pendleton et al. 2012). Seagrass habitat is being lost due to 
nutrient pollution and other human impacts (Orth et al. 2006). An 
estimated 1.5% of seagrass extent is lost every year (Waycott et al. 
2009). Applying this to the estimated 3.6 million acres of remaining 
seagrass in the United States (CEC 2013, 2016), we estimate about 
50,000 acres of seagrass loss per year. Such losses could be avoided by 
efforts to reduce nutrient pollution in seagrass habitat, as has 
successfully been achieved in Tampa Bay through waste water treatment 
plant upgrades, stormwater treatment, phosphate industry best 
management practices and fossil fuel power plant upgrades for nitrogen 
control (Morrison and Greening 2011, Cooper 2012, Sherwood 2017).
    Seagrass Restoration--We estimate that there are 4.5 million acres 
of lost seagrass habitat that could be restored (Waycott et al. 2009). 
Restoration techniques include natural recolonization, seeding, and 
transplanting in locations where pollution has been sufficiently 
reduced to enable restoration (van Katwijk et al. 2016). Restored 
seagrass sequesters an estimated 1.3 tonnes of CO2 per acre per year 
(Thorhaug et al. 2017).
                               conclusion
    I'm optimistic that we can implement Natural Climate Solutions 
through targeted investments and policies at a scale that will 
meaningfully contribute to fighting climate change. These approaches 
are gaining traction because there are so many good reasons to 
implement Natural Climate Solutions, even beyond climate. From reducing 
costs for farmers to improving air quality for people to protecting 
coastal communities from flooding, the benefits are numerous. Natural 
Climate Solutions are low cost and are available now. For all these 
reasons, the time is right to invest significantly in Natural Climate 
Solutions.
                               references
    Akbari, H. 2002. Shade trees reduce building energy use and CO2 
emissions from power plants. Environmental Pollution 116:119-126.
    Akbari, H., M. Pomerantz, and H. Taha. 2001. Cool surfaces and 
shade trees to reduce energy use and improve air quality in urban 
areas. Solar Energy 70:295-310.
    Aller, D. M., S. V. Archontoulis, W. Zhang, W. Sawadgo, D. A. 
Laird, and K. Moore. 2018. Long term biochar effects on corn yield, 
soil quality and profitability in the US Midwest. Field Crops Research 
227:30-40.
    Anderson, F. E., B. Bergamaschi, C. Sturtevant, S. Knox, L. 
Hastings, L. Windham-myers, M. Detto, E. L. Hestir, J. Drexler, R. L. 
Miller, J. H. Matthes, J. Verfaillie, D. Baldocchi, R. L. Snyder, and 
R. Fujii. 2016. Variation of energy and carbon fluxes from a temperate 
freshwater wetland and implications for carbon market verification 
protocols. Journal of Geophysical Research: Biogeoscience 121:1-19.
    Barbier, E. B., S. D. Hacker, C. Kennedy, E. W. Koch, A. C. Stier, 
and B. R. Silliman. 2011. The value of estuarine and coastal ecosystem 
services. Ecological Monographs 81:169-193.
    Brandle, J. R., L. Hodges, and X. H. Zhou. 2004. Windbreaks in 
North American agricultural systems. Agroforestry Systems 61-2:65-78.
    Briske, D. D., J. D. Derner, J. R. Brown, S. D. Fuhlendorf, W. R. 
Teague, K. M. Havstad, R. L. Gillen, A. J. Ash, and W. D. Willms. 2008. 
Rotational grazing on rangelands: Reconciliation of perception and 
experimental evidence. Rangeland Ecology and Management 61:3-17.
    Briske, D. D., J. D. Derner, D. G. Milchunas, and K. W. Tate. 2011. 
An Evidence-Based Assessment of Prescribed Grazing Practices. 
Conservation benefits of rangeland practices: Assessment, 
recommendations, and Knowledge Gaps:21-74.
    CEC. 2013. North American Blue Carbon Scoping Study. Montreal, 
Canada.
    CEC. 2016. North America's Blue Carbon: Assessing Seagrass, Salt 
Marsh and Mangrove Distribution and Carbon Sinks. Montreal, Canada.
    Chendev, Y. G., L. L. Novykh, T. J. Sauer, and C. L. Petin, 
Aleksandr N Zazdravnykh, Evgeny A Burras. 2014. Evolution of Soil 
Carbon Storage and Morphometric Properties of Afforested Soils in the 
U.S. Great Plains. Pages 475-482 in A. E. Hartemink and K. McSweeney, 
editors. Soil Carbon Progress in Soil Science. Springer International 
Publishing, Cham.
    Collatz, G., C. Williams, B. Ghimire, S. Goward, and J. Masek. 
2014. CMS: Forest Biomass and Productivity, 1-degree and 5-km, 
Conterminous US, 2005.
    Conservation Technology Information Center, Sustainable Agriculture 
Research & Education, and American Seed Trade Association. 2017. Annual 
Report 2016-2017 Cover Crop Survey.
    Cooper, S. 2012. Integrating Nitrogen Management with Planning.
    Correll, M. D., W. A. Wiest, T. P. Hodgman, W. G. Shriver, C. S. 
Elphick, B. J. McGill, K. M. O'Brien, and B. J. Olsen. 2017. Predictors 
of specialist avifaunal decline in coastal marshes. Conservation 
Biology 31:172-182.
    Davidson, E. A. 2009. The contribution of manure and fertilizer 
nitrogen to atmospheric nitrous oxide since 1860. Nature Geoscience 
2:659-662.
    Dharmakeerthi, R. S., K. Hanley, T. Whitman, D. Woolf, and J. 
Lehmann. 2015. Organic carbon dynamics in soils with pyrogenic organic 
matter that received plant residue additions over seven years. Soil 
Biology and Biochemistry 88:268-274.
    Ellis, P. W., T. Gopalakrishna, R. C. Goodman, F. E. Putz, A. 
Roopsind, P. M. Umunay, J. Zalman, E. A. Ellis, K. Mo, T. G. Gregoire, 
and B. W. Griscom. 2019. Reduced-impact logging for climate change 
mitigation (RIL-C) can halve selective logging emissions from tropical 
forests. Forest Ecology and Management 438:255-266.
    Fargione, J. E., S. Bassett, T. Boucher, S. D. Bridgham, R. T. 
Conant, S. C. Cook-Patton, P. W. Ellis, A. Falcucci, J. W. Fourqurean, 
T. Gopalakrishna, H. Gu, B. Henderson, M. D. Hurteau, K. D. Kroeger, T. 
Kroeger, T. J. Lark, S. M. Leavitt, G. Lomax, R. I. McDonald, J. 
Patrick Megonigal, D. A. Miteva, C. J. Richardson, J. Sanderman, D. 
Shoch, S. A. Spawn, J. W. Veldman, C. A. Williams, P. B. Woodbury, C. 
Zganjar, M. Baranski, P. Elias, R. A. Houghton, E. Landis, E. McGlynn, 
W. H. Schlesinger, J. V. Siikamaki, A. E. Sutton-Grier, and B. W. 
Griscom. 2018. Natural climate solutions for the United States. Science 
Advances 4:1-14.
    Garrett, G., W. (Dusty) Walter, and L. D. Godsey. 2015. Alley 
cropping: Farming between the trees. Green Horizons 19.
    Garrett, H. E., J. E. Jones, W. B. Kurtz, and J. P. Slusher. 1991. 
Black walnut (Juglans nigra L.) agroforestry--its design and potential 
as a land-use alternative. Forestry Chronicle 67:213-218.
    Goward, S. N., C. Huang, F. Zhao, K. Schleeweis, K. Rishmawi, M. 
Lindsey, J. L. Dungan, and A. Michaelis. 2015. NACP NAFD Project: 
Forest Disturbance History from Landsat, 1986-2010.
    Hansen, M. C., P. V. Potapov, R. Moore, M. Hancher, S. a. 
Turubanova, A. Tyukavina, D. Thau, S. V. Stehman, S. J. Goetz, T. R. 
Loveland, A. Kommareddy, A. Egorov, L. Chini, C. O. Justice, and J. R. 
G. Townshend. 2013. High-resolution global maps of 21st-century forest 
cover change. Science 342:850-853.
    Hawkins, H. J. 2017. A global assessment of Holistic Planned 
Grazing<SUP>TM</SUP> compared with season-long, continuous grazing: 
meta-analysis findings. African Journal of Range and Forage Science 
34:65-75.
    Henderson, B. B., P. J. Gerber, T. E. Hilinski, A. Falcucci, D. S. 
Ojima, M. Salvatore, and R. T. Conant. 2015. Greenhouse gas mitigation 
potential of the world's grazing lands: Modeling soil carbon and 
nitrogen fluxes of mitigation practices. Agriculture, Ecosystems & 
Environment 207:91-100.
    Hewins, D. B., M. P. Lyseng, D. F. Schoderbek, M. Alexander, W. D. 
Willms, C. N. Carlyle, S. X. Chang, and E. W. Bork. 2018. Grazing and 
climate effects on soil organic carbon concentration and particle-size 
association in northern grasslands. Scientific Reports 8:1-9.
    Holmquist, J. R., L. Windham-Myers, N. Bliss, S. Crooks, J. T. 
Morris, J. P. Megonigal, T. Troxler, D. Weller, J. Callaway, J. 
Drexler, M. C. Ferner, M. E. Gonneea, K. D. Kroeger, L. Schile-Beers, 
I. Woo, K. Buffington, J. Breithaupt, B. M. Boyd, L. N. Brown, N. Dix, 
L. Hice, B. P. Horton, G. M. MacDonald, R. P. Moyer, W. Reay, T. Shaw, 
E. Smith, J. M. Smoak, C. Sommerfield, K. Thorne, D. Velinsky, E. 
Watson, K. W. Grimes, and M. Woodrey. 2018. Accuracy and Precision of 
Tidal Wetland Soil Carbon Mapping in the Conterminous United States. 
Scientific reports 8:9478.
    Hopwood, J. L. 2008. The contribution of roadside grassland 
restorations to native bee conservation. Biological Conservation 
141:2632-2640.
    Johnson, K. A., B. J. Dalzell, M. Donahue, J. Gourevitch, D. L. 
Johnson, G. S. Karlovits, B. Keeler, and J. T. Smith. 2016. 
Conservation Reserve Program (CRP) lands provide ecosystem service 
benefits that exceed land rental payment costs. Ecosystem Services 
18:175-185.
    van Katwijk, M. M., A. Thorhaug, N. Marba, R. J. Orth, C. M. 
Duarte, G. A. Kendrick, I. H. J. Althuizen, E. Balestri, G. Bernard, M. 
L. Cambridge, A. Cunha, C. Durance, W. Giesen, Q. Han, S. Hosokawa, W. 
Kiswara, T. Komatsu, C. Lardicci, K. S. Lee, A. Meinesz, M. Nakaoka, K. 
R. O'Brien, E. I. Paling, C. Pickerell, A. M. A. Ransijn, and J. J. 
Verduin. 2016. Global analysis of seagrass restoration: The importance 
of large-scale planting. Journal of Applied Ecology 53:567-578.
    Keith, D. W., G. Holmes, D. St. Angelo, and K. Heidel. 2018. A 
Process for Capturing CO2 from the Atmosphere. Joule 2:1573-1594.
    Klavon, K. H., S. A. Lansing, W. Mulbry, A. R. Moss, and G. Felton. 
2013. Economic analysis of small-scale agricultural digesters in the 
United States. Biomass and Bioenergy 54:36-45.
    Kort, J., and R. Turnock. (n.d.). Carbon reservoir and biomass in 
Canadian prairie shelterbelts. Agroforestry Systems 44:175-186.
    Kroeger, K. D., S. Crooks, S. Moseman-valtierra, and J. Tang. 2017. 
Restoring tides to avoid methane emissions in impounded wetlands: A new 
and potent Blue Carbon climate change intervention. Scientific Reports 
7162:1-23.
    Kroeger, T., R. I. Mcdonald, T. Boucher, P. Zhang, and L. Wang. 
2018. Where the people are: Current trends and future potential 
targeted investments in urban trees for PM10 and temperature mitigation 
in 27 U.S. cities. Landscape and Urban Planning:277-240.
    Lark, T. J., J. Meghan Salmon, and H. K. Gibbs. 2015. Cropland 
expansion outpaces agricultural and biofuel policies in the United 
States. Environmental Research Letters 10:044003.
    Lauer, M., J. K. Hansen, P. Lamers, and D. Thran. 2018. Making 
money from waste: The economic viability of producing biogas and 
biomethane in the Idaho dairy industry. Applied Energy 222:621-636.
    Liang, B., J. Lehmann, D. Solomon, S. Sohi, J. E. Thies, J. O. 
Skjemstad, F. J. Luizao, M. H. Engelhard, E. G. Neves, and S. Wirick. 
2008. Stability of biomass-derived black carbon in soils. Geochimica et 
Cosmochimica Acta 72:6069-6078.
    Luyssaert, S., E. D. Schulze, A. Borner, A. Knohl, D. Hessenmoller, 
B. E. Law, P. Ciais, and J. Grace. 2008. Old-growth forests as global 
carbon sinks. Nature 455:213-215.
    McDonald, R. I., T. Kroeger, P. Zhang, and P. Hamel. 2019. The 
Value of US Urban Tree Cover for Reducing Heat-Related Health Impacts 
and Electricity Consumption. Ecosystems.
    McSherry, M. E., and M. E. Ritchie. 2013. Effects of grazing on 
grassland soil carbon: A global review. Global Change Biology 19:1347-
1357.
    Mokany, K., R. J. Raison, and A. S. Prokushkin. 2006. Critical 
analysis of root: shoot ratios in terrestrial biomes. Global Change 
Biology 12:84-96.
    Morefield, P. E., S. D. Leduc, C. M. Clark, and R. Iovanna. 2016. 
Grasslands, wetlands, and agriculture: The fate of land expiring from 
the Conservation Reserve Program in the Midwestern United States. 
Environmental Research Letters 11.
    Morrison, G., and H. Greening. 2011. Water Quality. Pages 105-156 
in K. K. Yates, H. Greening, and G. Morrison, editors. Integrating 
Science and Resource Management in Tampa Bay, Florida: U.S. Geological 
Survey Circular 1348.
    Nowak, D. J., E. J. Greenfield, R. E. Hoehn, and E. Lapoint. 2013. 
Carbon storage and sequestration by trees in urban and community areas 
of the United States. Environmental Pollution 178:229-236.
    Open Street Map. 2016. Osm2Shp.
    Orth, R. J., T. J. B. Carruthers, W. C. Dennison, C. M. Duarte, J. 
W. Fourqurean, K. L. Heck, A. R. Hughes, G. A. Kendrick, W. J. 
Kenworthy, S. Olyarnik, F. T. Short, M. Waycott, and S. L. Williams. 
2006. A Global Crisis for Seagrass Ecosystems. BioScience 56:987.
    Pape, D., J. Lewandrowski, R. Steele, D. Man, M. Riley-gilbert, K. 
Moffroid, and S. Kolansky. 2016. Managing Agricultural Land for 
Greenhouse Gas Mitigation within the United States.
    Pendleton, L., D. C. Donato, B. C. Murray, S. Crooks, W. A. 
Jenkins, S. Sifleet, C. Craft, J. W. Fourqurean, J. B. Kauffman, N. 
Marba, P. Megonigal, E. Pidgeon, D. Herr, D. Gordon, and A. Baldera. 
2012. Estimating Global ``Blue Carbon'' Emissions from Conversion and 
Degradation of Vegetated Coastal Ecosystems. PLoS ONE 7:e43542.
    Peyron, M., C. Bertora, S. Pelissetti, D. Said-Pullicino, L. Celi, 
E. Miniotti, M. Romani, and D. Sacco. 2016. Greenhouse gas emissions as 
affected by different water management practices in temperate rice 
paddies. Agriculture, Ecosystems and Environment 232:17-28.
    Pittelkow, C. M., Y. Assa, M. Burger, R. G. Mutters, C. A. Greer, 
L. A. Espino, J. E. Hill, W. R. Horwath, C. van Kessel, and B. A. 
Linquist. 2014. Nitrogen management and methane emissions in direct-
seeded rice systems. Agronomy Journal 106:968-980.
    Poeplau, C., and A. Don. 2015. Carbon sequestration in agricultural 
soils via cultivation of cover crops--A meta-analysis. Agriculture, 
Ecosystems and Environment 200:33-41.
    Revord, R., S. Lovell, T. Molnar, K. J. Wolz, and C. Mattia. 2019. 
Germplasm development of underutilized temperate U.S. tree crops. 
Sustainability (Switzerland) 11:7-14.
    Reynolds, R. E., T. L. Shaffer, C. R. Loesch, and R. C. Cox Jr. 
2006. The Farm Bill and duck production in the Prairie Pothole Region: 
Increasing the benefits. Wildlife Society Bulletin 34:963-974.
    Sander, B. O., R. Wassmann, and D. L. C. Siopongco. 2015. 
Mitigating Greenhouse Gas Emissions from Rice Production through Water-
saving Techniques: Potential, Adoption and Empirical Evidence. Los 
Banos, Philippines.
    Sanderman, J., T. Hengl, and G. J. Fiske. 2017. Soil carbon debt of 
12,000 years of human land use. Proceedings of the National Academy of 
Sciences 114:9575-9580.
    Sauer, T. J., C. A. Cambardella, and J. R. Brandle. 2007. Soil 
carbon and tree litter dynamics in a red cedar-scotch pine shelterbelt. 
Agroforestry Systems 71:163-174.
    Schoeneberger, M. M. 2008. Agroforestry: working trees for 
sequestering carbon on agricultural lands. Agroforestry Systems 75:27-
37.
    Sherwood, E. T. 2017. 2016 Tampa Bay water quality assessment. St. 
Petersburg, FL, USA.
    Smith, J., L. Heath, K. Skog, and R. Birdsey. 2006. Methods for 
calculating forest ecosystem and harvested carbon with standard 
estimates for forest types of the United States. Page USDA Forest 
Service General Technical Report NE-343. USDA Forest Service, Newtown 
Square, PA.
    Snyder, C., E. Davidson, P. Smith, and R. Venterea. 2014. 
Agriculture: sustainable crop and animal production to help mitigate 
nitrous oxide emissions. Current Opinion in Environmental 
Sustainability 9-10:46-54.
    Soil Survey Staff. 2016. Gridded Soil Survey Geographic (gSSURGO) 
Database for the Conterminous United States. United States Department 
of Agriculture, Natural Resources Conservation Service.
    Soil Survey Staff. 2017. U.S. General Soil Map (STATSGO2).
    Song, X., G. Pan, C. Zhang, L. Zhang, and H. Wang. 2016. Effects of 
biochar application on fluxes of three biogenic greenhouse gases: a 
meta-analysis. Ecosystem Health and Sustainability 2:e01202.
    Sorensen, A. A., J. Freedgood, J. Dempsey, and D. M. Theobald. 
2018. Farms Under Threat: The State of America's Farmland. Washington 
D.C.
    Teague, R., B. Grant, and H. H. Wang. 2015. Assessing optimal 
configurations of multi-paddock grazing strategies in tallgrass prairie 
using a simulation model. Journal of Environmental Management 150:262-
273.
    Tellatin, S., and R. L. Myers. 2018. Cover crop impacts on US 
cropland carbon sequestration. Journal of Soil and Water Conservation 
73:117A-121A.
    Thorhaug, A., H. M. Poulos, J. Lopez-Portillo, T. C. W. Ku, and G. 
P. Berlyn. 2017. Seagrass blue carbon dynamics in the Gulf of Mexico: 
Stocks, losses from anthropogenic disturbance, and gains through 
seagrass restoration. Science of the Total Environment 605-606:626-636.
    U.S. Census Bureau. 2015. Cartographic Boundary File, Urban Area 
for United States.
    U.S. DOE. 2016. 2016 Billion-Ton Report: Advancing Domestic 
Resources for a Thriving Bioeconomy, Volume 1: Economic Availability of 
Feedstocks. Oak Ridge National Laboratory, Oak Ridge, TN.
    U.S. Fish & Wildlife Service. 2012. Draft Land Protection Plan:1-
22.
    Udawatta, Ranjith P., Jose, S. 2011. Carbon Sequestration Potential 
of Agroforestry Systems. Pages 17-42 in B. M. Kumar and P. K. R. Nair, 
editors. Carbon Sequestration Potential of Agroforestry Systems. 
Springer Netherlands, Dordrecht.
    US EPA, U. EPA, U. S. Environmental, P. Agency, and U. EPA. 2013. 
Global Mitigation of Non-CO2 Greenhouse Gases: 2010-2030. Page 
Environmental Protection.
    USGCRP. 2017. Climate Science Special Report: Fourth National 
Climate Assessment, Volume I. Page (Wuebbles, D.J., D. W. Fahey, K. A. 
Hibbard, D. J. Dokken, B. C. Stewart, and T. K. Maycock, Eds.). U.S. 
Global Change Research Program, Washington, DC.
    Wang, F., X. Xu, B. Zou, Z. Guo, Z. Li, and W. Zhu. 2013. Biomass 
accumulation and carbon sequestration in four different aged Casuarina 
equisetifolia coastal shelterbelt plantations in South China. PloS one 
8:e77449.
    Wang, J., Z. Xiong, and Y. Kuzyakov. 2016. Biochar stability in 
soil: Meta-analysis of decomposition and priming effects. GCB Bioenergy 
8:512-523.
    Waycott, M., C. M. Duarte, T. J. B. Carruthers, R. J. Orth, W. C. 
Dennison, S. Olyarnik, A. Calladine, J. W. Fourqurean, K. L. Heck, Ar. 
R. Hughes, G. a Kendrick, Wj. J. Kenworthy, F. T. Short, and S. L. 
Williams. 2009. Accelerating loss of seagrasses across the globe 
threatens coastal ecosystems. Proceedings of the National Academy of 
Sciences of the United States of America 106:12377-12381.
    Williams, C. A., H. Gu, R. MacLean, J. G. Masek, and G. J. Collatz. 
2016. Disturbance and the carbon balance of US forests: A quantitative 
review of impacts from harvests, fires, insects, and droughts. Global 
and Planetary Change 143:66-80.
    Wolz, K. J., and E. H. DeLucia. 2019. Black walnut alley cropping 
is economically competitive with row crops in the Midwest USA. 
Ecological Applications 29:1-14.
    World Wildlife Fund. 2018. The Plowprint Report: 2018. Bozeman, MT.
    Xian, G., C. Homer, J. Dewitz, J. Fry, N. Hossain, and J. Wickham. 
2011. The change of impervious surface area between 2001 and 2006 in 
the conterminous United States. Photogrammetric Engineering and Remote 
Sensing 77:758-762.
    Yan, X., H. Akiyama, K. Yagi, and H. Akimoto. 2009. Global 
estimations of the inventory and mitigation potential of methane 
emissions from rice cultivation conducted using the 2006 
Intergovernmental Panel on Climate Change guidelines. Global 
Biogeochemical Cycles 23:20-23.

    Ms. Castor. Thank you. Vice Chairman Myers, you are 
recognized for 5 minutes.

            STATEMENT OF VICE CHAIRMAN FRANKIE MYERS

    Mr. Myers. Thank you. [Speaking native language.] 
Chairwoman Castor, Ranking Member Graves, and committee 
members. Thank you for the invitation to testify today about 
the role of forests in cutting pollution and building 
resiliency. Per our traditional protocol and policy, I am going 
to open with a prayer before I give my statement.
    [Speaking native lanaguage.]
    Frankie Myers. I am the vice chairman of the Yurok Tribe, 
the largest federally recognized tribe in California, with 
around 6,500 members. Our aboriginal territory spanned about 
1.5 million acres of oceans, rivers, redwood forests, and 
upland prairies. Our reservation now includes one mile on 
either side of the Klamath River from the mouth of the river up 
45 miles.
    I want to start off by dispelling a myth that nature is 
wild. Nature, in Yurok belief, is only natural when humans are 
a part of it. It is a tenet of Yurok belief that you have to be 
a part of the world around you to truly have a natural forest 
and ecosystem.
    Our current force management policies recognize that by 
using our time-tested indigenous knowledge, we can develop a 
healthy, functioning forest ecosystem that will provide long-
term benefits, certainty, and resiliency, to the impact of 
climate change.
    Resource management planning must focus on long-term 
management, goals and objectives, guided by a clear vision of 
the future of our forests, rather than focus on short-term 
benefits of extractive management. Our forests' ecosystem 
function and integrity need to be held to equal value with the 
economic benefits of forests. This approach will bring back 
balance to the forest, a balance that was lost due to intensive 
extractive force practices.
    Bringing back balance starts with returning land to the 
traditional stewards. For us, thousands and thousands of acres 
were lost in the mid and late 1800s through federal Indian land 
policy. The original Yurok reservation was cut down to a mere 
4,000 acres.
    For over a century, Yurok ancestral force lands were used 
by non-Indians as commercial timberlands, turning our precious, 
old-growth coast of redwood forest, into a network of dirt 
roads, timber-slashed piles and clear-cut hills. These 
monoculture forestry practices decimated wildlife habitat, 
suppressed the native ecology, and destroyed the abundant 
natural resources that were created over centuries of 
traditional land management practices.
    To implement the tribe's force management policies as well 
as heal from historical losses, the Yurok Tribe has been 
actively working to recover its homeland with a goal of 
restoring balance. In 2018, after two decades of working with 
the Yurok, the Yurok Tribe reacquired nearly 60,000 acres of 
our traditional forest lands adjacent to the reservation.
    Through the reacquisition of forest lands, the tribe is 
engaging in forestry practices, gathered by traditional 
knowledge, backed by Western science, with the goal of 
restoring the forest lands to a dynamic ecosystem.
    One example is the tribe's carbon project. The Yurok was 
the first tribe to participate in Southern California Air 
Resource Board-issued carbon offsets, credits in the State's 
cap and trade program. By 2020 we will manage multiple improved 
forest management projects in the cap and trade program, 
totalling over 47,500 acres on and adjacent to the Yurok 
reservation.
    The program provides for a market mechanism for reducing 
carbon dioxide emissions from California's largest 
CO<INF>2</INF> emitters. The program works by limiting or 
capping the amount of emissions large corporations and 
industries emit. The emission limit is then reduced over time 
so that total emissions will decrease to meet State targets.
    Carbon sequestration, like Yuroks', supply the carbon 
offits for the regulated entities to meet the reduction limits. 
On the carbon offset seller side, carbon projects are developed 
on forest lands that may otherwise be used for extractive 
purposes. This effort, coupled with the Yurok Lands Act Bill, 
pending in the House now, which would also add to the Yurok 
Reservation and our stewardship, would include carbon projects 
and allow the tribe to manage our natural resources in a way 
that builds and improves climate change resiliency and cuts 
pollution.
    We urge the Congress to support the Lands Act and encourage 
this committee to support values, policies, and programs that 
hold equal forest ecosystem functions and integrity with the 
economic benefits.
    Thank you.
    [The statement of Mr. Myers follows:]

                Testimony of Vice Chairman Frankie Myers

                       Vice Chairman, Yurok Tribe

   Before the U.S. House of Representatives, Select Committee on the 
                             Climate Crisis

 ``Solving the Climate Crisis: Natural Solutions to Cutting Pollution 
                   and Building Climate Resilience''

                            October 22, 2019

    Good afternoon, Chairwoman Castor, Ranking Member Graves, and 
Subcommittee Members. Thank you for the invitation to testify today 
about the role of forests in cutting pollution and building resilience. 
My name is Frankie Myers; I am the Vice Chairman of the Yurok Tribe. I 
am a Yurok traditional religious practitioner, fisherman, hunter, and 
have lived on the Yurok Reservation for my entire life. I have worked 
for the Yurok Tribe for most of my career, and have served as the Vice 
Chairman for over a year.
    The Yurok Tribe recognizes the direct threat and impacts of climate 
change to the Yurok Tribe, citizens of the State of California, United 
States, and global communities. Since time immemorial, the Yurok Tribe 
has acted purposefully to serve as responsible stewards of our land, 
culture, air, and water resources, and we will continue to expand and 
advance our capacity to restore and manage these resources for Yurok 
people. Our long-term strategic vision for the management of Yurok 
natural resources is based on our traditions and culture, but guided by 
modern, science-based adaptive management.
    The Tribe has been opportunistic in finding mechanisms to support 
the restoration of our forests. As one of the first participants in the 
California cap-and-trade program, we have witnessed firsthand the 
program's environmental, cultural, legal and economic benefits. The 
California cap-and-trade program has allowed the Yurok Tribe to not 
only reacquire misused forestlands within our ancestral territory, but 
has allowed us to actively manage those lands to restore them to 
produce many climate benefits. This restoration effort will allow the 
forests to function as intended, sequestering carbon, releasing oxygen, 
and providing invaluable ecosystem services. The effort will also allow 
our Tribal members to use the land as our ancestors did and support 
recovery of the wildlife and aquatic species that are now imperiled. 
The restoration of our ecosystem can, and should, be a top priority to 
address and combat climate change, reduce pollution and build 
resiliency.
                       i. history of yurok people
    The Yurok people have occupied the pacific coast of Northern 
California and inland on the Klamath River since time immemorial. Our 
aboriginal territory included over 1.5 million acres of ocean, lagoons, 
redwood forest, the lower 45 miles of the Klamath River, and our sacred 
high country in what is now known as Northern California. Our 
aboriginal territory is one of the most wild, biodiverse, and 
ecologically unique places on the planet that includes the tallest 
trees in the world, some of the most ancient and largest fish on the 
planet, and the only fresh water lagoons on earth. From the beginning, 
we have followed all the laws of the Creator, which became the whole 
fabric of our tribal sovereignty.
    In times past and present, the Yurok people have blessed the deep 
river, the tall redwood trees, the rocks, the mounds, and the trails. 
We pray for the health of all animals, and prudently harvest and manage 
the great salmon runs and herds of deer and elk. We never waste and use 
every bit of the animal or plant. Traditionally, our stewardship of the 
prairies and forests consists of controlled burns that improve wildlife 
habitat and enhance the health and growth of tan oak acorns, nuts and 
berries, grasses and bushes. We use all of these for food and materials 
for baskets, fabrics, and utensils. These practices led us to become 
early implementers of California's cap-and-trade program.
    For millennia our religion and sovereignty have been pervasive 
throughout all our traditional villages. Our village way of life 
requires use of the sweathouse, extensive spiritual training and 
sacrifice, and firm adherence to tribal law. The Klamath River was and 
remains our highway, and from the beginning we have utilized the river 
and the ocean in dugout canoes carved from redwood trees. Our people 
come together from many villages to perform ceremonial construction of 
our fish dams, and to participate in our annual ceremonies. Our Yurok 
Country stayed in balance, kept that way by our good stewardship, hard-
work, wise laws, and constant prayers to the Creator.
    Our social and ecological balance, thousands and thousands of years 
old, was shattered by contact with non-Indians in the mid-1800s. In 
1851, California's first Governor promised ``a war of extermination 
will continue to be waged between the two races until the Indian race 
becomes extinct.'' In finally apologizing on behalf of California, 
Governor Newsom, in 2019, called this what it was--``genocide.'' For 
us, it is not history. We lost more than seventy-five percent of our 
people through unprovoked massacres and diseases. After goldminers 
swarmed over our land, we signed a ``Treaty of Peace and Friendship'' 
with representatives of the President of the United States in 1851, but 
then the United States Senate failed to ratify the treaty. Then in 
1855, the United States ordered us to be confined to the Yurok 
Reservation (then called the ``Klamath River Reservation''), created by 
Executive Order. In 1864 and 1891, our reservation was merged with the 
Hoopa Valley Reservation. But even this small remnant of our ancestral 
land did not last long.
    In the late 1890s individual Indians received allotments from the 
tribal lands on the Yurok Reservation and almost all of the remainder 
of the Reservation was declared ``surplus'' and opened for homesteading 
by non-Indians. The forests were logged excessively and wildlife was 
depleted. Even the great salmon runs went into deep decline. In the 
mid-1930s, the State of California attempted to illegally terminate 
traditional fishing by Yurok people. Our rights were judicially 
reaffirmed in the 1970s and 1980s after decades of legal and physical 
battles. Then, in 1988 Congress passed the Hoopa-Yurok Settlement Act 
to separate the Yurok Reservation from the Hoopa Reservation and 
distribute tribal assists. The Yurok Reservation remained under Yurok 
control with only slightly over 5,000 acres of trust land while the 
Hoopa Reservation remained under Hoopa control with over 90,000 acres 
of trust land.
    In a matter of 130 years, the Yurok people lost over 1.49 million 
acres of land. In the Hoopa-Yurok Settlement Act, Congress recognized 
that the Act was not favorable to the Yurok people. It included in the 
Act two provisions to address the inequities. The first, an 
authorization for the Tribe to acquire more land adjacent to the Yurok 
Reservation, and the second, an authorization for appropriations to 
purchase more land. Congress also expressed its intent to continue to 
work with the Tribe to rebuild its land base through appropriating 
federal funding to purchase land and supporting future land 
acquisition.
    Against all odds, we have resisted, survived and maintained our 
culture and our people: in part, because we were never relocated, and 
in part because we believe in our cultural and religious traditions. 
Today, we are the largest California tribe with over 6,400 tribal 
members. Indeed, many tribal members still live a traditional 
subsistence based way of life. Every year we hold tribal ceremonies, 
dancing for the health of babies and to balance the world. Many of us 
still live in our traditional villages along the Klamath River where 
our ancestors lived, and subside based on a fishing, hunting, and 
gathering life way.
    Today, we are lawyers, doctors, soldiers, judges, artists, amongst 
other occupations and we proudly continue to live our traditional ways. 
But it is not easy. The annual income on the reservation is $11,000 and 
many of our members live well below the poverty line. They attempt to 
make ends meet through supplementing food sources with subsistence 
activities, hunting of deer and elk and fishing of salmon, sturgeon, 
eels, and other fish. But the resources of the reservation continue to 
be diminished by off reservation development. Specifically, the Klamath 
River salmon runs over the last four years have been the lowest on 
record. The salmon have been killed by various fish diseases caused by 
poor water quality, high water temperatures, and low flows all of which 
are caused by dams and agriculture. We have been forced to close our 
fishery and we have declared a fishing disaster every year for the last 
three years. Animals on the land are in decline because of lack of 
habitat due to logging, spraying of pesticides on reservation by 
logging companies, and massive illegal marijuana grows.
    While much has been lost, the spirit of the Creator and our 
inherent tribal sovereignty still thrive in the hearts and minds of our 
people as well as in the strong currents, deep canyons, thick forests, 
and high mountains of our ancestral lands. The Yurok Tribe has emerged, 
strong and proud from the tragedies and wrongs of the years since the 
arrival of non-Indians into our land. Our sacred and vibrant traditions 
have survived and are now growing grander and richer each year.
    Our future lies in sustainable economic development based on our 
rich natural resources, cultural traditions, and preservation of our 
way of life. There is little economic opportunity in our area, and it 
is up to us to use our limited resources to advance our people.
         ii. forests as nature based solution to climate change
    In 2011, the Yurok Tribe became one of the first participants in 
the California Cap-and-Trade Program (Cap-and-Trade Program) by 
participating in the development of the California Assembly Bill 32: 
Global Warming Solutions Act and operating one of the first carbon 
sequestration projects under the Act. By 2020 we will manage multiple 
Improved Forest Management projects, totaling over 47,500 acres on and 
adjacent to the Yurok Reservation that are registered in the California 
Air Resources Board (``CARB'') as part of the Cap-and-Trade Program 
which we refer to as the ``carbon project.''
    The carbon project is part of a two-decade land acquisition effort 
whereby the Tribe reacquired nearly 60,000 acres of forestlands within 
its ancestral territory that was completed in 2018.\1\ These lands--
along with tens of thousands of other Yurok ancestral forestlands--were 
lost in the mid and late 1800s through federal Indian land reservation 
and allotment policies, allowing millions of acres of tribal lands 
across the nation to pass to non-Indian ownership. After allotment, the 
original 25,000-acre Yurok Reservation (including the lower 22 miles, 
and approximately half the acreage, of the present-day Yurok 
Reservation), representing only a fraction of the Tribe's ancestral 
territory, was cut down to less than 4,000 acres of Tribal lands. For 
over a century, Yurok ancestral forestlands were used by non-Indians as 
commercial timberlands, turning a dynamic old-growth coastal redwood 
forest ecosystem into a network of dirt roads, timber slash piles, and 
clear-cut hill slopes, driven by monoculture forestry practices that 
decimated wildlife habitat and suppressed the native ecology. But now, 
through the reacquisition of forestlands, the Tribe is engaging in 
forestry practices guided by traditional knowledge and contemporary 
scientific knowledge with the goal of restoring the forestlands to a 
dynamic ecosystem the forest once knew and allowing Yurok Tribal 
members to interact with the landscape as they have done since time 
immemorial.
---------------------------------------------------------------------------
    \1\ For a thorough discussion of the Tribe's carbon project and 
land acquisitions, see attached Beth Rose Middleton & Kaitlin Reed, 
Returning the Yurok Forest to the Yurok Tribe: California's First 
Tribal Carbon Credit Project, 39 STAN. ENVTL. L. REV. (forthcoming Jan. 
2020).
---------------------------------------------------------------------------
    To facilitate the land acquisition funding, the Tribe developed 
carbon projects on certain parcels of the forestlands. In doing so, 
Yurok was the first tribe to participate in selling California Air 
Resource Board (``ARB'') ARB issued carbon offset credits in the 
State's cap-and-trade program. The program provides a market mechanism 
for reducing carbon dioxide emissions from California's largest 
polluters who are regulated by the State. The program works by 
limiting, or capping, the amount of emissions large polluters can emit. 
That emission limit is then reduced over time so total emissions will 
decrease to meet state targets. The regulated entities can buy carbon 
offsets to help meet their emission limits along the way, but still 
ensuring that pollution volumes decrease. Carbon sequestration 
projects, like Yuroks, supply the carbon offsets that the regulated 
entities may buy to meet their limits. On the carbon offset seller 
side, carbon projects are developed on forestlands that may otherwise 
be used for other extractive purposes, primarily industrial timber. 
When a party, like Yurok, decides to create a carbon project, it agrees 
to maintain the forest's ability to sequester carbon for 100 years. 
During that time, the forest cannot be managed to lower the amount of 
carbon it sequesters at the time of project outset. Thus, forest carbon 
projects work by requiring forestlands to remain intact as forests for 
100 years, maintaining and growing the amount of carbon those forests 
sequester over that time.
    The largest project, on the ``Phase 1'' property, was developed in 
2011 and covers over 22,000 acres of forestland. The smaller project--
Cook Coppala Gerber Gleason--is approximately 9,000 acres and was 
developed in 2012. The Tribe has benefited greatly from its 
participation in the California carbon market. The revenues realized 
from its carbon sales have been used to pay back loans for the 
reacquired lands and, critically, are used for on-the-ground management 
and operations expenses.
    Both carbon projects are defined as improved forestry management 
forest projects, where ``The Forest Owner must adhere to a renewable 
long-term management plan that demonstrates harvest levels which can be 
permanently sustained over time . . . .'' By including a carbon project 
on Yurok-managed forestlands, the Tribe undertook a management 
initiative that included timber harvesting but cabined by the need to 
sustain and grow the carbon sequestering potential of the forests. For 
the Tribe, these seemingly contrasting goals actually supported each 
other. Because the forests had been historically harvested so heavily 
and were in unnatural and even ecologically dangerous condition, they 
demanded active management to restore them. Such work required a level 
of timber harvest to remove dense timber stands that would be small, 
regular, but sustainable. In turn, the remaining forest could grow 
stronger and faster, sequester more carbon, and provide for better 
wildlife habitat.
a. Traditional/Historical Resource Management of Yurok Forests
    The Yurok Tribe possesses a profound connection to the land, air, 
water, and animal resources of the natural world. These resources have 
provided for the cultural, spiritual, and physical health and well-
being of the Yurok people since time immemorial. Historically, Yurok 
people were care-takers of the natural world, respecting and managing 
the natural resources that they relied upon for survival. Tribal 
members were conscious of the physical and biological cycles of the 
natural world, and lived in ways that respected those cycles. Disregard 
of theses cycles could easily cause imbalance and disruption of the 
natural balances of the ecosystem, and seriously threaten the health 
and survival of families, villages, and the Tribe as a whole. To avoid 
disruptions and threats to Yurok survival, strong cultural traditions 
guided the rhythms of life, and the utilization and management of 
critical natural resources. Natural resources were managed 
comprehensively for eco-system wide health. The harvesting and 
gathering of resources were closely managed. Seasonal gathering times 
and places were in rhythm with these natural cycles, and meant to 
harvest only what was needed to meet the needs of the people. Hunting 
places, and fishing places were respected, and resources were shared 
among the people. This ensured balance with the natural world, provided 
consistency and assurances, and resiliency in times of hardship and 
strife.
    A strong, vigorous, and healthy natural ecosystem remains just as 
important to the Yurok Tribe now, as in historical times. The cultural, 
spiritual, and physical health and well-being of the Yurok People 
continues to be bound and connected to the well-being of the natural 
world. We envision a renewed and restored natural ecosystem, that when 
managed carefully, with respect and balance, will provide for the needs 
of Yurok People now and for generations to come. Tribal members will 
have the ability to actively manage their lands, to gather, hunt, 
practice Yurok ceremonies, and pray for spiritual and world renewal.
    Natural resources are also considered the cultural resources of the 
Yurok Tribe. The cultural resources are broad, and encompass the 
landscape, and all the natural resources within it. Significant 
cultural resources include, but are not limited to; elk, deer, marten, 
fisher, otter, pileated woodpecker, acorn woodpecker, stellar jay, 
grouse, hazel, bear grass, acorns, huckleberry, mushrooms, and a 
variety of medicinal plants. Coyote, frog, and salamander are important 
animals also, and are embedded in many Yurok stories of the spiritual 
world. All, are currently found in Blue Creek and surrounding tribal 
lands. We desire, and strive to protect, restore, and manage these 
resources to meet the cultural and economic needs of tribal members now 
and for the generations of Yurok People to come through conservation-
based management, and sustainable forest management.
    The Yurok Tribe wishes to share the benefits of this restored 
ecosystem with other stakeholders, and apply the knowledge and lessons 
learned from our experience with other tribes and state and federal 
land managers, and apply it to other watersheds in the Klamath-Trinity 
River basin.
b. Contemporary Yurok Forest Management
    The Yurok Tribe recognizes that developing healthy, functioning 
forest ecosystems, will provide long-term benefits, certainty, and 
resiliency to the impacts of climate change. Forest resources can be 
enhanced with the careful and thoughtful, science-based application of 
various methods of thinning, logging, and other careful application of 
culturally prescribed fire. It may take 50 or more years to return the 
whole landscape to a state of equilibrium where the forest and its' 
resources are healthy, resilient, and abundant. Resource management 
planning must account for this timeframe, and focus on long-term 
management goals and objectives, guided by a clear vision of the future 
state of the forest, rather than focusing on the short-term benefits of 
extractive management. The Yurok Tribe's vision is long-term, and 
includes application of sustainable forest practices, uneven-aged 
forest management, acceleration to mature and old growth forest types, 
and careful implementation of forest prescriptions that support 
ecosystem function, and integrity. The Yurok Tribe believes that forest 
ecosystem function and integrity should hold equal value, and be 
balanced with the economic benefits the forest can provide. This 
vision, recognizes the inherent value of the forest, for the various 
resources and economic support it provides, but also for the cultural, 
spiritual, and ecological benefits of a healthy forest. Implementation 
of this vision would not preclude other activities such as logging and 
other forest management techniques from occurring; rather it needs to 
include wisely managed selective-timber harvest, pre-commercial 
thinning of overstocked stands, and other modern vegetation management 
techniques. The Tribe believes this long-term, balanced approach will 
respect and honor traditional values and methods, but also be a 
solution to improve forest health, increase carbon sequestration, 
improve water quality, protect fish and wildlife habitats, and increase 
resistance and resiliency to uncontrolled wildfires.
c. Importance of Culturally Prescribed Fire and Fuels Management
    Healthy forests, provide ecological stability, and resiliency to 
the impacts climate change, including; accelerated loss of fish and 
wildlife habitats, degraded air and water quality, and increased 
intensity and severity of uncontrolled wildfires. Wildland fires within 
our forests can be devastating to both the forest ecosystem, result in 
massive economic costs, and loss of resources, property, and human 
lives. Healthy, functioning forest ecosystems, with diverse species 
composition and age-structure can increase resiliency to the impacts of 
wildland fire, and help protect sensitive fish and wildlife species, 
and the communities which rely upon them. Although wildfires can 
potentially be harmful if uncontrolled, and initiated in dense, over-
stocked, unhealthy forest types; the safe and responsible application 
of prescribed fire had been used as a traditional land management 
technique, and has proven to promote and ensure the healthy forest 
ecosystems that have supported Yurok People since time immemorial.
    Unfortunately, decades of fire suppression, and industrialized 
commercial logging activities in the Klamath-Trinity River basin has 
created an unhealthy forest condition. This unhealthy condition was 
created by short-term extractive management, and severely degraded fish 
and wildlife habitats, water quantity and quality, and increased the 
threat of catastrophic wildfire. Forests that have experienced decades 
of fire suppression and commercial timber management have resulted in 
very dense, even-aged, overstocked forest stands, and excessive fuel 
loading conditions. These conditions, and the risk of catastrophic 
wildfire have been compounded by climate change. Increased regional 
annual air temperatures, changes in the natural hydrologic cycle, and 
changes in seasonal weather patterns exacerbates the risk of 
catastrophic wildfire across the landscape, and the potential impacts 
to forest resources and the communities that rely upon them.
    The Yurok Tribe promotes the application of modern, science-based 
land and natural resource management techniques across a landscape 
scale. However, there is also a recognition of the need to adapt modern 
management, and integrate with traditional Yurok ecological knowledge 
and values. Culturally prescribed fire has been used for centuries by 
the Yurok Tribe to reduce fuel loading, maintain prairies and 
grasslands from forest encroachment, improve habitat and forage for 
wildlife, and promote growth of culturally important basket materials, 
foods, and medicines for Yurok People. In recent years, with the 
support of both tribal and non-tribal communities, the Yurok Tribe has 
coordinated with state and federal agencies to responsibly, and 
carefully restore the application of culturally prescribed fire as a 
management tool on tribal lands. Regular application of low-intensity, 
culturally prescribed fire can promote forest health through reduction 
of fuels, increased nitrogen cycling, and increase and accelerate 
forest stand diversity and age-structure. The Yurok Tribe believes that 
through inter-agency partnerships, integrated resource planning, and 
application of culturally prescribed fire can be an important tool to 
promote healthy forests, protect against the impacts of catastrophic 
wildland fire, and increase resiliency to the impacts of impending 
climate change.
   iii. declaring personhood rights to nature for climate resiliency
    The Yurok Tribe has a long history of protecting the Klamath River 
including through the establishment of the Yurok Constitution, Tribal 
Law, and many lawsuits, administrative proceedings, petitions, and 
grassroots activism. On May 9, 2019, the Yurok Tribal Council adopted 
Resolution 19-40 granting the rights of Personhood to the Klamath River 
and established the Rights of the Klamath River to exist, flourish, and 
naturally evolve; to have a clean and healthy environment free from 
pollutants; to have a stable climate free from human-caused climate 
change impacts; and to be free from contamination by genetically 
engineered organisms. The Klamath is the first river in Northern 
America to have personhood rights declared.
    This change in Yurok law was based on the Yurok Tribal Council's 
recognition that in the face of unpredictable and drastic impacts from 
the changing climate, Yurok courts would need a legal structure that 
would allow for holistic review of the harms impacting the Klamath 
River and a path to remedy those harms. Any remedies awarded by the 
courts will go directly back to the Klamath River in the form of clean 
up or restoration projects to address the harms litigated in court, 
thus providing a legal avenue to keep those who would harm the River 
accountable.
    The Rights of the Klamath River also incorporates and recognizes 
the Yurok relationship and experience with the River and its ecosystem 
through traditional ecological knowledge. The law encourages the Yurok 
people to continue living and practicing their traditional lifeways to 
harvest plants, salmon and other fish, animals, and other life-giving 
foods and medicines for both subsistence and commercial uses. The law 
also establishes the rights of the Yurok people to protect and 
represent the River in Yurok courts if they witness harms impacting the 
River. Through this legal mechanism, the Yurok Tribal Council wished to 
encourage the courts to hear and adopt traditional ecological knowledge 
to ensure the reciprocal relationship to care and protect each other 
between the Yurok people and the Klamath River can be fully adopted in 
judicial proceedings.
    We see this change in the law as a climate change adaptive measure 
to increase climate resiliency because it will allow the courts to 
address a wider range of unpredictable harms impacting the Klamath 
River and ensure Yurok traditional ecological knowledge can be 
incorporated in judicial proceedings.
                    iv. ocean ecosystem instability
    In addition to salmon, the Yurok Tribe has long been dependent on 
the marine resources in its aboriginal territory. Traditional Yurok 
villages existed all along the coast from Damnation Creek to south of 
present-day Trinidad, California (Tsurai Village), a stretch of coast 
spanning over 80 miles. Nearshore marine resources were carefully 
managed through traditional knowledge and traditional cultural 
practices for thousands of years. In addition, the primary resource 
that Yurok rely on, the great salmon, steelhead, lamprey, sturgeon and 
eulachon runs all depend on the marine environment and its rich food 
resources for part of their lives.
    Although the Yurok intend to continue this tradition and practice 
of stewardship of marine resources, climate change now presents an 
existential threat to these resources. One of the predicted effects of 
climate change is ocean ecosystem instability, which will have profound 
effects to the Yurok people. Several primary factors related to climate 
change are responsible for this instability:
    (1) ocean acidification interferes with the ability for plankton 
and other animals to make calcium carbonate shells;
    (2) currents and winds will change in unpredictable ways that could 
have significant consequences to the physical environment, and;
    (3) warmer temperatures will bring about a shift in species 
composition including food species and predator species.
    Ocean acidification is caused directly by increased CO<INF>2</INF> 
concentrations which in turn dissolve into the water and then create 
carbonic acid. Acidic conditions interfere with the ability for certain 
marine organisms such as mussels, and certain species of phytoplankton 
and zooplankton to create calcium carbonate shells. Because these 
species form the backbone of the marine ecosystem, acidification 
presents a threat to the very foundations of the food chain. Although 
the greatest effects are not expected for several decades, once 
acidification begins to interfere with these animals, the effects to 
the food chain will be devastating and impossible to reverse quickly.
    Changing winds, currents and ocean conditions will also affect 
marine ecosystems. The nearshore ocean off the west coast of the United 
States is dominated by upwelling processes, which are primarily wind-
driven near Yurok ancestral territory. Cold nutrient-rich water rises 
to the surface as nutrient depleted water moves offshore. This 
upwelling drives one of the largest, most productive marine areas in 
the world. Species from salmon, to killer whales and ultimately humans 
all depend on this rich and productive system. In 2014 through 2018, a 
``blob'' of warm water that stretched from Alaska to northern 
California stopped the upwelling processes and decimated the food 
chain. In combination with river practices and fish diseases, this 
nearly wiped out the salmon runs. This condition returned in 2019, and 
is now occurring with alarming frequency. The 2019 salmon runs were a 
small fraction of its predicted size and it appears that a non-
functioning marine ecosystem was to blame. Although it can be difficult 
to pin individual events such as this directly to climate change, given 
the extremely long memory of the Yurok people and the fact that this 
has not happened before, it is a reasonable hypothesis that these 
events are in fact linked to climate change.
    The ceasing of upwelling and shift to warmer water temperatures 
have other deleterious effects. In addition to stopping upwelling 
processes, warmer water temperatures bring in new species that can 
either have a competitive advantage, or directly prey upon species 
important to the Tribe. For example, this year, when ocean temperatures 
reached about 8 +F above normal, albacore tuna were found much closer 
to shore in areas where salmon are usually found in colder waters. We 
believe these types of changes are contributing to the loss of salmon 
on the west coast, although management of river flows, the presence of 
dams and other factors in the watersheds also play a significant role.
  v. recommendations for working with tribes to combat climate change
    Concurrently with reacquiring our traditional land base, the Tribe 
has been working on federal legislation to expand the boundaries of the 
reservation and empower the Tribe to respond to climate change. The 
Yurok Lands Act of 2019, H.R. 1312, was introduced into the U.S. House 
of Representatives earlier this year and a hearing on the bill was held 
in September in the Natural Resource Subcommittee on Indigenous 
Affairs. The paradigm-shifting piece of legislation seeks to strengthen 
the Yurok Tribe's sovereignty and capacity to self-govern. It expands 
the Yurok Reservation to include the land the Tribe recently 
reacquired, including the carbon projects lands, which is a critical 
step to ensure the project's success and long term viability. The bill 
also supports federal-tribal land management partnerships to ensure 
that tribal human, financial, and technical resources as well as 
ecological knowledge are incorporated into federal land management 
decisions affecting the Yurok Reservation. The bill empowers the Tribe 
to respond to climate change and we urge this Congress to pass it.
    Further, the Yurok Tribe believes that partnerships between tribal, 
federal, state, international and private interests are vital to 
develop innovative solutions to address the complex problem of 
anthropogenic climate change, and critical to mitigating impacts and 
increasing the resiliency of natural and socio-economic systems. This 
Congress should support partnerships between tribes and other entities 
to facilitate climate adaptation and mitigation.
    To that end, we offer the following specific recommendations:
          <bullet> Congress should ratify and fully bind the United 
        State of America to the United Nations Declaration of the 
        Rights of Indigenous People (``UNDRIP''). Ratification of 
        UNDRIP will ensure the United States respects the rights of 
        indigenous peoples and their nations and territories, which in 
        turn will protect the lands, resources, and cultural resources 
        within the United States.
          <bullet> Congress should also to enact legislation that would 
        require all federal, state, local, and territorial governmental 
        agencies to:
    1. Conduct meaningful government-to-government consultation and 
obtain free, prior, and informed consent for all decisions that affect 
indigenous peoples and their traditional and ancestral territories;
    2. Honor all treaties and agreements with indigenous peoples;
    3. Protect and enforce the sovereignty and land rights of 
indigenous peoples;
    4. Recognize and incorporate sustainable development principles in 
reducing greenhouse gas emissions and adapting to climate change, in 
order to simultaneously promote economic development, social well-
being, national security, and environmental protection. Some of these 
principles include, but are not limited to:
    a. Returning ancestral lands and waters to indigenous peoples to 
protect and manage;
    b. Provide funding and political support for the development of 
green jobs and renewable energy infrastructure in lower socio-economic 
communities, communities of color, and in Indian Country;
    c. Provide non-competitive funding to support culturally 
appropriate climate change resilience measures; and
    d. Remove dams and restore water ways to their natural conditions.
    5. Reduce U.S. greenhouse gas emissions to net zero or below as 
soon as possible, consistent with the latest peer-reviewed science; and
    6. Work with other nation states and Native nations to reduce 
global greenhouse gas emissions to net zero or below and to hold the 
increase in the global average temperature to the lowest possible 
increase above pre-industrial levels.
Budget and Finance:
          <bullet> Ensure consistent multi-year funding for Tribes 
        through the BIA Tribal Resilience Grants and other funding 
        programs including the Climate Science and Adaptation Centers, 
        and the Landscape Conservation Collaborative Program.
          <bullet> Increase funding for BIA programs which promote and 
        support culturally prescribed burning and fuels reduction on 
        tribal lands to improve forest health and increase wildland 
        fire resiliency.
          <bullet> Direct federal and state appropriations and create 
        and streamline federal grant processes/programs to provide full 
        support for tribal climate programs.
          <bullet> Support federal and state financing for tribal 
        priorities related to displacement, relocation and emergency 
        services, and renewable energy production.
          <bullet> Develop administrative rules that provide for tribal 
        co-management of resources and land and provide funding to 
        support co-management projects and programs.
          <bullet> Fund tribes to conduct necessary marine studies for 
        the marine portion of the life cycle of the fish.
          <bullet> Fund tribes to study and manage its nearshore and 
        intertidal marine resources.
          <bullet> Address the need for stronger relationships between 
        tribes and funders to increase understanding and effectiveness 
        of funding.
          <bullet> Address the impacts on funding resources that are 
        caused by changing federal authorities.
          <bullet> Tribes need site specific funding in terms of using 
        Traditional Knowledge, integrating climate change and STEM 
        education, accessing site-specific data, building tribal 
        capacity, and implementation of projects.
          <bullet> Encourage the Congressional Research Service to 
        study available climate change related grants that tribes are 
        currently excluded from and recommend how to open up funding 
        mechanisms for Tribal governments to study, plan for and 
        address climate change and ecosystem resiliency.
Carbon Policy/Greenhouse Gas Emission Reduction:
          <bullet> Develop and pass equitable legislation related to 
        cap and trade and or carbon tax/fee that specifically includes 
        tribes, provides a set aside of revenues for tribes, increases 
        tribal capacity, and provides tribal investments in carbon 
        sequestration, carbon reduction actions, renewable energy, and 
        climate adaptation and mitigation funding.
          <bullet> Uphold the Paris Climate Agreement goals and 
        coordinate implementing those strategies with tribes, state, 
        cities, counties and organizations working to control Green 
        House Gas emissions.
          <bullet> Classify carbon revenue as trust revenue (through 
        carbon offset projects developed by tribes)
          <bullet> Create forest management plans that include carbon 
        sequestration and consider ecosystem services.
          <bullet> Federal Transit Administration guidelines should 
        reflect Green House Gas emissions; Tribes need green 
        infrastructure to solve transit issues.
          <bullet> Federal mandates for green building to reflect 
        Climate Change priorities should be integrated within Tribal 
        housing programs.
Renewables/Energy Sovereignty:
          <bullet> Promote tribal energy sovereignty that reflects 
        climate change priorities including funding to develop tribal 
        solar, wind, geothermal, energy efficiency and other green 
        technologies.
          <bullet> Congress should develop policies and incentives for 
        tribes to develop renewable energy generation on tribal 
        infrastructure and tribal trust lands. Congress should not 
        support nuclear energy because of the harms uranium mining and 
        the disposal of nuclear waste causes to indigenous communities 
        and their environments.
          <bullet> Decentralize renewable energy and provide 
        incentives. Recognize the connections between housing and 
        energy production.
          <bullet> The Federal government should serve as a mediator 
        between tribes and financial institutions to finance green 
        building, renewable energy, etc.
Traditional Knowledge:
          <bullet> Co-develop perspectives, research, and projects 
        using Traditional Knowledge (``TK'') to better understand and 
        interact with unique cultural landscapes.
          <bullet> Create scientific research questions that would lead 
        to compatible management strategies, values, and goals between 
        tribes and agencies.
          <bullet> Ensure for the protection of cultural tribal 
        knowledge. Disseminate information data sharing agreements 
        early on in planning process and understand Freedom Of 
        Information Act (FOIA) and how it can be problematic for 
        protecting sensitive information.
          <bullet> Create policy requiring the Free, Prior, and 
        Informed Consent of Tribes when working with TK.
          <bullet> Tribal Government and tribal perspectives need to be 
        understood by agency staff and other partners when using TK.
Youth Engagement/Education:
          <bullet> Fund and invest in multi-cultural and 
        interdisciplinary science to raise awareness among tribal 
        citizens and youth.
          <bullet> Integrate climate change education into tribal 
        communities through K-12 curriculum and community education 
        programs.
          <bullet> Bureau of Indian Affairs should re-invest in funding 
        in youth programs, including internships to provide tribal 
        youth and early career tribal citizens with the training and 
        experience needed to address climate change.
          <bullet> Assist Tribes to work collectively on youth and 
        climate change education and STEM at the state, regional, 
        national, and international levels.
Adaptation:
          <bullet> Agency partnerships with tribes should be based on 
        climate bioregions, and inform various partnerships networks 
        that strengthen cross-boundary management. Continued support 
        for Landscape Conservation Cooperatives is one example of this.
          <bullet> Federal agencies need to provide more technical 
        assistance in developing data sharing agreements and to make 
        site-specific data more accessible to tribes.
          <bullet> Work with BIA programs and other agencies to support 
        tribal priorities: Food sovereignty, entrepreneurship, economic 
        sovereignty, and energy efficiency.
          <bullet> Tribal and natural resource agencies should promote 
        diverse stand management structures and vegetation in their 
        management and administrative practices to meet the need for 
        creating resilient forest conditions, including restoration 
        practices.
          <bullet> Tribal adaptation plans should be looked at as 
        models for non-tribal jurisdictions doing adaptation planning 
        in regions covered or adjacent to Tribal plans.
    Thank you for the opportunity to testify. We look forward to 
working with the Select Committee to address climate change.

    Ms. Castor. Thank you very much. Dr. Howard, you are 
recognized for 5 minutes.

                STATEMENT OF DR. JENNIFER HOWARD

    Dr. Howard. Thank you, Chairwoman Castor, Ranking Member 
Graves, and members of the committee for inviting me today. It 
is a pleasure testifying today with Andy Karsner----
    Ms. Castor. I am not sure if your microphone is on, or move 
it closer to you.
    Dr. Howard. Is that better? I think they said this one was 
low. Can I borrow Andy's? Do I get my time to start over?
    Okay. All right. Take 2. Thank you, Chairwoman Castor, 
Ranking Member Graves, and members of the committee for 
inviting me today. It is a pleasure testifying today with Andy 
Karsner, who sits on Conservation International's board of 
directors, and with Vice Chairman Myers. Our organization is 
working closely with the Yurok Tribe on the California tropical 
forest standard, and my colleague from TNC. TNC is a key 
partner with Conservation International on the subject of blue 
carbon.
    I will start by saying that all people on earth depend 
directly or indirectly on the ocean. From the food we eat, our 
global economy and cultural values, the ocean touches every 
aspect of our lives and allows us to thrive on this planet. And 
now the oceans are demanding that we shift our thinking around 
climate change. It is not a problem restricted to the 
atmosphere. The atmosphere, land, and oceans all work together 
to regulate our planet, and changes to one will and have been 
impacting the others. Lest climate change is ocean change.
    The IPCC, Ocean and Cryosphere Report, published last 
month, describes these changes in no uncertain terms. Today's 
ocean is warmer, rising, and more acidic. In my lifetime, 
extreme weather events will be common, with extreme flooding 
events occurring annually. In my 2-year-old son's lifetime, 
most of the low-lying regions around the world may face 
adaptation limits as they succumb to sea-level rise.
    That is scary, but it is not all bad news. Nature is a 
powerful ally, reducing emissions and protecting the coast 
through no-regret strategies where the planet and people both 
benefit.
    No-regret strategy number one: conserve and restore our 
coastal blue carbon ecosystems. The term ``blue carbon'' refers 
to the climate sequestered and stored in coastal ecosystems 
such as mangroves, tidal marshes, and seagrasses. Blue carbon 
ecosystems act as long-term carbon sinks, are contained within 
clear national jurisdictions, and can be integrated into 
national greenhouse gas accounting. They also provide food and 
livelihoods while harboring incredible biodiversity, making 
their protection one of the most effective but most 
underutilized nature-based strategies to combat climate change. 
However, improper and inadequate management of coastal 
ecosystems has led to their dramatic decline. We have lost 50 
percent of blue carbon ecosystems in the last 50 years, 
resulting in 450 million tons of CO<INF>2</INF> emissions 
annually.
    However, aggressive conservation restoration efforts could 
result in climate mitigation benefits of 1.4 gigatons of 
CO<INF>2</INF> removals each year by 2050, roughly the annual 
emissions of all the cars in California, Texas, New York, and 
Louisiana combined.
    Mr. Graves. Louisiana too?
    Dr. Howard. Louisiana, too. No-regret strategy number 2: 
green-gray infrastructure. This is the fifth consecutive year 
in which there were ten or more weather and climate disaster 
events in the U.S. causing over $1 billion in damages. The need 
for coastal protection of both people and assets has never been 
higher. Green-gray infrastructure is a design philosophy that 
combines nature with the selective use of conventional 
engineering approaches to protect coastal communities and 
assets from climate change. By blending natural green 
conservation with built gray engineering techniques, 
communities can incorporate the benefits of both solutions in a 
more comprehensive, robust, and cost-effective way than 
implementing either solution alone.
    No-regret strategy number 3: sustainable ocean use. Looking 
to the deep ocean, the U.S. has the largest economic exclusive 
zone in the world, with an ocean-dependent economy generating 
over $138 billion, mostly related to the fishing industry. 
Shifts in management of fisheries have the potential to ensure 
that that industry can adapt to climate change and produce an 
ocean that is more bountiful and profitable than it is today, 
thus securing a healthy source of protein in a world where 
climate change threatens food security.
    Another way to safeguard against climate change is to 
protect at least 30 percent of the ocean by 2030. This 30-by-30 
frame offers a target that would protect food supplies, bolster 
climate resilience, and provide safe spaces for marine life to 
rebound. Protecting 30 percent of the ocean and coast also 
offers an economic value estimated in the billions of dollars.
    But what can be done? Conservation International wishes the 
committee to consider the following: the U.S. should expand and 
accelerate conservation and restoration of blue carbon 
ecosystems for climate mitigation, as well as refine its use of 
coastal wetlands within the U.S. greenhouse gas inventory; we 
encourage U.S. decision-makers to include green-gray options in 
the coastal protection and budget plans; we recommend the 
committee promote effective fisheries and aquaculture 
management that provides adaptive capacity for communities in 
the industry and protects critical ocean biodiversity; and we 
recommend that the U.S. supports the creation and sustainable 
management of ocean conservation areas as a climate adaptation 
strategy, specifically related to aid going to large ocean 
states.
    While much of the required emissions productions needed to 
keep us below 1.5 degrees Celsius temperature rise must come 
from decreasing use of fossil fuels, nature-based opportunities 
can also play a critical role in the transition to low-carbon 
future and a safe climate.
    The earth, and specifically the ocean, can no longer be 
expected to take abuse and still provide for us in the same 
way. The planet, this pale blue dot, belongs to us and is ours 
to manage, and we can't retreat from that responsibility to 
manage it wisely.
    Thank you for the opportunity to engage with this 
committee, and I applaud the committee's recognition of the 
ocean as a climate change solution.
    [The statement of Dr. Howard follows:]

                    Testimony of Dr. Jennifer Howard

        Director, Climate and Oceans, Conservation International

   Before the U.S. House of Representatives Select Committee on the 
                             Climate Crisis

 ``Solving the Climate Crisis: Natural Solutions to Cutting Pollution 
                   and Building Climate Resilience''

                            October 22, 2019

                                                  October 18, 2019.
Hon. Kathy Castor,
Chairman, Select Committee on the Climate Crisis,
House of Representatives, Washington, DC.
Hon. Garret Graves,
Ranking Member, Select Committee on the Climate Crisis,
House of Representatives, Washington, DC.

Re: Select Committee on the Climate Crisis hearing on ``Solving the 
        Climate Crisis: Natural Solutions to Cutting Pollution and 
        Building Resilience''
    Dear Chairman Castor and Ranking Member Graves: Thank you for the 
opportunity to provide input to the Committee's hearing: ``Solving the 
Climate Crisis: Natural Solutions to Cutting Pollution and Building 
Resilience.''
    The ocean is the dominant feature of our plant, covering 70 percent 
of its surface and driving its climate and biosphere. It used to be 
assumed that the ocean was so large that climate change impacts on the 
ocean would be minimal but we now know this is not the case. The 
Intergovernmental Panel on Climate Change (IPCC) Ocean and Cryosphere 
report \1\ describes these changes in no uncertain terms. Today's ocean 
is warmer, more stratified, and more acidic. Ocean heatwaves are 
killing our corals and rising sea surface temperatures are increasing 
storm severity resulting in the multitude of extreme weather events we 
have observed over recent years. As the ocean warms and ice melts, sea 
level is rising at an accelerating rate. However, while much of the 
recent attention is focused on the problems that the ocean faces, the 
ocean is also a source of potential solutions and innovation.
---------------------------------------------------------------------------
    \1\ IPCC, 2019: Summary for Policymakers. In: IPCC Special Report 
on the Ocean and Cryosphere in a Changing Climate [H.-O. Portner, D.C. 
Roberts, V. Masson-Delmotte, P. Zhai, M. Tignor, E. Poloczanska, K. 
Mintenbeck, M. Nicolai, A. Okem, J. Petzold, B. Rama, N. Weyer (eds.)].
---------------------------------------------------------------------------
    The world needs to move rapidly and systematically to reduce 
emissions of greenhouse gases (GHGs) to the atmosphere if it is to 
avoid irreversible climate 
impacts.\2\ \3\ Greater efforts are essential to accelerate and scale 
decarbonization of the economy and pursue a pathway to net-zero 
emissions by the middle of the century. Following the findings of the 
IPCC Special Report on the implications of 1.5 +C warming above the 
preindustrial period, it is now abundantly clear that stronger action 
to mitigate GHG emissions is a global imperative that will require an 
inclusive approach across the whole of the global economy.
---------------------------------------------------------------------------
    \2\ IPCC. 2014. Climate Change 2014: Synthesis Report. Contribution 
of Working Groups I, II and III to the Fifth Assessment Report of the 
Intergovernmental Panel on Climate Change. Edited by R.K. Pachauri and 
L.A. Meyer. Geneva: IPCC. www.ipcc.com.
    \3\ IPCC. 2018. Global Warming of 1.5 +C: An IPCC Special Report on 
the Impacts of Global Warming of 1.5 +C above Pre-Industrial Levels and 
Related Global GHG Emission Pathways, in the Context of Strengthening 
the Global Response to the Threat of Climate Change, edited by J. B. R. 
Matthews. Geneva: World Meteorological Organization.
---------------------------------------------------------------------------
    To date, much of the attention paid to nature based solutions to 
climate change has been directed to the role of terrestrial sources of 
emissions and sinks, such as the impact of tropical deforestation as a 
source of greenhouse gas emissions. However, oceans and coasts have 
recently taken center stage in the discussion of climate impacts and 
solutions; so much so that the upcoming global negotiations on climate 
action under the United Nations (COP25) to be held in Chile in December 
2019 has been dubbed the ``Blue COP''. This is fitting, as ocean-based 
mitigation and adaptation options offer significant potential to 
contribute to global efforts to limit global warming as well as achieve 
the targets of the Paris Agreement and the Sustainable Development 
Goals.
    The ocean is on the front lines of the battle against climate 
change. Not only has the ocean absorbed 93 percent of the heat trapped 
by rising anthropogenic carbon dioxide (CO<INF>2</INF>), it also 
absorbs approximately 25 to 30 percent of anthropogenic CO<INF>2</INF> 
emissions that would otherwise remain in the atmosphere and increase 
global warming. Mangroves, salt marshes, and seagrass beds are highly 
productive vegetated coastal ecosystems and are hotspots for carbon 
storage, with soil carbon sequestration rates per hectare up to 10 
times larger than those of terrestrial ecosystems.\4\ When these 
ecosystems are degraded and converted, carbon in the vegetation and 
soils, which may have accumulated over hundreds or thousands of years, 
is oxidized and emitted back to the atmosphere in a matter of decades, 
leading to increased emissions. Thus, protection of these ``Blue 
Carbon'' ecosystems offers an efficient pathway to avoid CO<INF>2</INF> 
emissions, particularly for nations with large areas of coastal 
vegetation and high rates of loss. Similarly, utilizing these ocean 
related nature based solutions yields important co-benefits to local 
communities via other ecosystems services, such as providing habitat 
for commercially important fish species, food security, livelihoods, 
and reducing the impact of storms during extreme weather events as seen 
in hurricane Sandy where coastal wetlands prevented more than US$625 
million in direct property damages by buffering coasts against its 
storm surge.\5\
---------------------------------------------------------------------------
    \4\ Mcleod, E., et al. 2011. ``A Blueprint for Blue Carbon: Toward 
an Improved Understanding of the Role of Vegetated Coastal Habitats in 
Sequestering CO<INF>2</INF>.'' Frontiers in Ecology and the Environment 
9 (10): 552-60.
    \5\ Narayan, Siddharth, et al. ``The value of coastal wetlands for 
flood damage reduction in the northeastern USA.'' Scientific reports 
7.1 (2017): 9463.
---------------------------------------------------------------------------
    Protection and restoration of ocean and coasts for climate 
mitigation and adaptation provides ``no-regret'' strategies, and thus 
Conservation International would recommend the Committee take into 
account the following four areas of ocean-based natural solutions to 
climate change in their formal recommendations. These key topics for 
oceans and coasts are Blue Carbon, Green-Gray Infrastructure, 
Sustainable Fisheries, and Large Scale Marine Protection.
                   blue carbon for climate mitigation
    Coastal blue carbon ecosystems--mangroves, tidal marshes, and 
seagrasses--are now an established key component of nature-based 
climate change mitigation strategies. Found at the interface between 
sea and land, these habitats sequester and store up to ten times more 
carbon, per unit area, than terrestrial forests.\6\ \7\ \8\ There is 
growing awareness that the loss of coastal wetlands is contributing to 
global warming and that conservation and restoration of these wetlands 
may help to reduce or possibly reverse some of these impacts. In a 
global synthesis, it was estimated that converted and degraded coastal 
wetlands emit 450 million tons (Mt) of CO<INF>2</INF>.<SUP>6</SUP> Such 
emissions are equivalent to 3 to 19% of those from deforestation 
globally and result in economic damages of USD $6 to 42 billion, 
annually. However, restoration of coastal ecosystems could result in 
potential climate mitigation benefits of 0.89 Gigatons (Gt) of 
CO<INF>2</INF> removals each year by 2030 and up to 1.38 Gt by 2050 
\9\--roughly the annual emissions of all the cars in California, Texas, 
New York and Louisiana combined.
---------------------------------------------------------------------------
    \6\ Pendleton, Linwood, et al. ``Estimating global ``blue carbon'' 
emissions from conversion and degradation of vegetated coastal 
ecosystems.'' PloS one 7.9 (2012): e43542.
    \7\ Howard, Jennifer, et al. ``Clarifying the role of coastal and 
marine systems in climate mitigation.'' Frontiers in Ecology and the 
Environment 15.1 (2017): 42-50.
    \8\ Simard, Marc, et al. ``Mangrove canopy height globally related 
to precipitation, temperature and cyclone frequency.'' Nature 
Geoscience 12.1 (2019): 40.
    \9\ Hough-Guldberg, O., et al. 2019. ``The Oceans as a Solution to 
Climate Change: Five Opportunities for Action.'' Report. Washington, 
DC: World Resources Institute. Available online at http://
www.oceanpanel.org/climate.
---------------------------------------------------------------------------
    Growing interest in coastal carbon sinks and sequestration--both in 
terms of scientific understanding and the climate change policy 
implications thereof--is driving rapid expansion of carbon dynamics 
research in coastal blue carbon ecosystems. In turn, this science has 
driven formal recognition of the importance of conservation and 
restoration of these ecosystems for climate change mitigation within 
international climate policy, finance and related management. Over the 
last seven years, Conservation International has been central to 
catalyzing this progress by facilitating and focusing research on 
priority policy-relevant topics and working to integrate that science 
into policy and management, leading to conservation, restoration and 
sustainable management of blue carbon ecosystems all over the world.
    However, addressing the destruction of wetlands requires changing 
economic incentives that drive the destruction. Here, too, blue carbon 
can provide a solution. Governments should recognize the significant 
carbon impact from these ecosystems, and that protecting and 
effectively restoring wetlands is a key, but mostly forgotten, tool in 
the fight against climate change. Conservation International and our 
partners are building the conditions needed on the ground for large-
scale application of blue carbon approaches--specifically the 
development of blue carbon credits that can be sold on the voluntary 
carbon market to provide start-up funding for conservation and 
restoration activities or that can be used to meet countries emissions 
targets. These sources of financing and associated policies represent a 
new avenue for protecting wetlands at a scale never achieved before. 
Blue carbon finance and policy aims to foster conditions where the full 
carbon value in these rich ecosystems, not just in the trees, but in 
the soil, is recognized and the financial remuneration available to 
conserve these areas is maximized.
    In the U.S., federal agencies have established an interagency team 
to support blue carbon efforts. These include integrating blue carbon 
science and policy into the National Ocean Policy and activities to 
develop tools and methodologies for blue carbon management. The 
National Assessment of Ecosystem Carbon Sequestration and Greenhouse 
Gas Fluxes recognizes that national estimates of GHG fluxes are lacking 
and that filling this data gap is a priority. Whether to support 
national climate change goals, e.g. under a carbon finance framework, 
or to encourage less formal adoption of best practices, there is a need 
for refined quantification of GHG emissions and removals due to 
wetlands management at the national scale. Moreover, wetland climate 
change mitigation activities should be embedded within climate change 
adaptation strategies to avoid future negative outcomes related to 
coastal land-use planning.
green-gray infrastructure and coastal protection for climate adaptation
    Extreme weather events brought about by climate change are one of 
the most dangerous risks facing humanity.\10\ Reducing this threat to 
vulnerable communities is a critical challenge of our time. These 
events have already caused devastating impacts on communities in many 
parts of the world, affecting people's lives and infrastructure in an 
unprecedented manner. In 2019 (as of October 8), there have been 10 
weather and climate disaster events in the U.S., with financial damages 
exceeding $1 billion--for each event. Half of those were severe storm 
events, and two were tropical cyclone events. Overall, the extreme 
weather events this year resulted in the deaths of 39 people and had 
significant economic effects on the areas impacted. This year, 2019, is 
the fifth consecutive year (2015-2019) in which 10 or more billion-
dollar weather and climate disaster events have impacted the U.S.\11\
---------------------------------------------------------------------------
    \10\ World Meteorological Organization (WMO) Statement on the State 
of the Global Climate in 2017, https://library.wmo.int/
doc_num.php?explnum_id=4453.
    \11\ https://www.ncdc.noaa.gov/billions/.
---------------------------------------------------------------------------
    Approximately $100 trillion of global infrastructure is estimated 
to be at risk due to inadequate insurance and risk management \12\, 
while almost 1.9 million homes worth a combined $882 billion are at 
risk of being underwater due to sea level rise by 2100.\13\ Across all 
future climate scenarios, no matter the degree of intervention, 
predicted impacts on coastal communities and assets are projected to be 
substantial and will cost up to 4% of annual world GDP by 2100.\14\ 
That same modeling indicates that adaptation strategies can reduce 
these impacts by 2 to 3 orders of magnitude but will require an 
investment of USD $70 billion annually by 2100. Green-gray 
infrastructure--a new approach to climate adaptation--provides cost 
effective approaches that can and should be a key adaptation solution 
for the U.S.
---------------------------------------------------------------------------
    \12\ Jupiter. (2018, February 12). Jupiter Launches Climate Data, 
Analytics and Technology Platform to Predict and Manage Weather and 
Climate Change Risks. Retrieved from https://www.globenewswire.com/
newsrelease/2018/02/12/1339285/0/en/Jupiter-Launches-Climate-Data-
Analytics-and-Technology-Platform-to-Predictand-Manage-Weather-and-
Climate-Change-Risks.html.
    \13\ Zillow Research. (2017, June 2). Climate Change and Housing: 
Will a Rising Tide Sink All Homes? Retrieved from https://
www.zillow.com/research/climate-change-underwater-homes-12890/.
    \14\ OECD (2019), Responding to Rising Seas: OECD Country 
Approaches to Tackling Coastal Risks, OECD Publishing, Paris https://
doi.org/10.1787/9789264312487-en.
---------------------------------------------------------------------------
    Green-gray infrastructure combines the conservation and/or 
restoration of ecosystems with the selective use of conventional 
engineering approaches to provide people with solutions that deliver 
climate change resilience and adaptation benefits. Green-gray 
approaches draw upon the best of society's engineering achievements to 
innovate the next generation of climate resilient infrastructure. By 
blending ``green'' conservation with ``gray'' engineering techniques, 
communities can incorporate the benefits of both solutions while 
minimizing the limitations of using either green or gray infrastructure 
individually. For example, a combination of wetland restoration with 
limited geoengineering approaches, such as breakwaters, combines the 
wave attenuation and flood control value of wetlands with the benefits 
of engineered structures to stabilize the coastal zone and attenuate 
waves through beach accretion. The combined solution can be more 
comprehensive, robust and cost-effective than either solution alone. 
And these blended solutions can provide a host of multi-benefits:
        <bullet>  Habitat for fish and other aquatic species
        <bullet>  Employment opportunities for example, through 
        enhanced fisheries
        <bullet>  Coastal protection to absorb and buffer wave energy 
        and storm surge
        <bullet>  Carbon Capture, by conserving or restoring wetlands 
        that capture and store five times more carbon than tropical 
        rainforests, and
        <bullet>  Improving water quality by capturing, storing and 
        filtering rainwater or stormwater.
    These benefits are additional to the fact that green-gray 
infrastructure is often a highly cost effective alternative to 
traditional engineering only solutions, especially when considering the 
environmental and social co-benefits. For example, the installation of 
breakwaters that mimic the natural environment providing coastal marine 
habitat, increase sediment trapping to combat erosion and build up the 
beach, while at the same time reducing wave energy and protecting 
coastal communities and assets from storm surges.
    For all these reasons, Conservation International has launched a 
green-gray infrastructure program to support communities around the 
world cope with the impacts of climate change, and we encourage U.S. 
decision makers to include green-gray options in their coastal 
protection and budget plans.
              sustainable fisheries for climate adaptation
    The ocean is the world's largest source of food. Seafood is the 
most traded food commodity globally and is the last global food 
commodity we hunt. Three billion people--three out of every seven on 
the planet--rely on seafood as a primary source of animal protein.\15\ 
Fisheries support the economies of developing countries worldwide, 
including over 260 million livelihoods.\16\
---------------------------------------------------------------------------
    \15\ Source: UNFAO 2014. Fish now accounts for almost 17% of the 
global population's intake of protein--in some coastal and island 
countries it can top 70%.
    \16\ Teh, L.C. and U. Sumaila. 2013. Contribution of marine 
fisheries to worldwide employment. Fish and Fisheries 14:77-88.
---------------------------------------------------------------------------
    Half of the world's wild-caught fisheries are overexploited or 
depleted, due to overfishing, pollution, climate change and other 
threats.\17\ Overfishing, increased illegal, unreported, and 
unregulated (IUU) fishing, and use of indiscriminate and damaging 
fishing gears have resulted in stock declines and collapses--impacting 
food security, livelihoods, and economies of coastal communities.
---------------------------------------------------------------------------
    \17\ UN FAO. 2014. The State of the World Fisheries and 
Aquaculture. [online] http://www.fao.org/3/a-i3720e/index.html.
---------------------------------------------------------------------------
    Aquaculture--fish farming--is one of the fastest growing food 
production sectors globally, accounting for half of the worldwide total 
seafood production. Intensive aquaculture has resulted in widespread 
degradation of coastal ecosystems from pollution, waste, and habitat 
destruction.\18\ Sustainable aquaculture approaches with minimal or no 
net impact of coastal ecosystems are not widely used due to lack of 
capacity or economic incentives.
---------------------------------------------------------------------------
    \18\ Hall, SJ., et al. 2011. Blue Frontiers: Managing the 
environmental costs of aquaculture. The WorldFish Center, Penang, 
Malaysia.; Troell, M., R. L. Naylor, M. Metian, M. Beveridge, P. H. 
Tyedmers, C. Folke, K. J. Arrow, S. Barrett, A.-S. Crepin, and P. R. 
Ehrlich. 2014. Does aquaculture add resilience to the global food 
system? Proceedings of the National Academy of Sciences 111:13257-
13263.; Klinger, D., and R. L. Naylor. 2012. Searching for solutions in 
aquaculture: charting a sustainable course. Annual Review of 
Environment and Resources 37:247-276.
---------------------------------------------------------------------------
    The problems of overfishing and unsustainable aquaculture are 
fueled by several factors. Demand for seafood is rising due to 
population growth, rising affluence, and globalization, and demand for 
fish as food for livestock and aquaculture operations is growing.\19\ 
New technologies have multiplied harvesting capacity, and pollution and 
habitat degradation are reducing the productive capacity of fisheries 
ecosystems. These problems are magnified by ineffective policy and 
governance systems.
---------------------------------------------------------------------------
    \19\ Naylor, RL., et al. 2000. Effect of aquaculture on world fish 
supplies. Nature 405:1017-1024.
---------------------------------------------------------------------------
    The benefits of investing in improved management of fisheries and 
aquaculture outweigh the costs on average 10:1, and effective 
conservation can produce positive outcomes for biodiversity and 
communities. One study concludes that under sustainable management, 
global fish production could increase by 14%, and economic profits can 
increase by 168%, reaching $74 billion a year.\20\
---------------------------------------------------------------------------
    \20\ CEA, editor. 2015. Ocean Prosperity Roadmap: Fisheries and 
Beyond. California Environmental Associates (CEA). [online] http://
www.oceanprosperityroadmap.org/wp-content/uploads/2015/05/Synthesis-
Report-6.14.15.pdf.
---------------------------------------------------------------------------
    Dramatic changes to fishery management has the potential to adapt 
and compensate for the coming climate change impacts to produce a 
seafood future that is more bountiful and profitable than it is today--
thus securing a healthy source of protein in a world where climate 
change threatens future food security. However, just because fishery 
management can improve, doesn't mean it will. Over the last two 
decades, CI has implemented successful initiatives to improve the 
environmental sustainability and social benefits of fisheries and 
aquaculture. We recommend the committee promote effective fisheries and 
aquaculture management which provide adaptive capacity for communities 
to successfully navigate the impacts of climate change.
          large scale marine protection for climate adaptation
    By reducing other threats to ocean ecosystems, such as destructive 
fishing, habitat loss, and pollution, Marine Protected Areas (MPAs) 
build ecological resilience and increase the ability of ecosystems, 
species, and communities dependent on the ocean for their livelihoods 
to adapt to climate change. When local communities and stakeholders are 
directly involved in the design, management, and benefit sharing, we 
see more successful outcomes. MPAs can also help build social 
resilience and adaptive capacity to climate change.
    The IPCC Ocean and Cryosphere report \21\ explicitly mentions the 
value of MPA's to increase societies' capacity to respond to climate 
change risks. To protect our ocean and ensure it can provide the 
resources we need for 7-11 billion people, we must imagine and act at a 
scale larger than we ever have before. Effective place-based 
conservation and management safeguards biodiversity, replenishes 
fisheries, provides for the safety and security of people, and enables 
ecosystems to function as they should. A study conducted by 
Conservation International directly links marine managed areas with 
increased local incomes, food stability, and quality of life.\22\ Areas 
with adequate capacity and funding are found to deliver almost three 
times the ecological benefits.\23\ And a well-managed area reduces 
stress from unsustainable human activities, making the ocean system 
more resilient and better able to cope with climate impacts.\24\ 
Because this approach works, the International Union for Conservation 
of Nature (IUCN) has called for 30 percent of the ocean to be placed in 
marine protected areas.\25\
---------------------------------------------------------------------------
    \21\ IPCC, 2019: Summary for Policymakers. In: IPCC Special Report 
on the Ocean and Cryosphere in a Changing Climate [H.-O. Portner, D.C. 
Roberts, V. Masson-Delmotte, P. Zhai, M. Tignor, E. Poloczanska, K. 
Mintenbeck, M. Nicolai, A. Okem, J. Petzold, B. Rama, N. Weyer (eds.)].
    \22\ Kaufman, Orbach. 2010. Marine Managed Area Science Project 
Synthesis: Report to the Gordon and Betty Moore Foundation. 
Conservation International.
    \23\ Gill et al. 2017. Capacity shortfalls hinder the performance 
of marine protected areas globally. Nature 543: 665-679.
    \24\ Roberts et al. 2017. Marine Reserves can mitigate and promote 
adaptation to climate change. National Academy of Sciences 114: 6167-
6175.
    \25\ IUCN World Conservation Congress. 2016. Increasing marine 
protected area coverage for effective marine biodiversity conservation. 
WCC-2016-Res-053-EN.
---------------------------------------------------------------------------
    Governments need to protect, conserve and sustainably manage vast 
stretches of ocean area, recognizing the tremendous benefits such 
actions yields both for nature and their citizenry who depend on the 
ocean culturally, socially and economically. Noting that there are many 
categories of MPA's from no-take zones to multiple use areas where 
protection and sustainable use are in balance. People--from local 
communities to heads of state--are now recognizing and prioritizing 
area-based strategies to protect and sustainably manage the ocean. 
However, the community of ocean conservation organizations and funders 
has not kept pace with this historic shift in attitudes toward and 
growing interest in protecting the ocean. A 2017 report commissioned by 
the Packard Foundation \26\ found that only a small number of 
foundations give to placed-based ocean conservation, totaling $40 
million annually. A significant increase in funding and support is 
needed to maintain momentum for ocean conservation globally.
---------------------------------------------------------------------------
    \26\ California Environmental Associates. 2017. Our Shared Seas: A 
2017 Overview of Ocean Threats and Conservation Funding. Prepared with 
support of the David and Lucile Packard Foundation.
---------------------------------------------------------------------------
    Conservation International has prioritized catalyzing the creation 
and improvement of 18,000 km2 of ocean conservation areas and we 
recommend that the U.S. supports the creation and sustainable 
management of ocean conservation areas as a climate adaptation 
strategy, specifically aid going to large ocean states.
                        applications for policy
    Each of these ocean-based natural solutions to climate mitigation 
and adaptation play a significant role in preserving wildlife, coastal 
communities and the sustainable marine based economies upon which they 
depend. Blue Carbon, Green-Gray Infrastructure, Sustainable Fisheries, 
and Marine Protected Areas can help us build resilience to the impacts 
of climate change that are being felt across our country and in every 
region on Earth.
    There is a small, but important window of opportunity within which 
the emissions trajectory based on ``Current Policy'' can be directed 
towards a pathway that is consistent with limiting global temperature 
rise to the 1.5 +C and 2.0C goals determined through the Paris 
Agreement. While much of the required emission reductions must come 
from deep cuts within terrestrial-based activities, including 
decreasing the use of fossil fuel, ocean-based opportunities can also 
play a critical role in the transition to a low-carbon future and safer 
climate.
    However, achieving the mitigation potential of ocean and coastal 
systems will not be possible without significant investment in research 
and development. It will also be necessary to provide strong incentives 
to align financial flows with the needs of the mitigation and 
adaptation opportunities available. Governments must send policy 
signals that these innovative, nature based solutions are a priority 
for combining climate adaptation and mitigation.
    One of the first opportunities that governments will have to 
comprehensively integrate ocean-based mitigation options into national 
plans and strategies for climate change is the updating of national 
climate action plans in 2020. This is an extremely important moment, as 
emphasized by the IPCC (2018): the chances of ``failing to reach 1.5 
degrees Celsius [will be] significantly increased if near-term ambition 
is not strengthened beyond the level implied by current NDCs.'' Given 
the consequences of failing to limit global average temperature rise to 
1.5C, or at least to ``well below'' 2.0C, it is of great importance 
that actions begin immediately.
    Ultimately, the ocean, its coastal regions, and the economic 
activities they support should be a source of inspiration and hope in 
the fight against climate change. With the backdrop of a growing 
climate catastrophe, the timing of this Committee Hearing is critical, 
and there could not be a more compelling case for urgent action.
    Thank you for your leadership in holding this important hearing. 
Conservation International values the role our natural environment 
plays in mitigating and adapting to the worst impacts of climate 
change. We look forward to working together to continue to develop 
policies that can help to accelerate action on climate change.
            Sincerely,
                                    Jennifer Howard, Ph.D.,
           Director, Oceans and Climate Conservation International.

    Ms. Castor. Thank you, Dr. Howard.
    Now on to Andy Karsner. Welcome, Mr. Karsner. You are 
recognized for 5 minutes.

               STATEMENT OF THE HON. ANDY KARSNER

    Mr. Karsner. Thank you. Chairwoman Castor, Ranking Member 
Graves, esteemed members of the committee, thank you for the 
invitation and the honor to testify before you today.
    You have got a sample of why I am so proud to be associated 
with TNC and Conservation International, and Jen and her good 
work.
    I want to thank the committee for the seriousness of 
purpose with which it is taking its task. Many people say that 
a committee without jurisdiction may not amount to serious 
consequence, but I have had the opportunity to get to know you 
both--and it was with such privilege, and it has come to my 
attention that this is one of the few oases in Congress where 
people can galvanize serious thought and coalesce into serious 
solutions. So there are great prospects for collaboration and 
where there isn't, there is an openness towards the virtuous 
competition of big ideas.
    So I want to thank you both, because amongst the biggest 
ideas that this committee can prioritize in its recommendations 
going forward is how to use natural resource solutions and 
natural capital as a source of galvanizing a national consensus 
and bringing new value and prosperity to our communities.
    As you have heard from the other witnesses, we are in an 
era where we can easily identify what the value of natural 
capital is and bring it to bear. They have told you what is 
available and to be accomplished. I would like to talk for a 
moment about how that can be done.
    Before doing so, I would also like to compliment your 
staffs. I have had the chance to get to know, Ms. Cohen, Ms. 
Cassady, Mr. Hall, Mr. Banks, not just now in the context of 
this committee, but over their many years of service, including 
a dozen years ago when I myself was in public service, not just 
managing the Federal Applied Science Laboratories, 
International Labs, but also as a climate negotiator and 
principal architect of the Bali roadmap, the precursor to 
Paris.
    At that time, it wasn't the most fun job description to be 
George W. Bush's representative abroad, entering the UNFCCC 
after a 10-year hiatus post Kyoto. But I would enter each 
meeting introducing myself as a child of the Apollo generation, 
and I would explain to them that despite their own skepticisms, 
we Americans had a sensibility that there was no goal beyond 
our reach, that nothing was too distant, that all possibility 
existed in planetary solutions.
    That is the type of optimism that we should have today, 
because we have more resources, more capacity, more innovation, 
and more possibility about addressing our climate conundrum, 
but we need to do it through the lens of climate math, and not 
merely entire debate on the validity of climate science.
    Climate math means understanding and identifying what 
volume of emissions reductions is available, from what source, 
and at what price. And I urge the committee to move the 
discussion strategically in that direction on Capitol Hill, so 
that we can get with the spirit of this committee. We can 
proselytize that spirit and get into a competition of ideas 
about how to best achieve that climate math.
    Unequivocally, the best way to do it is to have nature 
solve for nature. There is no greater source of emissions 
reduction available. There is no man-made technology that can 
exceed nature's capacity to absorb, to drain, to sequester, and 
to minimize carbon emissions.
    And so the continuous dialogue about cutting of the spigot 
of emissions becomes less and less important going through 
time, relative to opening the drain and ensuring that we can 
return to a steady-state ecosystem by allowing nature to 
perform its own functions without degradation, and valuing 
those functions into our marketplace.
    We have already launched a cascading series, a chain 
reaction of unintended consequences. And science and technology 
both would dictate that we have to have an equal and opposite 
reaction that is symmetrical if we are going to problem solve 
at the scale and the magnitude, and the timeframe of the 
problem that we are addressing.
    I would like to believe that this can be done through 
natural capital resources which cumulatively can address up to 
30 percent of greenhouse gas emissions. But it can only be done 
if it is brought into our market system and economy and valued 
appropriately.
    For that, we must have price discovery of the true value of 
nature, of all the benefits that the other witnesses have 
described here today. We have to be able to identify, through 
information and analytics and insight, those indicators that 
will inform innovation for financial instruments, insurance 
instruments, commodity supply chains, and ensure that we can 
continue to grow and prosper even as we remediate and make our 
communities more resilient.
    Madam Chair and Chairman Graves, thank you again for the 
opportunity to testify. I look forward to answering your 
questions, and I am truly grateful for the leadership you bring 
to this issue.
    [The statement of Mr. Karsner follows:]

                Testimony of The Honorable Andy Karsner

                   Executive Chairman, Elemental Labs

   Before the U.S. House of Representatives Select Committee on the 
                             Climate Crisis

 ``Solving the Climate Crisis: Natural Solutions to Cutting Pollution 
                   and Building Climate Resilience''

                            October 22, 2019

    Chair Castor, Ranking Member Graves, Distinguished Members of the 
Committee:
    Thank you for the honor and the invitation to represent the 
innovation and conservation communities, which are increasingly 
convergent on our shared mission to enable community resilience, and to 
ensure the continuity of economic prosperity. It is increasingly clear 
that the essential pathway to these objectives involves understanding 
and applying the value of natural capital for the sustainable 
modernization of our market economy.
    This year, we have been confronted with repeated reminders of the 
destructive violence and senseless damage climate change inflicts on 
our communities and ecosystems. These range from the raging wildfires 
in the Amazon and California to the intensified hurricanes relentlessly 
pounding our nation's southern and eastern coastal communities. 
Recurring heatwaves were the deadliest climate hazard from 2015-2019, 
affecting all continents and setting temperature records around the 
world. Even as Japan deploys resources and technology to fortify its 
physical resilience to natural disasters, many expressed in the wake of 
Typhoon Hagibis that the ``best recovery strategy'' is simply to 
persevere in the face of pain, suffering, and loss.\1\ We are inching 
toward tipping points that threaten irreplaceable ecosystems such as 
tropical peatlands, mangroves, prairies, and seagrasses--all of which 
have a vital role in sequestering carbon and maintaining the Earth's 
delicate planetary equilibrium.
---------------------------------------------------------------------------
    \1\ The Independent, `` `Everything is gone': Japan left reeling 
from worst storm in decades,'' October 19, 2019, https://
www.independent.co.uk/news/world/asia/japan-typhoon-hagibis-storm-
destruction-fukushima-a9163101.html.
---------------------------------------------------------------------------
    There is growing recognition that these human and ecosystem tolls 
will also likely induce a cascade of irreversible and poorly predicted 
economic consequences. The insurance industry and other stakeholders 
recognize that current flood risk assessment tools are too crude and 
outdated to accurately predict flood risk and assess the impact of 
mitigation investments, and that financial institutions and property 
owners have no accurate, standardized way to measure asset risk. This 
is also true of wildfires; Munich Re, the world's largest reinsurance 
firm, indicated that climate change was responsible for $24 billion in 
losses due to the 2018 California wildfires.\2\ Last week, the CEO of 
already-bankrupt Pacific Gas & Electric (PG&E) warned of safety 
blackouts for another ten years to update equipment prone to sparking 
wildfires, which are becoming increasingly likely in California due to 
rising temperatures. All of this points to the urgent necessity to 
prepare and proactively transition our public policies and 
institutional management by thoughtful design.
---------------------------------------------------------------------------
    \2\ Neslen, Arthur. ``Climate Change Could Make Insurance Too 
Expensive for Most People Report.'' The Guardian, 21 Mar. 2019.
---------------------------------------------------------------------------
    A few days ago, the Federal Reserve Bank of San Francisco published 
a dire warning of the dangers climate change poses to America's 
businesses and communities, calling upon lenders and businesses to act 
swiftly. This is especially imperative since municipalities, counties, 
parishes, and local and state governments are unlikely to have the 
capacity or balance sheets to fully prepare through conventional 
mitigation and adaptation efforts. It is therefore urgent that this 
Committee prioritize recommendations for community resilience and 
maximize the value of local ecosystems in attenuating these known and 
rising risks to lives, property, safety, and security.
    Economic effects have already been set in motion. These are not 
future, hypothetical risks to our collective prosperity. Rather, the 
market has already begun to take account of climate change, noting the 
insufficiency of policy guardrails, and has started discounting and 
devaluing real estate--our homes, schools, small businesses, factories, 
and infrastructure--accordingly. Properties which are likely to be 
underwater if sea levels rise by one foot now sell for approximately 15 
percent less than comparable properties without this exposure to flood 
risk.\3\ As this decline in property values sends signals to the rest 
of the financial system, banks may avoid lending to flood-prone areas 
in a practice called ``bluelining'', which will imperil the health and 
resilience of the often poor communities that are already vulnerable to 
these disasters. This is another form of regressive taxation imposed by 
neglect.
---------------------------------------------------------------------------
    \3\ Asaf Bernstein, Matthew Gustafson, and Ryan Lewis, Real Estate 
as a Tool for Adaptive Banking, Community Development Innovation 
Review, Volume 14, Issue 1, 2019.
---------------------------------------------------------------------------
    Credit rating agencies are deeply attuned as well. In 2017, Moody's 
warned that climate change would increasingly negatively affect the 
creditworthiness of U.S. state and local issuers, the cost of which 
flows through to American pocketbooks and livelihoods. Recently, both 
Moody's and S&P acquired significant stakes in leading providers of 
data, intelligence, and analysis on physical climate risk, indicating 
clearly that climate data and computational science will be key drivers 
in determining the cost of funds and credit for all of us.
    Moreover, there are significant indicators that capital markets are 
both considering and executing dramatic shifts in how accounting is 
managed, information is exchanged, and disclosure is verified. The 
private sector is assessing contingent liabilities and incorporating 
unmitigated climate change risk into their reporting, planning, and 
strategic investing. Earlier this month, for example, eleven leading 
environmental and sustainable business organizations published an open 
letter in the New York Times urging corporate CEOs to increase their 
climate policy engagement. Over 160 companies overseeing $86 trillion 
in assets support the G20's Task Force for Climate Disclosures (TCFD), 
which has called for companies to disclose their exposure to climate 
risk. The Climate Action 100+ initiative includes 360 investors with 
over $34 trillion in assets under management, and aims to hold 
accountable the world's largest corporate emitters. Recently, 34 
central banks--including the Bank of England and Banque de France--
joined the Network for Greening the Financial System, which aims to 
ensure a smooth transition to a low-carbon economy. This network 
represents approximately half of global emissions and recommended that 
central banks act quickly to avoid a climate-driven abrupt collapse in 
asset prices.\4\
---------------------------------------------------------------------------
    \4\ Exponential Roadmap 1.5: Scaling 36 Solutions to Halve 
Emissions by 2030, September 19, 2019.
---------------------------------------------------------------------------
    Various blueprints have been carefully laid out to map the path 
toward the net zero emissions future needed to avert the worst and 
least predictable climate impacts. Last year's IPCC Special Report on 
Global Warming of 1.5 +C concluded that to limit global warming to this 
level, global GHG emissions must decline by approximately 45 percent 
below 2010 levels by 2030. This would require rapid acceleration of 
solutions across sectors--energy, transport, buildings, and industry--
with falling costs and rapid uptake of sustainable solutions.
    Importantly, large-scale removal of atmospheric CO<INF>2</INF> will 
be absolutely necessary to avoid key tipping points and irreversible 
climate thresholds. Restoring degraded areas of land will likely be the 
only cost-effective way to remove atmospheric carbon at scale. 
Reforestation, biochar, and improved agricultural practices can 
prospectively store up to 9.1 billion tons of CO<INF>2</INF>e annually, 
eventually storing 225 billion tons by the end of the century.\5\
---------------------------------------------------------------------------
    \5\ Exponential Roadmap 1.5: Scaling 36 Solutions to Halve 
Emissions by 2030, September 19, 2019.
---------------------------------------------------------------------------
    Underpinning and cross-cutting these approaches is an exponential 
wave of American innovation and technologies that can far more 
effectively and sustainably strengthen our natural resilience, 
conservation strategies, and intelligent interaction with natural 
resources. We must modernize and design policies commensurate with the 
abundance of innovation that is revolutionizing our agriculture, food, 
forestry, aquaculture, and oceanic ecosystems, along with the global 
supply chains that connect them to the modern economy. This is the 
surest way to maintain American economic competitiveness, standards of 
living, and prospects for long-term prosperity as we adapt to new 
climate realities. With the right policy guidance, these technologies 
are poised to be game-changers for adaptive, agile, creative strategies 
to turn today's climate risks into problem-solving opportunities.
    The fastest way to scale all of these changes is to address the 
core of the problem: the misalignment between markets and nature. 
Humanity's industrial-age relationship with nature is premised on the 
idea that natural resources are inexhaustible and can be consumed 
without limit. When embedded in markets, this assumption has led to the 
exponential scaling of behavior and outcomes that are detached from the 
true cost of irrationally depleting the asset value of healthy 
habitats. We are only beginning to understand with precision mispriced 
risk resulting from an inability to ascertain or quantify the gaps 
between asset prices and their underlying value. The net effect is 
mounting uncertainty, and the rising probability that the future does 
not resemble empirical models of the past. Financial regulators, banks, 
businesses, and to a lesser degree policymakers have begun sounding the 
alarm that a financial crisis of unknown proportions (exceeding the 
2009 mortgage crisis) may be looming on the horizon.
    It's worth remembering that virtually all of human civilization, 
including our moral beliefs and values, our social norms, and the 
democratic, free-market system that has produced unrivaled wealth and 
prosperity evolved in a relatively tranquil period on Earth, an 
interregnum between the end of the Paleolithic Ice Age, about 12 
thousand years ago, and today. Our beliefs about the world, and our 
place within it, evolved in this nursery of stability and abundance, 
and it left its mark in our minds and in the systems we've built. The 
ideologies that won out in this period, rooted in the conquest of 
nature, in the possibility of limitless growth, and in our inherent 
separateness and superiority to other living things, require continued 
abundance and stability to underwrite and sustain them.
    Today, the erroneous presumption, built upon prior generations' 
thinking, that the world provides unending resources is why we tend to 
measure and fully account for certain things (like the processed and 
manufactured goods we consume) and not others (the natural resources 
required to produce these material comforts). Yet this system will not 
survive unchallenged in an era of profound ecosystem volatility, 
disruption, and the loss of nature. Capitalism and our personal 
freedoms are cornerstones of modern society, but they are incomplete 
without a companion sensibility: the understanding that we are 
symbiotically enmeshed with the systems that make life possible, and 
that we must preserve them.
    Without making these invisible relationships visible, the invisible 
hand of the market cannot work effectively. It will systematically 
discount those things that are vital and common, and advantage those 
things that are privately profitable but harmful to all. In other 
words, we are fortifying--with existing policy, or lack thereof, 
``tragedies of the commons'' that undermine classic principles of free 
enterprise, such as personal responsibility and transparent 
accountability.
    While Greta Thunberg has brought focus to a generation's attention 
and priorities, with moral clarity as to the present urgency, Congress 
and this Committee in particular have an enormous opportunity to 
galvanize all Americans to apply our nation's strengths to the 
magnitude of the challenge we collectively face. Principal amongst 
these is our unparalleled capacity to induce innovation and scale 
technological progress through market penetration at incredible speeds.
    Rather than being burdened by guilt and despair, we can remain 
pragmatic and optimistic, realistic and resolute, to maximize Nature's 
capacity to act as our ally and innovate the tools and technologies 
that enable us to thrive in the rapid transition to a new era of deep 
decarbonization.
    The inexorable and exponential evolution from an industrial and 
natural resource-intensive economy to a data information economy has 
afforded us an unprecedented opportunity to account with precision the 
true value of ecosystem services. It is possible now to integrate that 
value into the modern economy with price discovery and evolved 
accounting standards. We call this market-based methodology of 
unleashing the value of natural capital ``Natural Currency''. Natural 
capital is a well-known and respected tenet of conservation, and 
ensures that nature is inventoried and valued for its ecosystem 
services beyond its extractive value. Natural Currency goes one step 
further and seeks to enable efficient markets for price discovery and 
exchange of ecosystem services that align the interest of people with 
the health of their natural habitats. For example, the rate at which a 
southern pine forest in Florida absorbs carbon or a mangrove wetland in 
Louisiana or South Carolina buffers communities against sea level rise 
has an absolute and unequivocal economic value. It has previously been 
challenging to capture that value and integrate it into our markets and 
risk management decision-making, because of the lack of precision in 
measuring, managing, and monitoring the natural capital in such a way 
that it could be readily priced and monetized. These are two 
particularly powerful and intertwined levers: the creation of Natural 
Currency (i.e. integrating nature's true value into market-based 
solutions), and Nature's ability to increasingly provide and scale 
ecosystem services and nature-based solutions to climate change. To be 
absolutely clear, having had three decades of experience in energy 
technology research, development, commercialization, and financing, 
there is no pathway to successfully mitigate GHG emissions at the scale 
and within the timeframe needed, without designing systems to maximize 
the contribution of nature-based solutions.
                     the need for natural currency
    A technological revolution is well under way in digitalization, 
robotics, synthetic biology, artificial intelligence, cloud computing, 
and the Internet of Things (IoT). These have been described as the 
biggest ``wildcard'' in navigating the economic transition ahead. The 
exponential growth of these technologies, if designed and deployed 
efficiently, should spread across all sectors to maximize clean energy 
and material efficiency, support health and environmental restoration, 
facilitate the spread of creative disruption and proliferate the growth 
of new enterprise, and usher in an era of decentralized, democratized, 
localized infrastructure.
    Specific applications might include the digitalization of the grid 
to enable its electrification and decentralization (including through 
new trading mechanisms such as blockchain); sharing models for energy 
usage in buildings; and improvements of delivery by optimizing 
shipments, routes, and traffic systems. Importantly, in the context of 
today's hearing, the same breakthrough tools and technologies available 
for our man-made logistics and trading systems are available for 
drawing upon our nature-based solutions, and can deliver such solutions 
to society and markets--often at lower prices with far more sustainable 
and effective outcomes.
    We have the technologies to enable supply and demand prediction for 
food systems that track and trace what we eat and drink from farm or 
field to fork. We can track accurately and in real time the performance 
and prediction of not only deforestation, but also restoration and 
regeneration--with the precision of counting biomass tree by tree, and 
plant by plant. There are sensors and artificial intelligence that can 
locally ensure our oceans and waterways, including our largest source 
of seafood, aquaculture, remains healthy, cost-effective, free of 
toxins, and managed sustainably in concert with global climate 
challenges.
    Such technologies can help make the invisible visible. For example, 
Planet, a global Earth observation organization based in San Francisco, 
has deployed the largest constellation of Earth-observing satellites in 
history. Together these satellites image the entire planet every day in 
high resolution--capturing every act of deforestation, every illegal 
fishing vessel, every crop growing in every field, everywhere, every 
day. In so doing, Planet's satellites--and other observation 
technologies--can help us ``measure the treasure'' of Earth's natural 
systems, in exquisite detail, in both time and space, and inform the 
kinds of ``big indicators'' that can inform our policies, our choices, 
our markets, and our social norms. Similarly, advances in optical and 
portable measurement tools, drones to detect and monitor leaks, and the 
Environmental Defense Fund's MethaneSAT program have made it possible 
to capture global, real-time data on methane leaks, which can be 
translated into actionable information for resource management via 
advances in machine learning. Better tools and better technologies for 
natural systems support both stronger ecosystems and stronger corporate 
balance sheets.
    A critical role of policy will be to support and shape the digital 
revolution to align with the well-being of humanity and nature. This is 
not merely an imperative for sustainability and environmental health. 
Rather, this is an essential precursor for the United States to 
maintain technology leadership and accelerate its economic performance.
    Perhaps most importantly, these technologies are enabling us to 
design, dynamically develop, implement, and account for credible, 
verifiable natural capital metrics. Through these metrics, it is 
possible to establish a globally recognized set of reliable criteria to 
support environmental sustainability, social responsibility, and 
stronger communities that thrive with greater economic opportunity.
    Tying verification and measurement to objective, quantifiable, 
real-time monitoring will unlock possibilities for value creation and 
accountability enforcement across all industries and sectors. We now 
have the ability to harvest data from countless sources, embedded on 
land and in the air, in the ocean, from satellites, sensors, and 
citizen scientist networks, to create complete, real-time visibility of 
land and oceans. What we need first are indicators that tell us about 
the health and welfare of the essential and fragile systems on which 
life depends. Today, we don't have a ``NASDAQ for Nature'' or a ``Dow 
Jones for Deforestation''--but in the future, we must. I urge the 
Committee to seriously account for America's present technological 
leadership and the overwhelming abundance of innovation that is 
bursting from our country's entrepreneurs and laboratories, that can be 
applied with immediacy and impact, enabling our economy to prosper 
through unprecedented problem-solving at scale.
    Innovation abounds in financing instruments that catalyze capital 
toward climate resilience. This is largely due to the recognition by 
the financial sector and business at large that climate change risks 
are real, and strategies incorporating financial opportunities that 
identify and monetize the value of ecosystem services may be 
economically advantageous. This value has previously been difficult to 
capture with any precision, let alone monetize. Historically, market 
design either discounted or disallowed any quantified value for natural 
capital beyond its physical extraction and consumption, instead 
relegating a science-based approximation to the domain of non-market 
actors such as governments, academics, and nonprofits.
    New financing mechanisms are being driven by the recognition that 
we have access to measurement and evaluation tools to correct our 
markets. Technologies that meaningfully measure the progress of 
ecosystem performance are critical enablers of contractual and business 
model innovation. The data needed to underpin these decisions is often 
already available and being collected, but has been insufficiently 
indexed and categorized according to common frameworks to be of maximum 
value to investors and other stakeholders. This information must be 
sifted and processed to illuminate the underlying insights, and make 
them organized, scalable, maintainable, and easily accessed through 
open APIs. This would underpin leading indicators that can predict 
financial and economic climate-related outcomes, developed with the 
scientific community. Such verifiable, objective, third-party 
indicators would reverse the longstanding assumption that the market 
clearing price of natural capital is zero, and set the stage for an era 
of natural monetization, and perpetual innovation and evolution of 
financial instruments to redirect capital and redistribute risks.
    These standardized, verified metrics enable more concrete and 
meaningful environmental and social governance (ESG) reporting. 
Embedding climate risk into asset prices also drives large-scale 
mainstream investors toward decisions beyond traditional ``impact'' 
investing, also unlocking significant arbitrage opportunities for those 
who effectively integrate climate risk. Alongside their recognition of 
the threat posed by climate change and mispriced assets, the investment 
community has begun to recognize the opportunities for those who access 
the right information and analytics to equip more accurate price 
discovery. For example, Blackrock, one of the largest holders of U.S. 
securities, released a report this year drawing on granular climate 
modeling and big data techniques to show variation in physical climate 
risk by region. Although slower-moving changes such as sea level rise 
may seem distant and difficult to model, their granular assessment of 
local climate risks shed light on implications for the U.S. municipal 
bond market, real estate, and the vulnerabilities of the U.S. 
electricity sector due to aging and vulnerable infrastructure.
    The scale of the climate change challenge we are seeking to address 
is asymmetrical to the solutions, whether man-made or natural, we have 
thus far deployed. There is no possibility whatsoever that this 
country, or any country, can tithe or tax its way to a solution in the 
relevant timeframe. It is essential that we address market 
imperfections and harness market forces to enable the scaled benefits 
of nature-based solutions. No other source of deep decarbonization is 
more readily available, nor more measurably attainable, than the power 
of nature itself. Therefore I encourage the Committee, in its final 
report, to prioritize and recommend on a bipartisan basis, that the 
value of natural conservation, assessed and delivered through 
technological innovation, be paramount.
              ecological prosperity is economic prosperity
    The power of Natural Currency to unlock opportunities for economic 
growth and new abundance should not be underestimated, and would 
address the single greatest cause of misalignment between markets and 
nature. Once natural capital and ecosystem services are properly valued 
and market priced, the flow of capital to realign markets and nature 
will inevitably be reflected in market-based, cost-benefit decisions by 
municipalities, engineers, architects, building materials 
manufacturers, investors, insurers, consumers, and others across the 
economy.
    For example, the innovations in spatial assessment and measuring 
capabilities described above can help identify degrees of ecosystem 
degradation, anticipated trends in biodiversity and other climate 
patterns, and the ecosystem services that restoration techniques could 
re-introduce to these landscapes. These advances in predictive power 
lessen the need for risk management and reduce investment risk from the 
public and private sectors. They enable greater inclusion of private 
sector participants, especially including small businesses and everyday 
citizens, in investment opportunities designed to capture the value of 
nature-based benefits while strengthening our local communities' 
resilience and adaptation.
    Abundant application of innovation to accelerate nature-based 
solutions already exist. In one example, intelligent risk management 
services focus on quantification and valuation of blue carbon (as 
discussed by my expert colleague from Conservation International) in 
coastal and marine systems. The carbon mitigation benefits of mangroves 
are immense; they store up to ten times the carbon of terrestrial 
forests on a per area basis, while protecting more than ten million 
people globally from flooding, and reducing flood damage to coastal 
assets by more than $82 billion each year. The market is already 
producing a new wave of entrepreneurs to create revenue streams for 
mangrove conservation and restoration by incorporating their risk 
reduction value into insurance products, and monetizing the climate 
mitigation value of mangroves through ``blue carbon credits''.
    By managing sites where mangroves provide verifiably high flood 
reduction benefits, linking these to site-specific calculation of flood 
risk benefits, and securing annual payment from insurance companies for 
continued, verified mangrove conservation and restoration, new jobs are 
created, new enterprise thrives, and communities are protected with 
greater resilience and the benefits of their stocks of natural capital. 
This assessment and monetization of coastal asset risk reduction value, 
and the natural benefits of mangroves, is enabled by unprecedented 
technological advances for precision quantification and calculation 
methodologies that support credible, verifiable third-party standards 
for voluntary carbon markets. As infrastructure turnover accelerates 
toward more sustainable assets, there will also be opportunities for 
project developers to support green infrastructure and access the value 
created by nature-based solutions.
   conclusion: design a just transition that accelerates innovation, 
 ``measures the treasure'', values and prices nature-based solutions, 
  and strengthens community resilience, adaptation, and prospects for 
                               prosperity
    To support economic development and community adaptation and 
resilience in the face of inexorable climate change, it is essential 
for policy design to integrate the intrinsic benefits of American 
innovation, which is advancing technological solutions that interface 
with natural systems as never before. As has been the case throughout 
our history, America's investment in creating a technology push through 
research and development has been facilitated by ``demand pull'' in the 
marketplace, shaped by policy priorities for the public good. This is 
as true for the revolution in renewable energy as it has been for GPS, 
the Internet, and many other innovations that have emerged from 
effective policy and governance. This is particularly true in 
developing standards of measurement and management (such as those at 
NIST), especially in the early stages of a technology's emergence in 
the marketplace. Examples might include:
          --A ``Natural Capital Innovation Prize'' investing in the 
        most effective means for American citizens (and/or 
        institutions, such as small businesses, secondary schools, 
        universities, and civic organizations) to directly participate, 
        protect, and restore carbon-rich natural ecosystems at home and 
        abroad, with higher funding to scale winning solutions.
          --Ensuring that insurance commissioners have no impediment to 
        innovation in regulation that allows products to integrate 
        climate risk reduction and mitigation measures, including 
        nature-based solutions. Additionally, aligning market-based 
        incentives with preventative preparation and resilient 
        adaptation to respond to the evolving frequency and severity of 
        catastrophic weather events.
          --Policies to encourage true cost accounting, informed by 
        transparency and disclosure, with precision measures and 
        metrics where governmental institutions take account for the 
        power of tools and technologies to deliver the next generation 
        of accounting performance
          --Natural capital ``opportunity zones'' corresponding to 
        measurable, vital ecosystems
    These examples illustrate the range of ways in which policymakers 
can create demand for, and directly benefit from the measurement and 
management of natural capital, and subsequent market realignment. Such 
measures can create the regulatory environment needed to guide the 
application of these exponential technologies to their highest value.
    While there are many bold and often controversial ideas for costing 
up carbon, there are too few policy proposals circulating that directly 
incentivize decarbonization. Last year, Congress passed into law a 
provision known as 45Q, that provided tax credits for man-made forms of 
carbon sequestration, discriminating and discounting conservation and 
ecosystem services with superior scalability, volumetric availability, 
immediacy, and permanency. In other words, the most effective, 
efficient, sustainable, and immediately available solution for 
decarbonization was disincentivized relative to more speculative future 
technological bets. While I am a strong supporter of funding multiple 
innovation pathways for rapid and deep decarbonization, the highest 
priority legislative fix to unleash natural capital innovation would 
simply be to allow such solutions to access the 45Q sequestration tax 
credits--or, alternatively, to design a tax credit for that purpose.
    Despite the daunting nature of the climate crisis, as with any 
risk, there is also veiled opportunity--for human ingenuity, for 
optimism, and for entrepreneurial solutions to achieve what may be 
possible. Climate risk represents inordinate scale--in fact, planetary 
scale. And yet this grand challenge we face together, across nations 
and our common humanity, compels us to unleash American innovation in 
technologies, policies, and market design. In doing so, we heighten the 
probability that we will successfully address this mounting challenge, 
with a resilient strategy to adapt and thrive in concert with the 
natural systems that sustain us. These systems will continue to give 
life to our communities and posterity, defining our collective legacy 
at this pivotal inflection point in the history of our nation and our 
global commons.

    Ms. Castor. Well, thanks to all the witnesses for your 
compelling testimony. I recognize myself for 5 minutes for 
questions.
    Okay. So to give Americans and the world the best chance of 
avoiding the worst consequences of the climate crisis, the 
Intergovernmental Panel on Climate Change found that global 
greenhouse gas emissions will need to drop by 45 percent by the 
year 2030 and reach net zero by the year 2050.
    Research shows that natural climate solutions can provide 
one-third--I think, Mr. Karsner, you just referenced that--can 
provide one-third of the emission reductions needed to meet 
these targets.
    So to all of the witnesses--I will go down the row here--I 
would like you to prioritize what nature-based solutions you 
would highlight to us as we develop a National Climate Action 
Plan, national climate policy to achieve net zero emissions.
    Dr. Fargione. Thank you. Well, there are several. So, for 
example, reforestation is one of the largest opportunities. 
Planting trees has a very clear, consistent carbon benefit and 
a lot of co-benefits. Also, avoiding forest loss and grassland 
loss and land use through land use planning, and reducing urban 
sprawl is important.
    And there are many opportunities in our agricultural sector 
that often are overlooked. So building soil health and 
improving nutrient efficiency which has strong co-benefits for 
water quality.
    Wildfire risk reduction is something that has strong co-
benefits, that as we are dealing with forest fire on suppressed 
lands, and improve forest management through creating 
opportunities for private, forest land owners to tap into the 
carbon markets, and improve their forest management. All great 
opportunities that should be prioritized and included in a 
Climate Action Plan.
    Ms. Castor. Okay. Vice Chairman Myers?
    Mr. Myers. Supporting forest sequestration, carbon 
sequestration, expanding the carbon program to include federal 
lands, and looking at including cultural, traditional, and 
prescribed burning on a landscape level to help protect our 
forests from catastrophic wildfire, while also renewing the 
growth of carbon through the current trees that we have in the 
ground.
    Making sure that we fund those programs adequately, and 
have a honest discussion as a nation, about how cultural 
burning and traditional burning are viewed as a whole, and move 
away from catastrophic fires that we have seen to devastate our 
forests.
    Ms. Castor. Dr. Howard, you had a long list for us. Which 
ones would you highlight to us, that would be the most 
impactful?
    Dr. Howard. Can I share with Andy still?
    Thank you. So I think in terms of climate mitigation, I 
think one of the big strategies that not only the U.S. but the 
world needs to be considering is putting blue carbon 
ecosystems, their conservation and restoration, into their 
climate NDCs under the Paris Agreement.
    Many countries have already included these ecosystems, but 
the ambition can always be increased, including here in the 
U.S. And many countries including increasing that ambition can 
simply be including that ecosystem where it hasn't been before. 
Because they are so carbon-rich, that can really improve their 
ambition just by simply including that one additional system in 
their land-use sector.
    And then for adaptation, I would strongly recommend that we 
invest a lot more in this green-gray infrastructure design, 
because in that sense, you are also utilizing all the co-
benefits of a natural ecosystem related to the fishing 
industry, food security, cultural practices, but then also 
increasing the flood plain, and doing that first, and then 
building gray infrastructure on top of that to cover just what 
is needed, versus the reverse, which is building gray 
infrastructure first and then the green comes in second, and 
usually that doesn't work as well.
    Ms. Castor. Mr. Karsner.
    Mr. Karsner. Thank you. So I will have just a little bit of 
a different twist because I can't possibly compete with the 
expertise of identifying each economic--each ecological 
benefit.
    I am as or more concerned with how to access those 
ecological benefits as to how to identify them. I don't think 
there is any shortage of solutions, whether it is blue carbon, 
whether it is coral reef abating storm surge, or mangroves 
sequestration, or forestry. We have no shortage of available 
solutions.
    We have a dearth of our capacity to access those solutions 
because presently we value nature in the wrong way. When we 
value a tree as wood, or wood only, or even in a virtuous way 
as forestry stewardship certified wood, we fail to value it for 
how it is respiring and sequestering carbon or true cost 
account for it.
    So what I am proposing is greater transparency and 
disclosure in the way accounting is done for nature, so that 
more dollars flow in a more symmetrical way to natural capital 
solutions.
    My colleagues have identified what those solutions are. We 
can't possibly mine all those solutions in our lifetime, but we 
can spur the capital formation to direct ourselves in a 
symmetrical way to solutions in the way that we have created 
problems.
    And so I am hopeful that the committee will take up and 
recommend that these natural capitalist solutions are eligible 
for sequestration credits under 45Q in the same way that a man-
made sequestration research and development project is. If we 
have solutions available for wind and sun, to offer tax 
credits, certainly we should for land and soil and storm 
abatement and things that protect our coastlines.
    Ms. Castor. Thank you very much. Mr. Graves, you are 
recognized for 5 minutes.
    Mr. Graves. Thank you, Madam Chair. Madam Chair, years ago 
we worked with Nature Conservancy to help identify some of the 
priority areas in South Louisiana where we had coastal forests, 
cypress and tupelo and other species, that played important 
natural-buffer roles for our sustainability.
    We were able to pioneer efforts to engineer oyster reefs in 
our coastal communities where we could design them in geometric 
formations where you could channel the wave energy up instead 
of into communities.
    The oyster reefs would create cleaner water; it would 
sequester carbon in the shells; it created habitat for many 
other species; of course, the biomass from the oyster reefs 
themselves were beneficial.
    Win, win, win, win, win. You had storm-surge benefits. You 
had cleaner water benefits. You had the biomass and ecological 
productivity benefits. I mean just, again, win, win, win. And 
we would design those in strategic areas of our coast where we 
needed that type of performance. It worked really well.
    I think that here, as you have heard from our witnesses, we 
have another--or other opportunities, plural, to build upon 
those types of successes. And as mentioned, I think bringing in 
our farmers, an extraordinary untapped resource in terms of 
natural resources management, that can come into the fold and 
work with us to complement some of our efforts here.
    And I think also as mentioned, some of our federal 
resources, in terms of our national parks and wildlife refuges, 
and BLM land and forest and other assets.
    Mr. Karsner--Karsner, excuse me--you have probably more 
expertise than just about anyone in the States in terms of 
using capital formation and incentives to sort of complement or 
maximize the benefits of our natural system. In response to the 
chair's question, you talked a little bit about tweaking 
incentives, but as you know, the United States spends an 
extraordinary amount of money today in research and 
development, basic energy, as well as clean energy 
technologies.
    You are king for the day, what do you do? How do you tweak 
those incentives to help to maximize our natural systems and 
the potential benefit there or how the natural systems can 
complement some of our efforts to help to sequester and reduce 
greenhouse gas emissions?
    Mr. Karsner. Thank you, sir. It will hurt some of my 
colleagues' feelings being that I am a former wind developer 
and have invested in solar and electric cars, and I am still as 
enthusiastic in green technology as anybody you could possibly 
meet. But having managed that portfolio for the federal 
government, I saw the lines cross, and they are not going to 
reverse.
    The federal government is lagging and not leading in terms 
of the research that it is investing in energy technologies for 
the most part. That is not to say it doesn't have a vital and 
crucial role that shouldn't be fortified, but it needs to move 
on and move at the pace that the evolution of innovation is 
taking place in the markets.
    The real revolution that is happening that can most affect 
this domain and particularly things like farmers and soil and 
the ecosystems we talk about, are not the things that are 
coming--or leading in our national labs.
    They are data science, information technology sensors, 
artificial intelligence, machine learning, robotics, the 
internet of things. That whole network, that whole capacity to 
make what has previously been invisible and unquantifiable 
become visible and quantifiable, and migrate into our risk 
management decisionmaking, migrate into our investment 
calculus, migrate into the way we think of the world around us, 
is a game-changing revolution.
    There is an example where we have robotics that can serve 
farmers right now that are picking berries in the fields of 
some of America's largest berry-pickers. They are also taking 
soil carbon and moisture-content samplings. They are gathering 
such an extreme amount of data that can be monetized to 
understand how sequestration works.
    I use that in a minute example because I know from your 
experience and the one you just characterized, we have known 
these things for years. We just haven't brought valuation to 
them.
    And we cannot tithe our way charitably, nor tax our way 
through government, to the amount of money that is necessary to 
invest in natural capital and nature solutions. We have got to 
tweak policy and incentives to shift that capital into that 
problem space.
    Mr. Graves. Thank you. And, Madam Chair, let the record 
reflect the witness said he wants to give trees iPhones. No.
    Thank you very much. I think you made an excellent point in 
that we have so much data out there, but we are not properly 
quantifying it or evaluating it and comparing it to other 
expenditures and uses to determine how do you maximize the 
taxpayer funds that we have.
    I think it is an excellent point, and I think that it is 
largely an untapped resource. I see--before you--let me take 
this away for a minute. So--no, very quickly, I am going to 
pretend like we are very close instead of butchering your last 
name.
    Dr. Joe, could you quickly talk about the Lower Mississippi 
River afforestation project that you all are working on and how 
that plays into this?
    Dr. Fargione. Sure. We identified the Lower Mississippi 
Valley as a great place for a reforestation project. The trees 
grow quickly, the land is relatively cheap, and there is 
ability to tap into carbon markets.
    And so those kind of targeted restoration efforts that also 
have co-benefits in terms of wildlife and improving water 
quality are the kind of thing that would be unlocked if there 
was additional incentive to invest in natural climate 
solutions.
    Ms. Castor. Thank you very much. Ms. Bonamici, you are 
recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Madam Chair, and thank 
you to our witnesses for your testimony, for bringing your 
expertise.
    I want to start by following up on Dr. Howard's testimony. 
We know that every person on the planet benefits from a healthy 
ocean. It supplies oxygen that we breathe and regulates our 
climate; it is linked to the water we drink; it is home to a 
significant amount of life on the planet; it drives our 
economy; it feeds, employs, and transports us, and today our 
ocean is threatened more than ever.
    Last month--you mentioned this, Dr. Howard--the United 
Nations Intergovernmental Panel on Climate Change released a 
``Special Report on the Ocean and Cryosphere in a Changing 
Climate.'' The findings are dire. The ocean is becoming more 
acidic. It is warming. It is losing oxygen as a direct result 
of human-caused emissions. So I am glad we are discussing today 
the opportunity for the ocean to be part of the climate 
solution.
    I co-chair the House Oceans Caucus and the Congressional 
Estuary Caucus, and I am working on legislation to strengthen, 
restore, and protect our wetlands, to store blue carbon.
    My bill will create a national level mapping of blue carbon 
ecosystems and their sequestration potential, study the effects 
of climate change and other environmental stressors on the 
rates of carbon capture and storage, improve protections for 
existing blue carbon ecosystems, and restore and expand 
degraded wetlands.
    So Dr. Howard, in your testimony, you discuss how blue 
carbon ecosystems have--and I will quote--soil carbon 
sequestration rates per hectare of up to ten times larger than 
those of terrestrial ecosystems.
    So can you talk about what the scientific research gaps may 
be in our current understanding of blue carbon and its 
sequestration potential, and also discuss the role of wetlands 
as a climate adaptation tool for coastal communities?
    Dr. Howard. Thank you very much, Chairwoman, for that 
question. So in relation to how do you use blue carbon 
ecosystems to increase our coastal climate mitigation strategy, 
especially regarding restoration, I think one of the things 
that we really try to highlight in the research that we do and 
the research gaps that remain is that these coastal ecosystems, 
just as you said, they store ten times more carbon in the soil 
than terrestrial systems per area. And that is largely because 
of the salt water that is washing over them twice a day with 
the tide.
    That salt water inhibits microbial action, therefore, you 
don't have degradation. And so when we are talking about 
research gaps, I think one of the big ones is that when you go 
to develop that area, and let's say you are draining it for 
agriculture or for hotel development or coastal development--
when you start to develop that area and you drain that system, 
all of that microbial action kicks back in and you get all the 
degradation, and then you get all of the emissions.
    However, how long that takes, how much of that soil is 
actually susceptible to that turning from a carbon sink into a 
carbon source, still needs to be a little bit better defined. 
Right now, under the IPCC, we assume that the top meter of soil 
is actually at risk of all that carbon being released, and that 
is easily about a hundred to a thousand years of carbon 
accumulation that can be released within a decade.
    But we think that it is incredibly conservative, and 
probably, most likely, much deeper soils as far down to three, 
four meters could actually be at risk, depending on which 
actual conversion has happened. Was it agriculture, was it 
development, was it draining for something else----
    Ms. Bonamici. And I don't want to cut you off, but I really 
wanted to get another question in.
    Dr. Howard. Sure.
    Ms. Bonamici. So I really look forward to following up with 
you and working on this issue. But I have limited time.
    And I wanted to ask Vice Chairman Myers, I am from Oregon, 
your neighbor to the North. In your testimony, you mentioned 
that to avoid disruptions and threats to your survival, natural 
resources were managed comprehensively for ecosystem-wide 
health, and you said that harvesting and gathering of resources 
were closely managed and in rhythm with natural cycles.
    So how does the Yurok Tribe define sustainable forest 
management, and in addition to prescribed burns, what other 
practices do you use to restore forests to their natural 
healthy state? Can they be replicated or incentivized at the 
federal level?
    Mr. Myers. Absolutely. Thank you for the question. I think 
one of the obstacles that we face are jurisdictional issues. 
Managing a land on a holistic level, you have to see the 
landscape without jurisdictions, and without the permit issues 
that we have seen.
    The tool that we have found to be seen to be most effective 
to protect the forest is the use of cultural burning, but also 
making sure that we use proper logging techniques, to create 
uneven aged stands of forest that go back to more of a 
traditional forest landscape.
    And so I think much of what we discuss is not to preclude 
timber harvesting, but to use it as a management tool, along 
with our traditional methods for land management which include 
traditional fire at a landscape level.
    And I think that is what is important. Up to this point, 
fire on the landscape has been used for pilot projects, but I 
think expanding that has to be done on a landscape level.
    In California and Oregon, catastrophic wildfires are the 
fear that we live with on a daily basis. And the destruction to 
our families and our homes and our communities is second only 
to the fear of destroying our entire landscape as a whole.
    Ms. Bonamici. Thank you. I see my time is expired. I yield 
back. Thank you.
    Ms. Castor. Mr. Carter, you are recognized for 5 minutes.
    Mr. Carter. Thank you, Madam Chair, and thank all of you 
for being here. This is certainly an important subject, and we 
appreciate you lending your expertise to it.
    Ladies and gentlemen, I have the honor and privilege of 
representing the entire coast of Georgia, over a hundred miles 
of pristine coastline, and I am very proud of it. It is my 
home, it is where I have lived all my life and intend to live 
the rest of my life. And it is right at the tip of the sphere, 
if you will, on what has been happening with climate change.
    In fact, we have had three hurricanes in the last 3 years 
and barely dodged one this year with Hurricane Dorian. And as a 
result of that, we have taken on a number of projects in trying 
to make our communities more resilient because we feel like 
resiliency is extremely important. And I want to tell you very 
quickly about a couple of those.
    First of all, the University of Georgia, along with the 
Army Corps of Engineers and some private sector companies and 
nonprofits have taken on an initiative called ``Engineering 
With Nature,'' where we use natural sediment in a way that 
makes beaches and wetlands and communities more resilient, and 
that is very important.
    And also in Jekyll Island, in Jekyll Island in Glynn 
County, the Army Corps of engineers is working on a project 
that rearranges plough mud in the intercoastal waterways to 
protect the marshes.
    And Tybee Island, which is one of our barrier islands in 
Chatham County on the coast, they have done a number of 
different initiatives. In fact, they are the first community in 
the state that has come up with a community-wide sea-level 
plan, and also, they are very involved in projects dealing with 
sand dunes, and that is certainly with dune restoration. I had 
the opportunity to visit and see some of this with them, and 
this is extremely important.
    I want to ask you, Dr. Fargione--is that fair enough? Okay. 
These projects have been associated with federal funds, and I 
just wanted to ask you, how important is it to make sure that 
we at the Federal Government prioritize these projects and make 
sure that we are getting them done in a quick manner, in a way 
that we can make sure that these projects are done as soon as 
possible?
    Dr. Fargione. Certainly there is a need for increased 
investment in those coastal ecosystems' protection and 
restoration. And they have this dual benefit, as you say of 
storm-surge protection and flood-risk reduction.
    One of the other benefits they have is through storing 
carbon, and even further, some of our salt marshes, when they 
are disconnected from the ocean, they become freshened and they 
begin to emit methane, which is a potent greenhouse gas.
    And so simply reconnecting those salt water marshes and 
making them salty again can reduce methane emissions and have a 
significant climate mitigation benefit. And that also restores 
their ecological function as an estuary by reconnecting them 
with the ocean. So that can be as simple as widening culverts 
and putting in----
    Mr. Carter. Right.
    Dr. Fargione [continuing]. Tide gates.
    Mr. Carter. Well, let me ask you this. You are familiar 
with the discussion about climate change and the conversation. 
Do you think we are concentrating enough on resiliency, or do 
you think that we need to look more at how we can make our 
communities more resilient?
    Dr. Fargione. I think there is a great opportunity to 
increase the resilience of our communities, and it is this mix 
of gray and green infrastructure, if you will. But we have 
underinvested in that green infrastructure, and preventing 
development of places that are at risk, and maintaining that 
natural habitat as a buffer for storm surge is a great way to 
do that.
    Mr. Carter. And you would agree that we have got to have a 
buy-in by the private sector, that they have got to be part of 
this, and in order to have that buy-in by the private sector 
and to have their participation in this, we need a strong 
economy. So you would agree that a strong economy is important 
to this as well?
    Dr. Fargione. Certainly one of the potential sources for 
investment in natural climate solutions and protection is 
through voluntary carbon offsetting, and that is something that 
we are already seeing, that in these--some industries like the 
airlines, where it is very hard to use anything other--to 
replace the jet fuel with renewables, they are planning to 
offset those emissions and having that go to things that also 
increase resiliency is a win-win.
    Mr. Carter. Good. I don't mean to be redundant, but I am 
constantly reminding my colleagues up here on the dais that 
Georgia is the number one forestry state in the nation and that 
it is extremely important that timber, of course, it helps us 
in removing carbon and how important that is.
    And just wanted to make sure that I get that plug in again, 
that the number one forestry state in the nation is doing our 
part in trying to remove carbon from the atmosphere.
    And with that, I will yield back.
    Mr. Graves. Madam Chair, I want to remind you from our last 
hearing that after the gentleman from Georgia left, we were 
able to track that data, and it was based on the number of 
trees per person with a funny accent in the United States.
    Ms. Castor. Any rebuttal? No. No, okay.
    Mr. Carter. It is not deserving.
    Ms. Castor. Ms. Brownley, you are recognized for 5 minutes.
    Ms. Brownley. Thank you, Madam Chair. Mr. Karsner, I wanted 
to ask you a question. I was very interested in your testimony 
about natural capital, and you talked about the valuation of 
natural capital. Where does the carbon tax fit into all of 
that, or does it?
    Mr. Karsner. Separate issue. It fits in at a macroeconomic 
scale of saying, how do you create value for something? So 
taxation, of course, is the government's blunt-force instrument 
to tip the scales and create value. When I think of natural 
capital, it is not a government-driven thing. It is a science-
driven thing that says, what is the intrinsic valuation of the 
southern pine forests in Georgia which breathes, or respires, 
at a different rate than redwoods in California.
    And that respiration should be valued for its carbon 
sequestration asset value, and somebody should pay for that 
service. It is an ecological service.
    So they are not at all mutually exclusive in the sense that 
both of them shift the way that we value and bring on the value 
of nature.
    But one, I think, is a top-down jurisdictional instrument, 
the taxation. The other is a bottom-up assessment of the true 
asset value of something we should be accounting for in the 
profit and loss of every decision that we make.
    Ms. Brownley. Thank you. I wanted to ask each and every one 
of you with just a yes or no answer, in order to get to the 
goal of a net zero emissions by 2050, do you think a carbon tax 
is an important component piece to getting there? Just I will 
start with you and go down the line.
    Mr. Karsner. Yes.
    Dr. Howard. Yes.
    Mr. Myers. [Speaking native language.]
    Dr. Fargione. We support a price on carbon, whether that is 
a tax or cap and trade, but yes.
    Ms. Brownley. Okay. Tax, fee, cap and trade, putting them 
all in the same category, roughly. So, Dr. Faragano--Fargione? 
Dr. Joe.
    So I wanted to talk a little bit about urban forestation. 
So I noticed in your priorities, you didn't mention that at 
all. You talked about forest management. And so in terms of 
planting trees in our urban areas, is that a significant--is 
there a significance there in terms of moving the needle with 
regard to carbon emissions?
    Dr. Fargione. Yeah. There is a surprising amount of 
opportunity. We estimate there is up to 8 million acres in our 
cities around the country that could have--of more tree cover 
that we could have.
    And it has surprising benefits. So even today, the existing 
tree cover, it helps prevent about 1,300 deaths in heat waves. 
Largely from people that don't have access to air conditioning.
    Ms. Brownley. Sure. In my district, the City of Oxnard has 
got a grant from the State of California to plant a lot of 
fruit trees in an area that really in parts of the city of 
Oxnard is disproportionately affected by pollution.
    And so it is certainly a carbon emissions reduction tool, 
but also sort of a climate justice tool, all built into one. 
Are there other programs that California is doing to 
incentivize better forest management, urban forestation, that 
the Federal Government could be looking at?
    Dr. Fargione. I am not familiar with California programs, 
but I can follow up with you on it.
    But certainly there is an opportunity to do more because 
when it comes to urban forest, it is not just about planting 
new trees. It is about protecting the trees we have, because 
those urban trees are at risk of disease, and so keeping those 
trees----
    Ms. Brownley. And one last question. So in my district, I 
represent the county, Ventura County in California, and we have 
had two of California's historically largest forest fires have 
taken place in my district over the last 16 months.
    So when we talk about better forest management and 
reforestation and the balance, if you will, of resiliency and 
wildfire management, you know, help me, how do we balance those 
things through policy efforts?
    Dr. Fargione. Yeah. I think we have the capacity to 
reforest in places that need it, and also to do wildfire risk 
reduction treatments in places that need it. They both require 
investment.
    Ms. Brownley. Thank you. I yield back.
    Ms. Castor. Mr. Palmer, you are recognized for 5 minutes.
    Mr. Palmer. Thank you, Madam Chairman. Dr. Fargione? Is 
that close? I mean----
    Ms. Castor. Will you just say it once for all of us?
    Dr. Fargione. Yeah. Dr. Fargione.
    Ms. Castor. Fargione?
    Mr. Palmer. Fargione. I will just call you Joe.
    Dr. Fargione. That works, too.
    Mr. Palmer. All right. In your testimony you highlighted a 
variety of ways that forests can be used to positively impact 
the climate, but could you discuss in more detail the negative 
impacts of wildfires on the climate?
    Dr. Fargione. Sure. So when forests burn, that emits 
carbon, and so it is somewhat counterintuitive that one of the 
things that we recommend is cultural burning, which emits some 
carbon, but over the long term, what we are doing is restoring 
the balance.
    Places that have had fire suppression, they have lots of 
small-diameter trees that serve as kindling, and so then when 
it does burn, it becomes very difficult to control and you see 
some of the catastrophic wildfires that make the news.
    Mr. Palmer. But isn't it also true that one of the reasons 
that the fires burn so hot is that we failed to manage the 
forests properly and there is enormous amounts of fuel on the 
forest floor?
    Dr. Fargione. Yes.
    Mr. Palmer. The other issue is that there are certain types 
of forest that fire is absolutely critical for continued 
growth. And the redwoods, long lake pine in the southern 
states, require management by fire.
    The other thing is, it was stated, I think there is this 
assumption that it is the old-growth forests that do the most 
for carbon sequestration, and that there is no place, in 
certain cases for clear-cutting.
    And the fact of the matter is, there is a new study out of 
the University of Birmingham--Birmingham, England. I am from 
Birmingham, Alabama. I want to make sure everybody knows that. 
It is Birmingham, England--that the younger forests sequester 
more carbon, I think it is like 25 percent more.
    And I am a forest owner, and I understand that you need to 
have forest at different stages of growth. So there is a place 
for forest management that includes clear-cutting certain 
cases, definitely thinning to prevent catastrophic wildfires, 
but it also increases the habitat for wildlife.
    And I see Mr. Myers, Vice Chairman Myers nodding, you 
understand this. I just want you to comment on that, because I 
think that needs to be part of our efforts to mitigate climate 
change.
    And the interesting thing about this study is that we 
typically think of the main body as a forest for carbon 
sequestration being the rainforests, the tropics, but it is 
really the more temperate areas, the eastern United States, 
parts of Canada and Russia, the Boreal Forest in Canada. You 
want to comment on that?
    Dr. Fargione. Sure. So there is a couple things in there. 
One is, you know, forest products are a renewable resource and 
so that is great where we can support those industries.
    So products like cross-laminated timber, or other forest 
products that are coming on the market that be can used in 
buildings, can displace some other really carbon-intensive 
products. So we think that, you know, responsible, well managed 
forests are something we need more of, and it is a renewable 
resource.
    In terms of the age of the tree, if you think about how 
fast the forest grows is one thing, but what we are talking 
about in terms of fighting climate change is taking more carbon 
out of the atmosphere and having it on the landscape, and that 
means having more older trees.
    So one of the things that actually, yes, having that 
younger tree growing fast, but also having longer rotations. If 
you go from having a 20-year rotation, the average age is 10 
years, and you have got, you know, a certain amount of carbon. 
But if you have a 40-year rotation, the average age is 20 
years. You have doubled the amount of carbon on the landscape.
    So, yes, manage forests, yes, renewable resources, but also 
thinking about extending those rotation ages can help store 
more carbon in the landscape.
    Mr. Palmer. When you are talking about a younger forest, 
you are typically talking, though, about under a hundred years, 
a forest that is not a hundred years old. And when you are 
talking about forest products, even with pine, for, like, you 
mentioned laminated wood products, you are talking 20, 25 years 
before that forest would be harvested. For hardwoods it is much 
longer.
    I do think that this should be a part of our discussion 
about mitigation for climate change, and part of our strategy 
should include planting more forest and having this scaleable 
plan for reforestation and younger and older forests.
    With that, Madam Chairman, I yield back.
    Ms. Castor. Thank you. Mr. Huffman, you are recognized for 
5 minutes.
    Mr. Huffman. Thank you, Madam Chair. Dr. Fargione, I was 
going to just say your name to show that we could do it.
    But my first question is actually for Vice Chairman Myers. 
I appreciated your testimony, Mr. Vice Chairman, about some of 
the tools that the Yurok Tribe is using to restore forest land 
and manage it for the values that you mention, including carbon 
sequestration.
    But one of the things you also mentioned was collaboration. 
And, of course, in northern California, we have a patchwork of 
land ownership and land uses. A lot of your good work has 
happened in areas where ownership is a mix of the U.S. Forest 
Service, the National Park Service, private land owners that 
are your neighbors, and, of course, tribal land that belongs to 
you.
    Can you talk about how improved collaboration could help us 
scale up our carbon sequestration efforts when it comes to 
forest management?
    Mr. Myers. Absolutely. The success the Yurok has seen and 
others around us has solely been through the partnerships that 
we have with the other agencies within our ancestral 
territories and our watershed. That is absolutely what drives 
it.
    Around the turn of the century, we have seen a breakup of 
our landscapes throughout the nation, moving to smaller 
parcels, both private and federal and state ownership. That 
makes land management extremely difficult to--navigate, and the 
only way through that--no pun intended--thick forest is to use 
partnerships and to have people working together, especially at 
the state and the federal level, with private industry and 
tribal organizations.
    I think through private foundations we have been able to 
help fill the holes in the State and Federal programs, and 
allowing there to be a nexus between all of those is really the 
path forward across the board.
    Mr. Huffman. All right. Thank you.
    Dr. Fargione, I really do have a question for you. The last 
line of questioning was about reforestation. And I wanted to 
ask you to speak to, what is the current rate of reforestation 
that you see, and how much more would we need to ramp that up 
to really put a dent in this problem?
    Dr. Fargione. Sure. There are, you know--there is large 
reforestation potential, you know, over a hundred million acres 
that could be reforested. Right now, the amount of 
reforestation, I don't have those numbers at my fingertips, but 
it is a drop in the bucket from what it could be.
    So--and that is on both--there is opportunities on private 
lands and also on some federal lands in places where many 
places that--where there was fire or pests or drought that 
killed trees, and maybe some of those will come back naturally 
and some of them won't, and could be opportunities for----
    Mr. Huffman. But it is not happening.
    Dr. Fargione. It is not.
    Mr. Huffman. We have got a lot of untapped potential here, 
and we are not addressing it.
    Over to Ms. Howard--Dr. Howard, if we wanted to go really 
big on coastal wetland restoration and blue carbon, what would 
a program like that look like, kind of similar to this 
challenge of we know reforestation would be good for us for our 
climate goals, but we are just not making it happen. What do we 
need to do?
    Do we need a no-net-loss policy? Do we need some hard 
targets to achieve? Do we need to set up mitigation banks? What 
are some of the things you would like to--if we put you in 
charge of this and we wanted to go big?
    Dr. Howard. Yes to everything that you just said. Thank you 
for answering my question for me. But in all seriousness, I 
think one thing, you know, one thing to remember, too, is that 
mangroves, which are primarily found in Florida but all over 
the world, and provide a large mitigation service, are forests.
    So thinking about how do you include mangrove forests into 
all of the other forest regulation that we provide. But then I 
think it really gets down to this--where I would go big--is 
really integrating blue carbon ecosystems and green-gray 
infrastructure. Those two things are complementary. They go 
together and can be done simultaneously. And it is going to be 
probably the best chance that we have to protect against 
climate change along our coasts where most of the global 
population will be living within the next 50 years or so.
    So expanding coastal conservation and restoration, and 
combining that gray-built infrastructure which we traditionally 
do, but really expanding the green because that is going to 
also have the climate mitigation benefit and the carbon 
mitigation benefit as well.
    Mr. Huffman. I am going to try to sneak one more question 
in to Mr. Karsner if I can.
    You described the importance of better accounting for the 
carbon sequestration benefits of some of these natural systems. 
I can appreciate that, but at the same time, you seem to 
suggest that a carbon tax or carbon pricing wasn't necessary.
    How does capital move into these natural systems if you 
don't have some kind of a forcing mechanism like a carbon 
pricing system that forces offsets and investments in those 
things?
    Mr. Karsner. Sorry, sir, I may not have made myself clear. 
I certainly did not intend to give the impression that I did 
not think a carbon price was a beneficial thing.
    My point was that they are not mutually exclusive. They are 
separate and distinct and that we are in an era of such 
tremendous change that we can't afford not to hedge. One 
pathway is dependent on a government action; the other pathway 
is dependent on market redesign. If I had my preference, I 
would execute on both pathways.
    Mr. Huffman. Okay.
    Mr. Karsner. So the idea of transparency and disclosure for 
precision and price discovery, so that the benefits of blue 
carbon or sequestered--sequestration in mangroves being brought 
to a valuation is the surest way to move private capital. That 
does not alleviate the government of its responsibilities to 
appropriately price a negative attribute.
    Mr. Huffman. Appreciate that clarification. Thanks.
    Ms. Castor. Mrs. Miller, you are recognized for 5 minutes.
    Mrs. Miller. Thank you, Chair Castor and Ranking Member 
Graves, who just left. Last week this committee held a 
fascinating hearing on how we can better construct our 
buildings and infrastructure to be more resilient in the face 
of extreme weather events.
    During that hearing, I discussed how my home state of West 
Virginia suffered a major flood in 2016, which devastated many 
communities. Many of the solutions we have discussed in this 
committee, like carbon capture, building resiliency, and 
natural solutions, are all pieces of the same puzzle that fit 
together in the broader picture of caring for our environment 
and addressing climate change.
    To further build upon our discussion last week, West 
Virginia produces some of the best hardwoods in the world. In 
fact, we are number two in the country in hardwoods, but my 
friend left, so I can't rub that in. A big part of the economy 
in the state is focused on the hardwoods industry. Good forest 
management not only leads to a healthy ecosystem, but also to a 
healthy economy.
    Dr. Fargione, can you discuss how natural climate solutions 
can help build resilience for extreme weather events such as 
floods?
    Dr. Fargione. Certainly. So if you think about our natural 
landscapes, when they are healthy, they act as a sponge. So 
when heavy rains come, they are able to absorb that, and that 
is, you know, obviously true in wetlands, and protecting and 
restoring those has a strong benefit there. It is under-
appreciated in agriculture lands, how building soil health 
increases the amount of the ability of the soil to hold water, 
which can have a flood reduction benefit.
    So those are all ways in which we, you know, the landscape 
can help store floodwaters.
    Dr. Howard. Would it be possible to add to that quickly?
    Mrs. Miller. Yes, yes.
    Dr. Howard. So when looking at coastal ecosystems, what 
happens upstream and up rivers is also incredibly important. So 
as you maintain the forest and reforest along river banks, you 
are preventing some of the downstream impacts along the coast. 
So protecting forests upstream can also increase coastal 
protection along the coast.
    Mrs. Miller. I am glad you brought that up, because 
particularly with our geography in West Virginia and going down 
to the Ohio River, and the New River--that is where we go.
    Many of the practices you identified are targeted toward 
working lands such as farms, forests, and ranches. If land 
owners decide to implement these practices, can they expect any 
benefits beyond reducing carbon emissions?
    Dr. Fargione. Certainly. So there is benefits in forests 
and crop land and range land on all of those. So in crop land, 
building soil health and improved nutrient management. Building 
soil health increases the fertility and, as I mentioned, the 
water-holding capacity of the soil, which is beneficial for 
yields and also, in particular, in drought years. Because that, 
acting as a sponge, it holds more water, making it more 
resilient during a drought.
    In range land, this is an area that requires more 
scientific research to demonstrate--more consistently achieve 
these benefits, but there is some evidence that practices like 
rotational grazing can help increase the productivity and store 
more carbon in grazing lands. And in forests, there are 
practices like removing competing vegetation that actually help 
the forests grow faster, which is storing more carbon and 
making it more productive as timber land.
    Mrs. Miller. Thank you.
    Mr. Karsner. Representative Miller, may I comment on that?
    Mrs. Miller. Sure.
    Mr. Karsner. There are many ways, as we just described, 
that one could characterize as a quality of benefit. I want to 
be perfectly clear about what is possible with natural capital. 
If you can quantify it, if you can measure it, then you can 
monetize it. Those farmers should be paid--paid--cash for soil 
sequestration of the carbon.
    We should be creating prosperity and incentives that align 
with the societal objective that we seek. We can do that, but 
it is going to take breaking the tyranny of accounting where we 
value nature at zero.
    And to actually assess the benefit beyond organic, low-till 
farming, et cetera, and to actually say, we should be paying 
for what we want to occur, we are going to need natural capital 
accounting standards.
    Mrs. Miller. I was going to ask you to talk more about how 
we, as policymakers, can help encourage innovation in the 
natural solutions space. So I think you just answered my 
question before I asked it. So thank you very much. I yield 
back.
    Ms. Castor. Mr. Neguse, you are recognized for 5 minutes.
    Mr. Neguse. Thank you, Madam Chair. Natural solutions are 
an important piece of solving the climate crisis, and certainly 
that has been adduced through both the testimony from the 
witnesses today as well as the comments of my colleagues.
    And while I am sure we will explore agriculture in more 
depth in the future, I wanted to highlight the importance of 
considering agriculture partners when we are discussing climate 
solutions.
    In July, earlier this year, I introduced two bipartisan 
bills, the study on improving lands, or SOIL Act, and the 
Sustainable Agriculture Research Act, and the goal of these 
bills is to support the efforts in carbon sequestration on 
agriculture on federal lands. And I would be remiss if I didn't 
thank my colleague who is not here today, unfortunately, but 
Representative Armstrong who joined me in Colorado recently on 
a tour of Boulder County.
    And some of the--to visit with some of the farmers and 
farming communities in my district that are doing some pretty 
incredible regenerative agriculture practices, and to your 
point, sir, with respect to the exchanges previously, are 
engaged fully with the local jurisdictions.
    So the city and the county officials, in a pretty robust 
program that essentially incentivizes farmers in our community 
to adopt some of these practices and to essentially take 
advantage of rotational practices in terms of helping grazing 
to sort of recover some of the soil in lands that have been 
depleted.
    So a number of really incredible synergies that are 
happening, I think across the country, certainly including in 
my home state, in Colorado, and in my community. And I am glad 
that we have the opportunity to talk about some of those today.
    I wanted to focus in on--and I apologize if this has 
already come up, I suspect it came up during your testimony, 
Dr. Fargione. I think that is right. Okay, so--right? I will 
check with----
    Mr. Huffman. Yeah. Nice work.
    Mr. Neguse [continuing]. Check with Representative Huffman 
before I--but that is the LWCF, and since it was enacted over a 
half a century ago, the Land and Water Conservation Fund has 
helped conserve and safeguard thousands of acres of natural 
areas across the United States, including nearly 200 projects 
in Colorado's Second District alone that, as I mentioned, I 
have the honor of representing.
    The funding really is critical for protecting national 
parks, areas around rivers and lakes, national forests, 
national wildlife refuges from development, as well as 
providing grants to--excuse me--to protect working forests and 
wildlife habitat, increase the use of easements, and fund state 
and local park and recreation projects.
    As I know you are, no doubt, aware, earlier this year the 
Congress permanently reauthorized the LWCF but failed to 
provide permanent funding for the program. There are a number 
of us who, you know, have been advocating to the appropriators 
obviously in the House but also our colleagues in the upper 
chamber, to ensure that any omnibus funding bill that is--
compromise that is reached includes funding for the LWCF. And 
so I am wondering if you could just describe the ways in which 
that funding can be an important tool to address the climate 
crisis, both with respect to mitigation and to resilience.
    Dr. Fargione. Yeah. Thank you for that question, and for 
your support of the appropriations for LWCF. As you have noted, 
it is the primary federal program for preserving lands and 
waters and has protected countless forests, parks, wetlands, 
and other public lands, and--that sequester millions of tons of 
carbon.
    So maybe just one example. In the San Bernardino National 
Forest in Riverside, in San Bernardino County, that sequesters 
about ten million metric tons of carbon a year in its forests, 
and over 36 million metric tons of CO<INF>2</INF>. And that has 
received over $22 million in LWCF investments since it started 
in growing that.
    So these lands that are being protected by LWCF are a 
really crucial part of natural climate solution, and I hope we 
can get it permanently funded.
    Mr. Neguse. Well, thank you, and we are certainly going to 
keep working towards that end.
    And with that, I would just say again thank you to Madam 
Chair for hosting this important hearing. I am very 
appreciative. I think that the focus on natural solutions, this 
is one of those areas in which there is a real potential for 
bipartisan solutions to emerge and I think looking at this 
holistically and engaging stakeholders from across the 
spectrum. So I am grateful for the Chairwoman's leadership.
    And with that, I would yield back the balance of my time.
    Ms. Castor. Mr. Casten, you are recognized for 5 minutes.
    Mr. Casten. Thank you, Madam Chair. Thank you so much to 
all our witnesses.
    Mr. Karsner, I really, really appreciated your testimony. I 
think we tend to talk too often about government solutions, 
which are important--and I agree with you, it is critical--but 
our climate crisis is, in the first instance, a market failure. 
You only have to look at how many countries use so much less 
energy per dollar of GDP than we do to recognize that 
opportunity.
    And, you know, as I point out to my colleagues all the 
time, we are already making some progress towards fixing that, 
in spite of our regulations, not because of them. Because at 
the end of the day businesses like to make money, and if you 
have a zero marginal cost source of energy, it is kind of a 
money-making machine.
    It also happens to lower carbon, if you do that right. But 
I think we would all agree that a lot more can be done, and as 
you--I liked your phrase in that you said we need to make the 
invisible relationships visible. And I want to hone in on one 
aspect of this, which is the disclosure that companies make as 
investors try to evaluate what they do.
    I guess the first question is just if you would agree that 
while there certainly are plenty of good actors in the space, 
would you agree that corporations and financial institutions in 
the United States and arguably globally, are not yet doing 
enough to disclose the risks posed to their investors by the 
pending climate crisis.
    Mr. Karsner. Thank you, sir. I wouldn't agree with that as 
a uniform statement. I certainly think that is true and would 
apply to some, but I mean, I can think of outstanding leaders 
like Walmart, Google, Dow Chemical. There are many that are----
    Mr. Casten. Sure.
    Mr. Karsner [continuing]. Using international, voluntary 
performance standards that are world class, but there is not a 
compliance standard that ensures that uniformly we are doing 
it. So one could say we are lagging in general, but I wouldn't 
say universally that is true across the board.
    Mr. Casten. Yeah, no, and thank you for the clarification. 
Because that is why I said at the start there, good actors--I 
sometimes think that Walmart's commitment to buy a hundred 
percent clean energy would be something that we should follow 
since I think Walmart's the number 2 electricity consumer in 
the country, and the Department of Defense is number 1.
    Maybe we could find some things we could copy there from 
the private sector. But let me just pick up on what you said, 
because this sort of universality of disclosures, would you 
agree at least that the current range of disclosure protocols 
is inconsistent and, therefore, how public corporations 
disclose the risk has a pretty wide error band around it?
    Mr. Karsner. Absolutely true, and I think that the amount 
of undisclosed risk is sufficiently opaque, that Congress 
should be significantly alarmed about how mispriced risk is 
affecting things in the marketplace today.
    Absent any policy guardrails, the market is moving on, it 
is discounting real estate prices, it is making insurance 
unaffordable for homeowners along the coast, in the Carolinas, 
in Florida. It is even making insurance inaccessible in some 
places.
    So the delta of mispriced risk that is occurring in the 
marketplace, versus the government's assessment or compliance 
standards for it, is a significant gap, and I would find it to 
be a worrisome gap.
    Mr. Casten. Do you think there is a role for us to at least 
standardize the way in which those risks are disclosed?
    Mr. Karsner. Yeah, I personally think it is fundamental to 
the functioning of a marketplace to have transparency and 
disclosure, accountability, and responsibility of all the 
actors, whether they are individuals, homeowners, small 
businesses, or corporations. That is what makes a market 
function well, with societal guardrails, to an outcome that our 
representatives would prescribe.
    Right now, I think we are neglecting that objective, and I 
think Congress has an opportunity to say, this is the 
accountability we would want. What we are looking at is a 
classic economic tragedy of the commons. This is all ball. And 
the question is, what will the remedy of the commons be?
    And the remedy will be accountability through transparency 
and reporting that has people making risk management and 
investment decisions based on accounting for the value of 
nature.
    Mr. Casten. Well, first off, when we are done here, I may 
hire you for my comms director. And don't get me wrong, my 
comms director is awesome. You can apply for the job. Put it 
that way, it is going to be contentious.
    But this is precisely why I introduced H.R. 3623 with 
Representative Cartwright. Senator Warren is leading the Senate 
version of this. And, you know, coming from the private sector, 
I am not aware that you can choose, as a corporation, any 
flavor you want of how to disclose your liabilities.
    Gap says what the liabilities are. And while ESG reporting 
is terrific, there is a wild disparity in how companies report 
the liability that their investors face on climate change.
    And what the Climate Risk Disclosure Act would do--it 
passed out of Financial Services earlier this month by the 
way--would prior public corporations to disclose information 
relating to their financial and business risks associated with 
climate change and would require them to do that in a standard 
way.
    And, you know, as I sit here and look at how investors make 
decisions, investors balance risk and return. But if the risk 
isn't disclosed in a consistent way, it is very hard to expect 
consistent returns.
    So thank you, and I encourage all of my colleagues to 
follow the good guidance of our excellent witness. I yield 
back.
    Mr. Huffman. And support your bill.
    Mr. Casten. And support my bill, yes.
    Ms. Castor. Terrific. Well, I want to thank the witnesses 
and all of the Members for engaging today on these important 
natural solutions.
    As we have heard, nature offers us so many solutions to the 
climate crisis, and I think we have identified common ground--
pun intended--for our March committee recommendations. I want 
to remind everyone that we have a request for detailed policy 
proposals on our website, House.climatecrisis.gov. The deadline 
for those recommendations for the committee is November 22nd.
    But I also wanted to highlight a report that came out 
yesterday that Chairman Paul Tonko hosted the scientist over in 
the Rayburn. They were from Woods Hole Research Center, and 
their just-released study said that the Arctic now in winter is 
releasing carbon dioxide, making it a source of carbon, rather 
than a sink that we had all hoped would be maintained.
    But the earth is warming, the Arctic carbon deep freeze is 
breaking, and that is one of the reasons that we have all got 
to work together to follow the science and develop bipartisan 
climate solutions to tackle the climate crisis. So thank you 
all for being here.
    I want to ask unanimous consent to include in the record 
the summary for decision-makers of the report, The Ocean As a 
Solution to Climate Change.
    Dr. Jennifer Howard is one of the authors of this important 
report, and it was this high-level panel for sustainable ocean 
economy is a unique initiative of 14 serving heads of 
government, including Australia, Canada, Chile, and other 
countries.
    So without objection, this is entered into the record.
    [The information follows:]

                       Submission for the Record

                      Representative Kathy Castor

                 Select Committee on the Climate Crisis

                            October 22, 2019

    ATTACHMENT: Hoegh-Guldberg, Caldeira, Chopin, Gaines, Haugan, 
Hemer, Howard, et al. The Ocean as a Solution for Climate Change: Five 
Opportunities for Action. World Resources Institute, 2019.
    The report is retained in the committee files and available at: 
http://live-oceanpanel.pantheonsite.io/sites/default/files/2019-10/
19_PAGER_HLP_web.pdf.

    Ms. Castor. Thank you all for being here today. The 
committee's adjourned.
    [Whereupon, at 3:35 p.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
